<html>
<title> - NANOTECHNOLOGY EDUCATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        NANOTECHNOLOGY EDUCATION

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 2, 2007

                               __________

                           Serial No. 110-60

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science



                     U.S. GOVERNMENT PRINTING OFFICE
37-986                     WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. BRIAN BAIRD, Washington, Chairman
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            ROSCOE G. BARTLETT, Maryland
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
BARON P. HILL, Indiana                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 JIM WILSON Subcommittee Staff Director
          DAHLIA SOKOLOV Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                 MEGHAN HOUSEWRIGHT Research Assistant


                            C O N T E N T S

                            October 2, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     7

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    11

Prepared Statement by Representative Daniel Lipinski, Member, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........    11

Statement by Representative Darlene Hooley, Member, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

                               Witnesses:

Dr. David A. Ucko, Deputy Division Director, Division of Research 
  on Learning in Formal and Informal Settings; Directorate for 
  Education and Human Resources, National Science Foundation
    Oral Statement...............................................    13
    Written Statement............................................    14
    Biography....................................................    20

Dr. Nivedita M. Ganguly, Chairperson, Science Department, Oak 
  Ridge High School, Oak Ridge, TN
    Oral Statement...............................................    20
    Written Statement............................................    22
    Biography....................................................    24

Dr. Hamish L. Fraser, Ohio Regents Eminent Scholar and Professor, 
  Department of Materials Science and Engineering, Ohio State 
  University
    Oral Statement...............................................    27
    Written Statement............................................    28
    Biography....................................................    32

Dr. Ray Vandiver, Vice President of New Project Development, 
  Oregon Museum of Science and Industry
    Oral Statement...............................................    32
    Written Statement............................................    34
    Biography....................................................    38

Mr. Sean Murdock, Executive Director, NanoBusiness Alliance
    Oral Statement...............................................    38
    Written Statement............................................    40

Dr. Gerald Wheeler, Executive Director, National Science 
  Teachers' Association
    Oral Statement...............................................    42
    Written Statement............................................    44
    Biography....................................................    48

Discussion.......................................................    48

             Appendix 1: Answers to Post-Hearing Questions

Dr. David A. Ucko, Deputy Division Director, Division of Research 
  on Learning in Formal and Informal Settings; Directorate for 
  Education and Human Resources, National Science Foundation.....    66

Dr. Nivedita M. Ganguly, Chairperson, Science Department, Oak 
  Ridge High School, Oak Ridge, TN...............................    69

Dr. Hamish L. Fraser, Ohio Regents Eminent Scholar and Professor, 
  Department of Materials Science and Engineering, Ohio State 
  University.....................................................    71

Dr. Ray Vandiver, Vice President of New Project Development, 
  Oregon Museum of Science and Industry..........................    73

Mr. Sean Murdock, Executive Director, NanoBusiness Alliance......    74

Dr. Gerald Wheeler, Executive Director, National Science 
  Teachers' Association..........................................    75

             Appendix 2: Additional Material for the Record

H.R. 2436, To authorize the National Institute of Standards and 
  Technology to increase its efforts in support of the 
  integration of the health care information enterprise in the 
  United States..................................................    80


                        NANOTECHNOLOGY EDUCATION

                              ----------                              


                        TUESDAY, OCTOBER 2, 2007

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                        Nanotechnology Education

                        tuesday, october 2, 2007
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

1. Purpose

    The purpose of this hearing is for the Subcommittee to receive 
testimony on H.R. 2436, the Nanotechnology in Schools Act, and also to 
review current nanotechnology education activities supported under the 
National Nanotechnology Initiative and to explore issues associated 
with educating students and the public about nanotechnology.

2. Witnesses

Dr. David Ucko, National Science Foundation, Deputy Division Director 
of the Education and Human Resources Division on Research and Learning. 
Dr. Ucko coordinates education activities in nanoscale science and 
engineering across NSF.

Dr. Nivedita Ganguly, Head of the Science Department at Oak Ridge High 
School, Oak Ridge Tennessee.

Dr. Hamish Fraser, Ohio Regents Eminent Scholar and Professor, 
Department of Materials Science Engineering, the Ohio State University.

Dr. Ray Vandiver, Vice President of New Project Development, Oregon 
Museum of Science and Industry.

Mr. Sean Murdock, Executive Director, NanoBusiness Alliance.

Dr. Gerald Wheeler, Executive Director, National Science Teachers 
Association.

3. Overarching Questions

        <bullet>  What unique benefits does access to high-tech 
        equipment generally offer to high school students, 
        undergraduates and community college students, and visitors to 
        informal science centers?

        <bullet>  What science, technology, engineering, and 
        mathematics (STEM) education goals do hands-on opportunities 
        with high-tech equipment fulfill at the secondary school level 
        and at the post-secondary school level? What goals does 
        providing these opportunities meet for the nanotechnology 
        research and business communities?

        <bullet>  What factors need to be considered when bringing 
        high-tech equipment to the classroom?

        <bullet>  What types of educational activities is the Federal 
        Government funding in nanoscale science and engineering under 
        the National Nanotechnology Initiative? Is the level of 
        resources available for these activities adequate? Are the 
        priorities for funding appropriate?

4. Background

Nanoscale Science and Engineering
    The emerging field of nanoscale science and engineering (NSSE)--the 
science of manipulating matter at the molecular level--holds tremendous 
potential. Research in this area has already led to medicine-dispensing 
contact lenses, stain-resistant clothing, and many other advances in 
science, health, and consumer products. The impact of this technology 
on Americans' quality of life and economic prosperity could be enormous 
and thus it is clearly necessary for the United States to stay at the 
forefront of scientific research and development in the NSSE field. To 
accomplish this, the Nation needs a full pipeline of talented engineers 
and scientists, and a scientifically literate public, able to exploit 
and understand this new science.

H.R. 2436, the Nanotechnology in Schools Act
    The purpose of H.R. 2436, the Nanotechnology in Schools Act, is to 
expose American students to the high-tech realm of nanotechnology, 
leading them to a greater interest and higher facility in science and 
technology. The bill would direct the National Science Foundation to 
create a grant program making it possible for eligible institutions to 
purchase nanotechnology equipment for educational purposes. The 
qualifying institutions--high schools, two-year colleges, undergraduate 
serving programs, and informal science education centers--could apply 
for competitively awarded, merit-based grants of up to $150,000 to 
purchase instrumentation and materials to teach NSSE principles to 
students and/or the public. In addition to equipment, the funds could 
be used for relevant software, as well as teacher and faculty 
professional development, and student educational activities. In making 
their awards, NSF is encouraged to select institutions that represent a 
diverse geographic area and a diverse student body. The activities in 
H.R. 2436 are authorized at $15,000,000 for fiscal year 2008, and for 
such sums as may be necessary for fiscal years 2009 through 2011.

Current Nanotechnology Education Activities Under the National 
        Nanotechnology Initiative
    The National Nanotechnology Initiative (NNI) has funded more than 
$6918.1 million in research and related activities in NSSE across the 
federal science agencies since it began in 2001. In fiscal year 2007, 
Congress funded research in this area at $1353.9 million. As part of 
its work on this initiative, NSF supports a number of educational 
activities designed to teach K-16 students, science teachers, faculty 
members, and the general public about nanotechnology. In fiscal year 
2006, NSF funded $26.2 million in this area and the agency reports 
similar funding levels for nano education for this year and next.\1\ 
NSF estimates they educate 10,000 students and teachers per year with 
these funds. Major NSSE education initiatives include the National 
Center for Learning and Teaching (NCLT) in Nanoscale Science and 
Engineering and the Nanoscale Informal Science Education (NISE) 
Network. NCLT is a consortium of five universities with a mission to 
foster the Nation's talent in NSSE by developing methods for learning 
and teaching through inquiry and design of nanoscale materials and 
applications. They perform research and serve as a clearinghouse for 
information regarding NSSE curriculum, teaching methodologies, and 
professional development for the undergraduate and K-12 levels. NCLT is 
operating in the fourth year of a five year $15,000,000 million grant. 
The NISE network received a $12.4 million dollar grant from NSF in 2005 
to develop methods of introducing the nanotechnology to the public and 
to draw students to careers in NSSE.
---------------------------------------------------------------------------
    \1\ FY 2007 estimate: $27.8 million; FY 2008 budget: $28.6 million.
---------------------------------------------------------------------------
    NSF also has a Nanotechnology Undergraduate Education Program which 
funded $42.7 million since 2003. The grants in this program have gone 
to develop curriculum and purchase equipment in NSSE for undergraduate 
students in different science and engineering disciplines. As part of 
the Advanced Technology Education Centers program, NSF has funded $2.68 
million since 2004 to develop nanotechnology related technician 
education programs at community colleges.

Important Considerations
    The vital role NSSE will play in the future of science and 
technology dictates the necessity of supporting educational activities 
that will cultivate students who are enthusiastic and able to pursue 
careers in all aspects of nanotechnology. However, to maximize the 
benefit the opportunity to work with high-tech scientific equipment can 
have for students, the new technology and concepts must be carefully 
integrated with the larger body of science knowledge students must 
already learn. Professional development for anyone teaching new 
technology should also be considered an essential part of brining high-
tech scientific equipment to the classroom. NSF's current and future 
NSSE educational activities offer the chance to create holistic 
programs that will increase the depth and breadth of student's science 
knowledge.

5. Questions to Witnesses

Dr. David Ucko

        1.  Please describe NSF's current activities in nanoscale K-16 
        science education and the funding level for these activities. 
        Why does NSF believe funding and promoting nanoscale science 
        and engineering educational activities is important? How does 
        nanoscale science and engineering education fit into the larger 
        picture of improving STEM education and literacy in all levels 
        of the population?

        2.  What educational activities (and which audiences) does NSF 
        believe are most important to reach with information on 
        nanoscale science and engineering?

        3.  At all levels, but the K-12 and informal science education 
        level especially, is professional development and the 
        integration of this new, advanced field into existing 
        curriculum, receiving adequate attention and forethought?

        4.  What is NSF's opinion on H.R. 2436, the Nanotechnology in 
        Schools Act? Would this program compliment the Foundation's 
        current activities in nanoscale science education?

Dr. Nivedita Ganguly

        1.  Please describe your experiences using high-tech scientific 
        equipment in the high school classroom. What benefits do you 
        feel students would receive from having the opportunity to work 
        with nanotechnology equipment? Would students from a wide 
        variety of backgrounds be able to use and learn from the 
        equipment?

        2.  With the myriad topics high school science teachers must 
        currently cover, how do educators strategically choose new 
        experiences for students in the sciences? How do you integrate 
        the newest concepts into the curricula to give students an 
        appreciation for the new material and an excitement about 
        science, as well as a deeper understanding of the fundamentals?

        3.  What kinds of professional development opportunities would 
        teachers need to help them integrate nanotechnology into their 
        curriculum and properly use and maintain high-tech equipment?

        4.  Are there problems obtaining funds needed for the 
        maintenance of high-tech equipment? How does Oak Ridge High 
        School address these?

Dr. Hamish Fraser

        1.  Please describe current nanotechnology education efforts at 
        the undergraduate level. As new fields emerge in science, how 
        do university science departments merge them into the current 
        undergraduate curriculum?

        2.  How would a grant program, like the one proposed by H.R. 
        2436, be used by undergraduate serving programs? At the college 
        level, does the opportunity to work with new technology draw in 
        students who might otherwise have been uninterested in science? 
        Do hands-on experiences offer a unique learning opportunity 
        that is difficult to replicate in a lecture?

        3.  What types of nanotechnology equipment could be used for 
        educational benefit at the undergraduate level?

Dr. Ray Vandiver

        1.  Please describe the nanoscale science and engineering 
        educational activities the Oregon Museum of Science and 
        Industry (OMSI) is engaged in and OMSI's role in the Nanoscale 
        Informal Science Education Network.

        2.  Would H.R. 2436, the Nanotechnology in the Schools Act, be 
        a beneficial resource for informal science education 
        institutions? What priority should it be given relative to 
        other kinds of support for informal science education 
        activities? How would science museums integrate advanced 
        equipment into their educational activities?

        3.  What types of professional development opportunities are 
        available to informal science educators? What types of programs 
        would need to exist to ensure that these educators understand 
        both the scientific concepts, as well as the equipment?

        4.  How do informal science education centers decide which 
        subject matter they will focus on? What resources do they use 
        to help create exhibits and programming that matches content to 
        the knowledge level and interest of the audience?

        5.  Do science museums have resources to maintain advanced 
        equipment?

Mr. Sean Murdock

        1.  What challenges do nanotechnology oriented businesses 
        currently face in filling their workforce needs? Are there 
        particular skills that are in short supply?

        2.  What effects would the nano-business community hope to see 
        from introducing students and the public to nano-science 
        through hands-on experiences?

        3.  Are nano-oriented businesses currently engaging in 
        educational activities? How can they be encouraged to form 
        partnerships that will give students opportunities beyond the 
        classroom where they can further explore and engage with 
        nanotechnology?

Dr. Gerald Wheeler

        1.  What is the National Science Teachers Association's opinion 
        on H.R. 2436, the Nanotechnology in Schools Act? What is the 
        appropriate role for high-tech equipment in the secondary 
        science classroom?

        2.  With the myriad topics high school science teachers must 
        currently cover, how do educators strategically choose new 
        experiences for students in the sciences? How do you integrate 
        the newest concepts into the curricula to give students an 
        appreciation for the new material and an excitement about 
        science, as well as a deeper understanding of the fundamentals?

        3.  What kinds of professional development opportunities would 
        teachers need to help them integrate new, high-tech equipment 
        into their curriculum and properly use and maintain high-tech 
        equipment?
    Chairman Baird. Good afternoon. Welcome to our panelists 
and those in the audience and my good friend, Vern Ehlers. I 
want to welcome everyone to today's hearing on nanotechnology 
education and thank our witnesses for being here. This hearing 
stands adjourned. Little nano joke, very little.
    Developments in the field of nanotechnology are incredibly 
exciting. Science now has the ability to not just see or 
perceive matter at its smallest scale but also to manipulate it 
and create new materials. I am certain the flood of discoveries 
and applications just around the corner will touch every aspect 
of our lives, including medicine and computing. Indeed, some of 
these applications, like enhanced textiles, have already 
arrived, generating billions of dollars in economic impact.
    The questions we are concerned with today is how we will 
build the workforce to propel discovery and keep America at the 
forefront of nanotechnology. This question once again brings us 
to science education, which has been an issue of great concern 
for this committee.
    At present, the Federal Government invests $1.5 billion in 
nanotechnology research and development through the National 
Nanotechnology Initiative. Certainly, this investment is 
crucial. However, if we ignore the fact that there simply are 
not enough American students prepared to carry out this 
research and development, we could find much of that investment 
wasted as other countries take the lead in nanotechnology.
    We face two very steep challenges in science education. One 
is to raise students' interest in math and science. The other 
is to raise their competency.
    The Nanotechnology in the Schools Act, which I will let my 
friend, Congresswoman Hooley, from Oregon, explain in a moment 
in detail, will offer an intriguing way to attack both of these 
challenges.
    I am interested in hearing from our witnesses today about 
how putting incredibly advanced technology into the hands of 
students can capture their attention and inspire them to pursue 
math and science career paths, especially in the area of 
nanotechnology.
    I am also interested to hear about the investment the 
Federal Government is already making in nanotech education, 
both for students and the general public, and to learn more 
about the impact these investments are having.
    I will now yield to my good friend, Congressman Ehlers, Dr. 
Ehlers, the Ranking Member of the Committee.
    [The prepared statement of Chairman Baird follows:]

               Prepared Statement of Chairman Brian Baird

    Good afternoon. I'd like to welcome everybody to today's hearing on 
Nanotechnology Education and thank our witnesses for being here.
    Developments in the field of nanotechnology are incredibly 
exciting. Science now has the ability to not just see or perceive 
matter at its smallest scale, but also to manipulate it and create new 
materials. I am certain that the flood of discoveries and applications 
just around the corner will touch every aspect of our lives, including 
medicine and computing. Indeed, some of these applications, like 
enhanced textiles, have already arrived--generating billions of dollars 
in economic impact.
    The question we are concerned with today is how we will build the 
workforce to propel discovery and keep America at the forefront of 
nanotechnology. This question once again brings us to science 
education, which has been an issue of great concern for this committee.
    At present, the Federal Government invests one and a half billion 
dollars in nanotechnology research and development through the National 
Nanotechnology Initiative. Certainly, this investment is crucial. 
However, if we ignore the fact that there simply are not enough 
American students prepared to carry out this research and development, 
we could find much of that investment wasted as other countries take 
the lead in nanotechnology.
    We face two very steep challenges in science education: one is to 
raise students' interest in math and science; the other is to raise 
their competency.
    The Nanotechnology in the Schools Act, which I will let my friend 
from Oregon, Ms. Hooley, explain in detail, offers an intriguing way to 
attack both of these challenges.
    I am very interested in hearing from our witnesses today about how 
putting incredibly advanced technology in the hands of students can 
capture their attention and inspire them to pursue math and science 
career paths, especially in the area of nanotechnology.
    I am also very interested to hear today about the investment the 
Federal Government is already making in nanotechnology education, both 
for students and the general public, and the impact these investments 
are having.

    Mr. Ehlers. I thank the Chairman and I appreciate his 
demonstration of his nano sense of humor. Sorry about that.
    Chairman Baird. I had it, though. That is pretty good.
    Mr. Ehlers. Actually, I am not sorry. Since you got it.
    Thank you, Mr. Chairman. Today's hearing will examine a 
bill to prepare students for careers in nanotechnology and look 
at the current state of nanotechnology education at the high 
school and undergraduate level. The Science and Technology 
Committee has supported a number of nanotechnology and 
education activities through the National Nanotechnology 
Initiative and remains interested in ways that we can improve 
these programs. I am glad that we will hear today from a 
variety of individuals who all agree that nanotechnology is an 
important part of our future science and technology workforce.
    It would be wonderful if every high school and college 
student had the opportunity to use nanotechnology equipment and 
become exposed to the cutting edge of this innovative field at 
an early age. The intent of the bill, to grow the 
nanotechnology workforce by capturing student interest early, 
is clearly commendable. With that said, though, I have some 
reservations as to the way that this bill attempts to achieve 
these goals.
    Earlier this year the Research and Science Education 
Subcommittee examined another bill which authorized a pilot 
grant program at the National Science Foundation for high 
school laboratory equipment. The Partnership for Access to 
Library Science, Laboratory Science, better known as PALS, bill 
became a part of the America COMPETES Act, signed into law in 
August.
    The schools eligible for the PALS grants have to be high-
need schools, and I believe this is appropriate. When we were 
evaluating the PALS bill, this subcommittee heard, learned from 
another panel of witnesses that at many schools the need for 
even the most rudimentary laboratory materials was indeed high.
    We also learned from witnesses that at times, federal 
science education programs do not adequately align with State 
science and math standards, making it difficult for well-
intentioned materials to be utilized by a typical classroom 
school teacher.
    That leads to my concerns about this bill, H.R. 2436, 
because it provides equipment for low-need schools. Perhaps a 
better route to achieve the bill's goals would be to encourage 
companies to donate equipment and employee time to exceptional 
high schools and undergraduate programs. Perhaps even 
considering tax incentives for that program.
    This committee's bipartisan goal has always been to ensure 
that all of our nation's students receive an excellent 
education in science and not just the low-need schools. And we 
will not waver from that goal. I hope that our witnesses today 
and help us determine how H.R. 2436 would help us achieve that 
goal so that all students benefit, not just those with 
exceptional teachers, students, and equipment.
    I yield back.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    Today's hearing will examine a bill to prepare students for careers 
in nanotechnology, and look at the current state of nanotechnology 
education at the high school and undergraduate level. The Science and 
Technology Committee has supported a number of nanotechnology and 
education activities through the National Nanotechnology Initiative, 
and remains interested in ways that we can improve these programs. I am 
glad that we will hear today from a variety of individuals who all 
agree that nanotechnology is an important part of our future science 
and technology workforce.
    It would be wonderful if every high school and college student had 
the opportunity to use nanotechnology equipment and become exposed to 
the cutting edge of this innovative field at an early age. The intent 
of the bill--to grow the nanotechnology workforce by capturing student 
interest early--is clearly commendable. With that said, though, I have 
some reservations as to the way that this bill attempts to achieve its 
goals.
    Earlier this year, the Research and Science Education Subcommittee 
examined another bill which authorized a pilot grant program at the 
National Science Foundation for high school laboratory equipment. The 
Partnership for Access to Laboratory Science (PALS) bill became a part 
of the America COMPETES Act, signed into law in August. The schools 
eligible for the PALS grants have to be high-need schools, and I 
believe this is appropriate. When we were evaluating the PALS bill, 
this subcommittee learned from another panel of witnesses that at many 
schools, the need for even the most rudimentary laboratory materials 
was indeed high. We also learned from witnesses that at times, federal 
science education programs do not adequately align with State science 
and math standards, making it difficult for well-intentioned materials 
to be utilized by a typical classroom schoolteacher.
    That leads to my concerns about H.R. 2436, because it provides 
equipment for low-need schools. Perhaps a better route to achieve the 
bill's goals would be to encourage companies to donate equipment and 
employee time to exceptional high schools and undergraduate programs. 
This committee's bipartisan goal has always been to ensure that all of 
our nation's students receive an excellent education in science, and we 
will not waver from that goal. I hope that our witnesses today can help 
us determine how H.R. 2436 would help us achieve that goal, so that all 
students benefit, not just those with exceptional teachers and 
students.

    Chairman Baird. Thank you, Dr. Ehlers.
    Ms. Hooley, I would now recognize the author of the bill, 
the gentlelady from Oregon, Darlene Hooley.
    Ms. Hooley. Thank you, Mr. Chair. I appreciate you holding 
this hearing today, and I appreciate your interest in this.
    Everyone in this room can agree that the emerging field of 
nanotechnology holds tremendous potential, potential that is 
becoming more and more evident with every new breakthrough. 
Research in this area has already led to new cancer treatments, 
more powerful computers, and energy conversion and storage 
breakthroughs.
    Nanotechnology will revolutionize manufacturing, computing, 
energy, health care, national defense, and many other sectors 
by improving the way things are designed and made.
    It is clearly necessary for the Untied States to remain at 
the forefront of research and development in the field of 
nanotechnology. Already we are facing challenges to our 
leadership by China, Japan, the European Union, Indian, and 
others.
    For America to remain and expand its leadership, we must 
have a full pipeline of scientists and engineers who are 
capable of conducting nanotechnology research and development. 
And we must have a scientifically literate public, able to 
exploit and understand this new science.
    The purpose of my legislation, the Nanotechnology in the 
Schools Act, is to expose American students to the high-tech 
realm of nanotechnology, encouraging them to take a greater 
interest in this new field.
    It authorizes $15 million for the National Science 
Foundation to create a grant program making it possible for 
high schools, two-year colleges, undergraduates serving 
institutions, and informal science education centers to 
purchase nanotechnology equipment for educational purposes.
    These grants can be used to purchase instruments and 
materials to teach nanotechnology principles to students and 
the public. In addition, the funds can be used for training 
teachers and professors to use these tools in the classroom and 
the laboratory.
    I want to thank all of our witnesses for agreeing to 
testify today and for providing your valuable insight into the 
best way that we can introduce nanotechnology to America's 
greatest asset: its students.
    And with that I yield back the remainder of my time.
    [The prepared statement of Ms. Hooley follows:]

          Prepared Statement of Representative Darlene Hooley

    Thank you Mr. Chairman.
    First, I would like to thank you for holding this hearing today and 
for your work on this issue.
    Everyone in this room today can agree that the emerging field of 
nanotechnology holds tremendous potential, potential that is becoming 
more and more evident with every new breakthrough. Research in this 
area has already led to new cancer treatments, more powerful computers, 
and energy conversion and storage breakthroughs.
    Nanotechnology will revolutionize manufacturing, computing, energy, 
health care, national defense, and many other sectors by improving the 
way things are designed and made.
    It is clearly necessary for the United States to remain at the 
forefront of research and development in the field of nanotechnology. 
Already we are facing challenges to our leadership by China, Japan, the 
European Union, India and others.
    For America to maintain and expand its leadership, we must have a 
full pipeline of scientists and engineers who are capable of conducting 
nanotechnology research and development. And we must have a 
scientifically literate public, able to exploit and understand this new 
science.
    The purpose of my legislation, the Nanotechnology in the Schools 
Act, is to expose American students to the high-tech realm of 
nanotechnology, encouraging in them a greater interest in this new 
field.
    It authorizes $15 million for the National Science Foundation to 
create a grant program making it possible for high schools, two-year 
colleges, undergraduate serving institutions, and informal science 
education centers to purchase nanotechnology equipment for educational 
purposes.
    These grants can be used to purchase instrumentation and materials 
to teach nanotechnology principles to students and the public. In 
addition, the funds can be used for training teachers and professors to 
use these tools in the classroom and the laboratory.
    Thank you to all of our witnesses for agreeing to testify today and 
for providing your valuable insight into the best way that we introduce 
nanotechnology to America's greatest asset, its students.

    Chairman Baird. Thank the gentlelady for her initiative of 
the legislation of her opening remarks.
    We have also been joined by Dr. Jerry McNerney. If there 
are other Members who wish to submit additional opening 
statements, those statements will be added to the record at 
this point.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank you, Mr. Chairman. Nanotechnology research and business are 
important to Dallas and important to Texas.
    The Texas Nanotechnology Initiative is holding an international 
convention this week in Dallas. The focus is to allow researchers, 
start-up companies, government officials and others to learn about the 
latest research developments in this field.
    Of added benefit are the connections that will be made and the 
ideas that will be exchanged.
    In Texas, the governor has established a venture capital-like 
entity that invests State funds into small businesses with promising 
nanotechnology concepts.
    That interest, in conjunction with a strong college and university 
emphasis throughout Texas, has positioned our state as a leader in 
nanotechnology research and development.
    Today's hearing will explore how the National Nanotechnology 
Initiative supports nanotech education activities and how H.R. 2436, 
the Nanotechnology in the Schools Act, will further contribute to 
improvements in nanotech educational activities.
    The National Nanotechnology Initiative (NNI) is a federal research 
and development program established to coordinate the multi-agency 
efforts in nonsocial science, engineering, and technology.
    Because of the promise of nanotechnology to improve lives and to 
contribute to economic growth, the Federal Government established the 
NNI to help make the United States a global leader in nanotechnology 
development.
    The Nanotechnology in the Schools Act, introduced by my colleague 
from Oregon, Congresswoman Darlene Hooley, requires the Director of the 
National Science Foundation to establish a nanotechnology in the 
schools program.
    The program would award grants to public or charter secondary 
schools offering advanced science courses and to institutions of higher 
education, for the purchase of nanotechnology equipment and software 
and the provision of nanotechnology education to students and teachers.
    As the Committee on Science and Technology considers the 
legislation, we want to gain insight from the education and business 
communities about how to best leverage our investments to best prepare 
students to enter nanotechnology careers.
    I would like to extend a warm welcome to today's witnesses. Thank 
you, Mr. Chairman. I yield back the balance of my time.

    [The prepared statement of Mr. Lipinski follows:]

          Prepared Statement of Representative Daniel Lipinski

    I am pleased that with this hearing today, we will continue the 
discussion of what I see as a potentially enormous field that could 
impact virtually every sector of the economy--nanotechnology.
    The State of Illinois has a long history in nanotechnology and was 
ranked eighth in the Nation this year by Small Times magazine of 
leading nanotechnology states. The University of Illinois at Urbana-
Champaign has taken a lead with its four centers dedicated to the study 
of nanotechnology. U of I's Micro and Nanotechnology Laboratory 
recently underwent an $18 million expansion, making it one of the 
Nation's largest and most sophisticated university-based centers of its 
kind.
    Northwestern University also has been at the forefront, taking 
advantage of this emerging, transformational technology that has 
allowed it to differentiate itself and be a leader in the field. In 
fact, NU is ranked fifth in the Nation on the topic of nanotechnology, 
helping to make Chicago a leader in the field. The Northwestern 
International Institute for Nanotechnology is the first center of its 
kind in the world.
    Northwestern's nanotech research has received a total of $350 
million thus far from State and federal funding sources. This research 
has resulted in approximately 10 spin-off companies, which are 
conducting cutting edge research yielding stunning results. Earlier 
this year, NU scientists demonstrated regenerative nanomaterial that 
allowed paralyzed mice to regain the ability to walk about one and a 
half months after initial treatments. Human tests should begin in a few 
years, which could have significant implications for treating 
Parkinson's and Alzheimer's patients. Another company is developing 
nanoencryption technology to protect consumers from unsafe, counterfeit 
drugs.
    These examples give us just a glimpse into the new and exciting 
places where nanotechnology can take us. Let me commend Ms. Hooley on 
her important bill that will help to expand our efforts in the field of 
STEM education and thank Chairman Gordon for his dedication to this 
important issue. I look forward to continuing this discussion in the 
months ahead as we work to reauthorize the National Nanotechnology 
Initiative next year.

    Chairman Baird. And at this point I would like to introduce 
our witnesses. Dr. David Ucko of the National Science 
Foundation is Deputy Division Director of the Education and 
Human Resources Division of Research on Learning in Formal and 
Informal Settings. He is involved with educational activities 
in nano-scale science and engineering across NSF.
    Dr. Nivedita Ganguly is the Head of the Science Department 
at Oak Ridge High School in Oak Ridge, Tennessee.
    Dr. Hamish Fraser is the Ohio Regents Eminent Scholar and a 
Professor of Material Science at Ohio State University.
    I will briefly skip Dr. Ray Vandiver in favor of letting 
Ms. Hooley introduce him, as he is from Portland, across the 
river from me. Welcome, Doctor.
    Mr. Sean Murdock is the Executive Director of the 
NanoBusiness Alliance.
    And Dr. Gerald Wheeler is the Executive Director of the 
National Science Teachers' Association.
    Ms. Hooley, would you care to introduce Dr. Vandiver?
    Ms. Hooley. Yes. It gives me great pleasure to introduce 
Dr. Vandiver. He is the Vice President of New Project 
Development for the Oregon Museum of Science and Industry, a 
wonderful place, by the way. He is a Principle Department Head 
responsible for development, design, fabrication, and 
maintenance of OMSI's public exhibitions and programs.
    Dr. Vandiver received his Ph.D. in atomic and molecular 
physics from the University of Missouri-Rolla. He has been 
involved in informal science education for the past 17 years. 
He has been the recipient of several grant awards in the field 
of informal science education from the National Science 
Foundation and NASA. He has been invited to sit on numerous 
panels as a representative of the Science Museum field, 
including at NSF, the National Institute of Health, the 
National Academies Committee on Assessing Technological 
Literacy.
    Thank you, Doctor, for being here today. I am looking 
forward to hearing your insights on this issue. Thank you. And 
welcome, by the way.
    Chairman Baird. Our witnesses should know we have a five-
minute opening statement period and followed by questions. As I 
mentioned to some earlier this is a friendly committee. We have 
good discussions, and by and large it is positive on a topic 
like this, especially. If you don't talk about global warming, 
we will have even less of an argument probably. Although thus 
far with the Committee make-up, you would be in good shape. If 
a few other Members join us, we will have a more spirited 
rapport on that.
    As Dr. Ehlers pioneered in this committee, if the yellow 
light goes on, you will have about a three-second warning, and 
then the chair will drop out from under you, and you will 
disappear, and we will not hear from you again.
    So with that let me begin with Dr. David Ucko. Thank you 
all for being here.

   STATEMENT OF DR. DAVID A. UCKO, DEPUTY DIVISION DIRECTOR, 
    DIVISION OF RESEARCH ON LEARNING IN FORMAL AND INFORMAL 
   SETTINGS; DIRECTORATE FOR EDUCATION AND HUMAN RESOURCES, 
                  NATIONAL SCIENCE FOUNDATION

    Dr. Ucko. Chairman Baird, Ranking Member Ehlers, and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to address you today about NSF education programs 
on nanoscale science and engineering.
    NSF invests in a comprehensive set of programs in formal 
and informal education. This investment is important because 
nanotechnology is an emerging field expected to have 
significant economic workforce and societal impact. It fits 
into the larger picture of improving science and engineering 
education and literacy by engaging learners in current research 
and the ongoing process of discovery.
    Nano education presents some challenges. The content is 
abstract, and new discoveries get made daily. It is not in the 
mainstream K-12 curriculum and adding new content to existing 
overcrowded curricula and state standards, assessments, and 
textbooks isn't easy. Educational research and evaluation are 
limited.
    This context has guided NSF program development. In FY 
2007, investment for nano education awards was $28 million out 
of a total NNI investment of $373 million. Like other education 
awards, they target nearly all audiences from young learners 
through adults, via a wide range of activities.
    I would now like to highlight some examples. NSF awards 
develop and research instructional resources for students and 
teachers in grades 7 to 12 when students begin to consider 
careers. NSF has funded a flagship program to bridge formal 
education in nano research through the National Center for 
Learning and Teaching in Nano Scale Science and Engineering at 
Northwestern University and other partners. It is developing 
the next generation of leaders in nano teaching and learning 
and building capacity through work in learning research and 
development, nano concept research and development, higher 
education, professional development for high school teachers, 
and evaluation.
    Other K-12 projects are creating classroom modules. They 
follow a rigorous methodology based on determining initial 
student knowledge, identifying appropriate nano concepts and 
learning goals, developing student assessments, carrying out 
pilot tests and revision, dissemination, and assessing student 
understanding. Although nanoscience is far from a major 
curriculum thread, these projects are developing and testing 
models that could pave the way.
    Advances in nanotechnology research also provide new 
opportunities in post-secondary education. The most recent 
Nanotechnology Undergraduate Education competition focused on 
engineering of devices and systems and on societal, ethical, 
economic, and environmental issues. Nearly half the recent 
awards included equipment, such as scanning or atomic force 
microscopes as part of courses, modules, or laboratory 
experiences.
    NSF awards promote public engagement and understanding. The 
Nanoscale Informal Science Education Network at Boston's Museum 
of Science and collaborators, is linking science museums and 
nano research centers to develop exhibits, programs, public 
forums, and media for implementation at more than 100 partner 
sites. In addition to increasing public knowledge, these 
activities provide a new model and national infrastructure for 
connecting scientific research and informal education.
    NSF also supports education and outreach programs through 
its Nanoscale Science and Engineering Centers. Since 2001, NSF 
has funded 17 such centers, along with two user facility 
networks and others that focus on nano. All conduct a wide 
variety of educational activities complementary to their 
scientific research.
    In addition, many core programs throughout NSF support nano 
education. In Advanced Technological Education, for example, 
the Penn State Center for Nanotechnology Education and 
Utilization has generated associate degree programs in nano 
fabrication at 20 sites across the state, including every 
community college.
    So far, two nano education workshops have been held to 
foster a community of practice among educators from these 
diverse projects. A third being planned will provide the 
opportunity to disseminate initial findings so that others can 
build on them. In addition, the workshop will help inform NSF 
as it considers further opportunities for investment. NSF will 
also be guided by a program evaluation that will analyze and 
synthesize project reports and study the impact of researcher-
educator collaboration.
    With regard to the Nanotechnology in the Schools Act, 
purchase of equipment, along with training, can assist learning 
and teaching. On the other hand, the many programs that NSF 
have been and will continue to carry out legislative intent. 
The Subcommittee perhaps could consider revisiting this issue 
after research and evaluation have generated further knowledge 
about which educational strategies prove most effective for 
different audiences.
    I hope these comments provide some context for your 
deliberation, and I would be glad to answer questions.
    [The prepared statement of Dr. Ucko follows:]

                  Prepared Statement of David A. Ucko

    Chairman Baird, Ranking Member Ehlers, and distinguished Members of 
the Subcommittee, thank you for the opportunity to describe National 
Science Foundation (NSF) education programs based on nanoscale science, 
engineering, and technology.
    The NSF invests in a comprehensive set of programs in formal and 
informal nanoscale science and engineering education (NSEE). Overall, 
these programs seek to address the ``Learning'' goal in the NSF FY 
2006-2011 Strategic Plan (Investing in America's Future\1\ ), which is 
to cultivate a world-class, broadly inclusive science and engineering 
workforce, and expand the scientific literacy of all citizens. In 
addition, the programs seek to increase understanding through research 
and evaluation of effective learning and teaching about nanoscience and 
technology. Thus, they also address the ``Discovery'' goal to foster 
research that will advance the frontiers of knowledge. These 
investments contribute to the National Nanotechnology Initiative (NNI) 
Societal Dimensions Program Component Area subtopic: Education-related 
activities such as development of materials for K-12 schools, 
undergraduate programs, technical training, learning in informal 
settings, and public outreach (PCA 7\2\ ).
---------------------------------------------------------------------------
    \1\ National Science Foundation Investing in America's Future: 
Strategic Plan FY 2006-2011. http://www.nsf.gov/strategicplan; last 
accessed 09/24/2007.
    \2\ The National Nanotechnology Initiative: Research and 
Development Leading to a Revolution in Technology and Industry. 
Supplement to the President's 2007 Budget. July 2006. p. 25. http://
www.nano.gov/NNI<INF>-</INF>07Budget.pdf; last accessed 09/24/2007.
---------------------------------------------------------------------------

Background

    The NSF investment in NSEE is important for several reasons. 
Nanotechnology is an emerging field with enormous potential economic 
impact and implications for preparing our future workforce. In 
addition, NSEE opens new prospects for teaching and learning science 
and technology. It is inherently inter-disciplinary, drawing from 
physics, chemistry, biology, engineering, and other fields. It focuses 
on a size range (one to 100 nanometers) intermediate between the atomic 
and macroscopic scale that heretofore has been less studied and taught, 
yet involves new materials exhibiting unique and useful properties. As 
a result, nanotechnology offers a nearly limitless range of interesting 
applications that will likely impact our lives and society. For this 
reason, an informed public is essential. NSEE fits into the larger 
picture of improving science and engineering education and literacy by 
providing a vehicle for engaging learners in current research and the 
ongoing process of discovery.
    NSEE also presents challenges. The concept of scale, particularly 
outside the realm of our everyday experience, is difficult to grasp. 
Content drawn from nanoscale science and engineering (NSE) is abstract, 
complex, and involves quantum effects that are also challenging to 
understand. Like other areas of current science and technology, the 
body of knowledge constantly changes as new discoveries are made daily 
around the world. From an instructional standpoint, NSE content is not 
a part of the mainstream K-12 curriculum. Because they were developed a 
decade ago, the National Science Education Standards make no mention of 
NSE. Widely used and tested NSE curricula do not yet exist, and it is 
difficult to add new content to existing overcrowded curricula, State 
standards, assessments, and textbooks. There is limited educational 
research and evaluation about learning and teaching in this area.
    This context has guided NSF program development in NSEE. The NSF 
investment for NSEE awards in FY 2007 was $28 million, out of a total 
NSF NNI investment of $373 million. The educational investments are 
made by the Directorate for Education and Human Resources, of which I 
am part, as well as by the Directorates for Research and Related 
Activities. Like other NSF education programs, the NSEE programs seek 
to target nearly all audiences, from young learners to older adults, 
through a wide range of educational activities. They 1) develop and 
research instructional resources for students in grades 7-12 and their 
teachers; 2) develop and research undergraduate NSE programs; 3) 
promote public engagement and understanding through museum exhibits, 
programs, media, and web sites; 4) offer education and outreach 
programs in conjunction with NSE research centers; 5) incorporate NSEE 
within core programs, such as those that provide research experiences 
to teachers and students; and 6) study the impact of these educational 
efforts through research and evaluation. Awards are made based on 
proposals submitted to NSF and recommended through the merit review 
process.
    I would like to highlight examples that demonstrate the range of 
audiences and activities addressed through these educational 
investments.

K-12 Nanoscale Science and Engineering Education

    Students in grades 7 to 12 are a key audience for introducing NSEE 
because many are beginning to consider future careers. NSF has funded a 
flagship program to bridge formal education and NSE research through 
the National Center for Learning and Teaching in Nanoscale Science and 
Engineering (NCLT) at Northwestern University, in partnership with 
Purdue University, University of Michigan, University of Illinois at 
Chicago, and University of Illinois at Urbana-Champaign (with 
collaborating partners Alabama A&M University, Argonne National 
Laboratory, Fisk University, Hampton University, Morehouse College, 
University of Texas at El Paso, and several public school systems). The 
mission of NCLT is to develop the next generation of leaders in NSE 
teaching and learning, with an emphasis on capacity building. The work 
is organized around five themes: Learning Research and Development--
developing, testing, and disseminating learning activities; Nanoconcept 
Research and Development--introducing the latest concepts into science 
and engineering courses; Higher Education--training faculty and 
developing undergraduate courses and programs; Professional Development 
for High School Teachers--training teachers in nanoscience/engineering 
concepts; and Evaluation. Additional information can be found at http:/
/www.nclt.us.
    Other NSEE K-12 projects are developing materials for classroom 
learning and teaching. NanoLeap (Mid-Continent Regional Educational 
Laboratory) is creating and testing two month-long units in nanoscience 
to be used as replacement units in high school physics and chemistry 
courses (see http://www.mcrel.org/NanoLeap/). NanoSense (SRI 
International) is creating, testing, and disseminating a larger number 
of shorter curriculum units (see http://nanosense.org/). A Workshop to 
Identify and Clarify Nanoscale Learning Goals (University of Michigan) 
has assembled the most significant and developmentally appropriate 
learning goals in nanoscience for grade 7-16 learners; a report is 
currently in draft form.
    These projects are examples of the NSF research-based approach to 
NSEE curriculum development, which involves interviewing students to 
determine initial conceptual understandings; determining appropriate 
nanoconcepts and associated learning goals; developing valid and 
reliable assessments of student understanding; developing learning 
activities; pilot-testing, assessing, and revising the activities; 
conducting teacher professional development; broader field-testing, 
further revising, and disseminating the activities; and assessing 
student understanding. To date, projects are at the pilot-testing 
stage. Although we are some distance from incorporating nanoscience as 
a major thread in the K-12 curriculum, these projects are developing 
and testing models that ultimately could lead to widespread adoption.

Nanotechnology Undergraduate Education

    Advances in nanotechnology research also provide new opportunities 
in undergraduate education. With their focus on imaging and 
manipulating atoms, NSE offers a multitude of new interdisciplinary 
teaching opportunities for engaging interest and for broadening vision 
by undergraduate students of science, engineering, and technology. In 
so doing, NSE makes possible new strategies for enhancing science and 
engineering literacy, preparing the workforce for emerging 
technologies, and attracting a diverse group of talented students to 
the workforce of tomorrow. The most recent competition (FY07) focused 
on nanoscale engineering education with relevance to devices and 
systems, and on the societal, ethical, economic and environmental 
issues relevant to nanotechnology. Nearly half the awards included 
funds to purchase equipment, such as scanning or atomic force 
microscopes, as part of the development of undergraduate courses, 
modules, or laboratory experiences.
    Examples of Nanotechnology Undergraduate Education (NUE) awards in 
Engineering include: Teaching Nanosystems Engineering to Early College 
Students with Active Learning Experiences at Louisiana Tech University, 
which led to the Nation's first Nanosystem Engineering B.S. degree 
program; Integrating Nanoscale Science and Engineering into the 
Undergraduate Engineering Curriculum at the University of Wisconsin-
Madison, which has made possible the introduction of a new course and 
revision of existing ones; and Introducing Nanotechnology into the 
Curriculum at a Predominantly Undergraduate Institution at Jackson 
State University, which created courses and research experiences at a 
historically black university. The NUE program has been funding these 
types of awards since FY04.

Nanoscale Informal Science Education

    The Nanoscale Informal Science Education Network (NISE Net) was 
funded at the Museum of Science in Boston, in partnership with the 
Exploratorium in San Francisco and the Science Museum of Minnesota 
(along with initial collaborators: Oregon Museum of Science and 
Industry, North Carolina Museum of Life and Science, New York Hall of 
Science, Sciencenter in Ithaca, Fort Worth Museum of Science and 
History, Cornell University, University of Wisconsin-Madison, the 
Materials Research Society, and the Association of Science-Technology 
Centers). Now in its third year, NISE Net is establishing a national 
network linking science museums and nanoscale science and engineering 
research centers. It is developing exhibit units, educational programs, 
public forums, media, and other resources for implementation at more 
than 100 partner sites across the U.S. These activities will provide a 
wide variety of ways for the public to become engaged in and more 
knowledgeable about nanotechnology and provide a new model and national 
infrastructure for linking scientific research and informal education. 
Further information can be found at the NISE Net web site, http://
www.nisenet.org.
    NSF has invested in other Nanoscale Informal Science Education 
(NISE) awards aimed at increasing public understanding, such as Earth 
and Sky Nanoscale Science and Engineering Radio Shows and the traveling 
exhibition Too Small to See, which reached large family audiences at 
EPCOT Center in Florida and is now on tour to science museums across 
the Nation. These awards were funded through the NSEE solicitation in 
FY04 and FY05.

Nanoscale Science and Engineering Centers Education and Outreach

    Since 2001, NSF has funded the following Nanoscale Science and 
Engineering Centers (NSECs):

        *  Center for Nanotechnology in Society (Arizona State 
        University)

        *  Center for Electron Transport in Molecular Nanostructures 
        (Columbia University)

        *  Center for Nanoscale Systems (Cornell University)

        *  Science of Nanoscale Systems & their Device Applications 
        (Harvard University)

        *  Center for High Rate Nanomanufacturing (Northeastern 
        University)

        *  Center for Integrated Nanopatterning & Detection 
        Technologies (Northwestern U.)

        *  Center for Affordable Nanoengineering of Polymeric 
        Biomedical Devices (Ohio State)

        *  Center for Directed Assembly of Nanostructures (Rensselaer 
        Polytechnic Institute)

        *  Center for Biological and Environmental Nanotechnology (Rice 
        University)

        *  Center for Probing the Nanoscale (Stanford University)

        *  Center of Integrated Nanomechanical Systems (University of 
        California at Berkeley)

        *  Center for Scalable & Integrated Nanomanufacturing (U. of 
        California at Los Angeles)

        *  Center for Nanotechnology in Society (University of 
        California, Santa Barbara)

        *  Center for Nanoscale Chemical-Electrical-Mechanical 
        Manufacturing Systems (University of Illinois at Urbana-
        Champaign)

        *  Center for Hierarchical Manufacturing (University of 
        Massachusetts-Amherst)

        *  Nano/Bio Interface Center (University of Pennsylvania)

        *  Center for Templated Synthesis and Assembly at the Nanoscale 
        (University of Wisconsin-Madison)

    along with Nanotechnology User Facility Networks

        *  National Nanotechnology Infrastructure Network (NNIN)

        *  Network for Computational Nanotechnology (NCN)

and Materials Research Science and Engineering Centers, several of 
which focus on NSE.

    These centers and facilities all conduct various forms of education 
and outreach that complement their primary research activities. The 
following list indicates the many types of programs that the centers 
and facilities develop and conduct:

        <bullet>  Research experiences and internships for teachers, 
        undergraduates and high school students

        <bullet>  Courses and modules for undergraduates in two- and 
        four-year colleges

        <bullet>  Professional development workshops and summer 
        institutes for middle and high school teachers

        <bullet>  Hands-on activities for middle and high school 
        classrooms and community organizations

        <bullet>  Tours, demonstrations, and Open Houses for visiting 
        school groups

        <bullet>  Summer camps for middle and high school students

        <bullet>  Learning modules and kits for students

        <bullet>  Traveling exhibitions and public presentations for 
        science museums

        <bullet>  Brochures on career opportunities for high school 
        guidance counselors

        <bullet>  Web sites for students and the public

        <bullet>  Cable television broadcasts

        <bullet>  Planetarium show

    Both formal and informal education components are required in the 
new solicitation to establish a Center for the Environmental 
Implications of Nanotechnology (CEIN), which is intended to conduct 
fundamental research and education on the implications of 
nanotechnology for the environment and for living systems. (This Center 
will be funded by NSF in partnership with the Environmental Protection 
Agency.)

Nanoscience and Engineering Education in Core Programs

    In addition to those programs for which NSEE has been the primary 
emphasis, many other awards throughout NSF support education in NSE. 
For example, in addition to funding the previously-mentioned NISE 
awards, the Informal Science Education (ISE) program has funded 
projects, such as Nanotechnology: The Convergence of Science and 
Society. Through this award, Oregon Public Broadcasting is producing 
three one-hour nationally broadcast programs on the societal 
implications of nanotechnology using the Fred Friendly Seminar format. 
Other ISE awards include nanoscale science and engineering among other 
content areas, such as Research Video News by ScienCentral, which 
produces 90-second segments for national broadcast on commercial 
television news programs.
    The Advanced Technological Education (ATE) program focuses on the 
education of technicians for the high-technology fields that drive our 
nation's economy. The program involves partnerships between academic 
institutions and employers to promote improvement in the education of 
science and engineering technicians at the undergraduate and secondary 
school levels. The ATE program supports curriculum development; 
professional development of college faculty and secondary school 
teachers; career pathways to two-year colleges from secondary schools 
and from two-year colleges to four-year institutions; and matriculation 
between two-year and four-year programs for K-12 prospective teachers. 
One example is the Penn State Center for Nanotechnology Education and 
Utilization (CNEU); its resources focus on incorporation of 
nanotechnology into K-12 education, post-secondary education, and 
industry applications. The work of CNEU has resulted in associate 
degree programs in nanofabrication at 20 institutions across the state, 
including every Pennsylvania community college.
    The Research Experiences for Teachers (RET) program provides 
supplements to new or renewal NSF proposals by which Principal 
Investigators (PIs) can offer K-12 teachers and community-college 
faculty research experiences at the emerging frontiers of science, 
which include NSE. The goal of these supplements is to transfer new 
knowledge into the science classrooms. The Research Experiences for 
Undergraduates (REU) program provides similar types of supplements for 
research awards and also funds REU Sites for multiple students.
    The Centers of Research Excellence in Science and Technology 
(CREST) program makes resources available to enhance the research 
capacities of minority-serving institutions by establishing centers 
that integrate education and research. CREST seeks to broaden 
participation of students historically under-represented in science and 
engineering, to promote the development of knowledge, and to increase 
faculty research productivity. Examples of the growing number of 
centers whose focus is NSE include: Tuskegee University's Center for 
Advanced Materials, the Center for Nanomaterials Characterization 
Science and Processing Technology at Howard University, and the Center 
for Nanobiotechnology Research at Alabama State University. A related 
program, Louis Stokes Alliances for Minority Participation (LSAMP), 
also supports NSE activities for both students and faculty.
    Other efforts to broaden participation in NSE are funded through 
the Experimental Program to Stimulate Competitive Research (EPSCoR), 
which seeks to promote scientific progress nationwide. Examples are the 
New Mexico Nanotechnology Teacher Professional Development Workshops 
and the Center for BioModular Multi-Scale Systems (CBM<SUP>2</SUP> ) 
Education and Outreach program at Louisiana State University.
    The NSF Graduate Teaching Fellows in K-12 Education (GK-12) program 
provides funding to graduate students who work collaboratively with 
teachers and students in K-12 schools. These interactions are designed 
both to introduce students and teachers to frontier research, often 
based in NSE, and to enhance learning and instruction in schools. The 
Integrative Graduate Education and Research Traineeship Program (IGERT) 
funds interdisciplinary research-based, graduate education and training 
activities in emerging areas of science and engineering, such as NSE. 
Those awards include novel approaches to training, mentoring, career 
development, and other aspects of NSE graduate education to prepare 
students to enter the workforce and pursue research careers; they often 
also involve outreach to schools, science museums, and community 
organizations. Also, awards made in the Faculty Early Career 
Development (CAREER) Program, which emphasizes the integration of 
research and education activities, frequently focus on NSE research.
    In addition, many NNI-related research awards include education and 
outreach activities as a means to meet the Broader Impacts review 
criterion required of all NSF proposals.

Coordination and Evaluation

    Within NSF, the diverse NSE and NSEE programs are coordinated, and 
priorities are determined, through the National Nanotechnology 
Initiative (NNI) Working Group chaired by Mihail Roco. This group meets 
regularly to discuss issues related to program planning and 
implementation, as well as budgets. NSF staff also participate on 
interagency committees, such as the Nanoscale Science, Engineering and 
Technology Subcommittee (NSET) of the National Science and Technology 
Council (NSTC) and its working groups. For example, I serve on the 
Nanotechnology Public Engagement and Communications (NPEC) Working 
Group. It provides a forum for sharing NSEE issues with representatives 
from other federal agencies. In this capacity, I assisted in organizing 
the Public Participation in Nanotechnology Workshop in May 2006, which 
brought together NSE representatives from government, industry, non-
governmental organizations, media, and academia, including formal and 
informal educators. That workshop represented a first step towards 
engaging diverse stakeholders in educational and societal issues 
related to nanotechnology.
    NSEE workshops were held in October 2005 and January 2007 to 
encourage creation of a community of practice among NSE educators from 
NSF-funded projects. The participants included representatives from 
formal education, informal education, and those conducting outreach at 
NSE research centers. In addition to fostering networking and 
collaboration, these workshops provided forums for exchanging ideas, 
sharing progress, and gaining complementary knowledge. In addition, 
NSEE project PIs participate in panels on education and outreach at the 
annual NSF NSE Grantees Conferences. Similarly, NSE research PIs and 
graduate students participate in the annual meetings of the NISE 
Network.
    A third NSEE workshop is being planned for November 2008. It will 
include an international component to share perspectives and approaches 
to NSEE from other nations. Since many of the early NSEE projects will 
be close to completion by this time, the workshop will provide an 
opportunity to disseminate findings so that others can begin to build 
on the initial body of work. In addition, the workshop discussions will 
help inform NSF as it considers new opportunities for further 
investments in NSEE.
    Planning at NSF will be further guided by a program evaluation 
planned by the Division of Research on Learning in Formal and Informal 
Settings (DRL) of awards made through the NSEE solicitations. Analyzing 
and synthesizing project reports, preparing case studies, and studying 
the impact of collaborations between NSE researchers and educators will 
add to our preliminary knowledge of NSE learning and teaching.

Nanotechnology in the Schools Act

    The intent of the Nanotechnology in the Schools Act (H.R. 2436) to 
strengthen the capacity of high schools and universities to teach 
students about nanotechnology is commendable. However, the 
Administration has concerns that the program in the legislation is 
inappropriately structured to effectively meet this objective. For 
example, it is unclear that special equipment is a priority need to 
teach students nanotechnology effectively. Moreover, because 
nanotechnology is broadly defined as multi-disciplinary science and 
engineering at the molecular scale, ``equipment'' under the legislation 
could encapsulate a wide variety of routine tools and supplies that 
should remain the responsibility of recipient institutions or local 
education agencies, not the Federal Government.
    To this end, the Administration recommends addressing the goals of 
the legislation through a variety of ongoing approaches by NSF. For 
example, several existing programs embed NSF funding of nanotechnology 
equipment purchases within comprehensive sets of integrated activities 
that are more likely to achieve intended educational outcomes. These 
grants enable PIs to develop innovative approaches to NSEE, and 
generally require formative and summative evaluation to ensure that the 
materials and approaches taken as a whole--not just tools and 
instruments--are effective with the target audience and that others can 
learn from and build on the knowledge gained.
    In addition, cyber-enabled learning is beginning to suggest 
promising new directions for engaging students through growing 
resources for NSE images, simulations, and remote access to 
instrumentation. Students can even take part in virtual field trips. 
For example in one of the approaches tested in the NanoLeap project, 
high school students ``visited'' the Stanford Nanofabrication Facility 
online, where they interacted with researchers in real time.
    The Subcommittee should perhaps consider revisiting this issue 
after further knowledge has been gathered from current NSEE projects 
about the potential educational impact of the various approaches being 
developed for students in K-12 classrooms, two- and four-year colleges, 
and the public. Given the current limited state of knowledge about 
NSEE, the first priority is to determine which educational strategies 
are most effective for these different audiences based on research and 
evaluation. Such a direction also would be consistent with the 
increasing emphasis on research, development, and evaluation in NSF 
educational programs as preparatory steps towards implementation and 
scale-up.
    Mr. Chairman, thank you again for allowing me the opportunity to 
testify on this important matter. I hope that these comments provide a 
helpful context for you as you continue to discuss best practices in 
addressing our national needs in science and engineering education.
    I would be glad to answer any questions.

                      Biography for David A. Ucko

    David A. Ucko serves as Deputy Division Director for the Division 
of Research on Learning in Formal and Informal Settings at the National 
Science Foundation, where he was previously Section Head for Science 
Literacy and Program Director for Informal Science Education. Formerly, 
he served as Executive Director of the Koshland Science Museum at the 
National Academy of Sciences; founding President of Science City at 
Union Station and President of the Kansas City Museum; Chief Deputy 
Director of the California Museum of Science & Industry in Los Angeles; 
and Vice President for Programs at the Museum of Science & Industry in 
Chicago. Ucko was appointed by the President and confirmed by the 
Senate to the National Museum Services Board. He has chaired the 
Advocacy Committee and the Publications Committee of the Association of 
Science-Technology Centers. Prior to entering the museum field, he 
wrote two college chemistry textbooks while teaching at the City 
University of N.Y. and at Antioch College in Ohio. Ucko is a Fellow of 
the American Association for the Advancement of Science and a Woodrow 
Wilson Fellow. He received his Ph.D. in inorganic chemistry from M.I.T. 
and B.A. from Columbia.

    Chairman Baird. Thank you, Doctor.

  STATEMENT OF DR. NIVEDITA M. GANGULY, CHAIRPERSON, SCIENCE 
        DEPARTMENT, OAK RIDGE HIGH SCHOOL, OAK RIDGE, TN

    Dr. Ganguly. Thank you. Good afternoon, Chairman Baird, 
Ranking Member Ehlers, and Members of the Subcommittee. It is 
an honor today for me to appear before the Subcommittee to 
testify regarding the Nanotechnology in Schools Act.
    I am the Chairperson of the Oak Ridge High School Science 
Department, and I have taught environmental science at the AP 
level, honors genetics, and freshman biology for 12 years. 
Before that I was a research scientist at the University of 
Tennessee-Knoxville and the University of California Irvine.
    So I have taught at both levels. I have taught high school 
as well as college. I resigned from the university because I 
thought that if I was going to get students interested in 
science, it was not going to be at the university. They had 
already made up their minds what they wanted to do. Though I am 
not sure how much influence I have had, I think I can say that 
I have had an influence on some people.
    And so I realize how important it is for us to start 
looking at cutting-edge technology and science at high school 
level.
    We can teach and the premise that, you know, we are on the 
stage is slowly going out. That, there is no way you can do 
that. We would like to become the guide on the side, and one of 
the ways to do that is to bring technology to our high school 
students. And we have at my high school. We teach AP biology, 
we teach DNA recombinant technology, but we were giving 
lectures and using paper and pencil as simulations. That is not 
what students will remember. They will listen to it, listen to 
me, listen to my colleagues, walk out the door 15 minutes 
later, and it is gone.
    So we went ahead and bought the recombinant DNA technology 
equipment. I am going to use a few terms here. It is the PCR. 
It is called a Polymerase Chain Reaction machine. We bought 
those. We bought all the equipment that we need to do cutting-
edge science for recombinant DNA technology. And we went and 
trained ourselves because we have to train ourselves before we 
can train our students.
    So we went ahead and did that, and now it has become very 
commonplace. We can isolate our own DNA, cut it, and then run 
it out on gels, and the students can see what their DNA 
patterns look like. They will remember that. They will not 
remember if I stood up there and told them that this is what 
your DNA pattern looks like.
    Nanotechnology in the Schools Act, when I heard about it, 
it was very, very exciting, not only for me, but for my 
students, because that is who I represent, my students. So for 
them to be able to handle that kind of technology in high 
school is something that is, if you told me this five years 
ago, it would have been mind boggling. I would say, no, you 
can't do it, but now we can. There is equipment which is user 
friendly enough that my students can use it.
    There is an electron microscope which is a table top, which 
can be used by the students. I did electron microscopy in my 
previous life, and I know how complicated it is, but now if we 
have the equipment to do it, then our, my students can. And 
nanotechnology is not another subject. I am not trying to teach 
another subject. It is something that will apply across the 
board; in physics, in chemistry and biology, in environmental 
science--in every sphere of their learning.
    I teach environmental science, and I talk about alternative 
energy, but then if I can have the nanotechnology to show how 
energy conservation can actually happen, they will remember 
that. They will not remember that I said that we have to turn 
off our lights when you walk out of the door. It is a much more 
powerful tool when they see it actually in their own hands.
    The tools that are available now that we will be able to 
buy if we get the grant is something that my students will 
understand. They will be able to use, and our students can use 
it. My school has a very, you know, it is a unique situation. 
We have a lot of interaction with the scientists at the Oak 
Ridge National Lab, and we send our students there to use very 
sophisticated technology to do a lot of science. Last year they 
came in Fourth in the Siemens Science and Technology 
Competition. This year we were the national winners.
    So if I had this equipment at my high school, it would not 
be three students that would have access to this kind of 
sophisticated technology. I would have a lot more students that 
would have the opportunity to use this technology and maybe not 
three students. This time maybe there would be 10 students, 
maybe in 10 years there will be 30 students who will be excited 
because it is a sense of empowerment. They are doing the 
experiments themselves. They are looking at the results. They 
are looking at the data, and that is what they will remember. 
That is what will excite them, not me saying that this is what 
the tool is. The tool has to be in the hands of the students.
    We are a high school which has some of the specialized 
equipment, but we are in the process, when we redesigned our 
high school and it is still in the construction phase, we are 
still hopping over little construction, little sites 
everywhere, there, we are equipped to handle distance learning. 
And so what we would like to do is use that to reach out to the 
community around us, to other schools who may not have that 
kind of access to the equipment that we have.
    We already run the AP Summer Institutes to expose teachers 
from across the country to the different technology and the 
different ways of teaching an AP class. When we have our 
distance learning system set up, we will bring students to our 
high school in the summers to run these kind of programs to 
expose them to these things.
    So it is something that we can do, and I firmly believe 
that our students are bright enough and are capable enough to 
be able to handle this. And I am not talking about----
    Chairman Baird. Dr. Ganguly, I am going to ask you to 
summarize here, because we are----
    Ms. Ganguly. Yes. That would it. I am not just talking 
about my upper-level students. I would like to expose all 
students at all levels to this kind of technology if it is 
available to us.
    I would be happy to answer questions.
    [The prepared statement of Dr. Ganguly follows:]

               Prepared Statement of Nivedita M. Ganguly

    Chairman Baird, Ranking Member Ehlers, and Members of the 
Subcommittee, it is an honor to appear before you today to testify 
regarding the Nanotechnology in the Schools Act, H.R. 2436. I am the 
chairperson of the Oak Ridge High School Science Department, and have 
taught Biology Honors, AP Environmental Science and Genetics Honors at 
Oak Ridge for 12 years. As a science educator, I believe that we must 
offer our students the learning opportunities that will prepare them to 
lead the world in scientific research. The Nanotechnology in the 
Schools Act helps accomplish this goal by allowing high school science 
departments like mine to teach hands-on nanotechnology, which is key to 
a competitive science education in the 21st century.
    Nanotechnology is not a branch of science, like physics or biology. 
Rather, it is a new field that applies to many different branches of 
science. Nanotechnology is at the leading edge of chemistry, molecular 
biology, engineering, and other disciplines. Because it is so 
fundamental, out students need to understand it. The best way for them 
to understand it is to experience it firsthand, and that means having 
access to nanotechnology tools in the classroom. For the first time, 
these tools are becoming affordable enough--and user-friendly enough--
that high schools like mine can begin to consider purchasing them. The 
Nanotechnology in the Schools Act will make that decision easier, and 
will help us put these tools in the hands of our students much sooner.
    I would like to respond to a series of questions from the 
Subcommittee:

Please describe your experiences using high-tech scientific equipment 
in the high school classroom. What benefits do you feel students would 
receive from having the opportunity to work with nanotechnology 
equipment?

    Students have an inherent interest in most things that are related 
to technology. At Oak Ridge High School we use equipment which we think 
is relatively high-tech in relation to biotechnology. We have a 
Polymerase Chain Reaction (PCR) machine, electrophoresis equipment, 
centrifuges, UV lamps, and so on. This equipment allows us to actually 
do the experiments instead of doing them as simulations using pencil 
and paper.
    When students use the equipment they truly understand the 
complexity and the principles behind the science of biotechnology. They 
realize how much precision and concentration is required at the bench 
because it is very easy to make mistakes if you are not paying 
attention to detail. There is no way they will understand this from a 
textbook, lectures or simulations.
    The use of Geographic Information System (GIS) equipment in AP 
Environmental Science allows students to get measurements in geology, 
soil science, water situations, population issues across the globe.
    Nanotechnology is becoming a science of the future. Currently, we 
just mention it in class, and students cannot visualize what a powerful 
tool it can become. With some basic nanotechnology tools, we will be 
able to focus more on nanotechnology, and the students will be able to 
do it themselves.

With the myriad topics high school science teachers must currently 
cover, how do educators strategically choose new experiences for 
students in the sciences? How do you integrate the newest concepts into 
the curricula to give students an appreciation for the new material and 
an excitement about science, as well as a deeper understanding of the 
fundamentals?

    Of course, the fundamentals have to be taught, and they are. But 
exposure to advanced technology, innovative software and sophisticated 
equipment leads to an increased understanding of the material because 
one can get data which has been generated by them. Nanotechnology is a 
field that applies broadly to a full range of scientific disciplines, 
and the concept at its core--that matter can behave in importantly 
different ways at the nanoscale--is critical to modern science 
education.
    Generating excitement about science at the high school level is 
crucial if we want American college and graduate students in science 
programs. Hands-on science is exciting--especially when it involves 
exploration. Nanotechnology opens up fascinating new worlds within even 
the most ordinary objects. With an electron microscope, for example, a 
student can discover the structure of a cell or the pattern of fissures 
in a piece of metal. For the first time, students can see the 
microorganisms that share their world--and as anyone who has looked 
that closely can tell you, it is a compelling sight.

What kinds of professional development opportunities would teachers 
need to help them integrate nanotechnology into their curriculum and 
properly use and maintain high-tech equipment?

    Professional development is very, very important. Teachers are 
willing to learn and try new things--we are life-long learners--but 
without the proper training we will not feel comfortable trying to 
incorporate the new technology into our class room teaching. Once we 
are comfortable, we can use the tools in a variety of formats. The 
Nanotechnology in the Schools Act provides for professional development 
and teacher education within the grants, and I understand that efforts 
are already underway to develop curricula based on nanotechnology 
tools.

Are there problems obtaining funds needed for the maintenance of high-
tech equipment? How does Oak Ridge High School address these?

    There may be issues with funding in some school systems, but at Oak 
Ridge we have the Oak Ridge Educational Foundation which helps with 
these issues. As a department, we also write grants for extramural 
funding. It may not be huge sums of money but every little bit helps 
and it allows us to try innovative teaching strategies, which is 
sometimes not possible on a school budget. We are fortunate to have 
these resources available to us, and we recognize that many other 
schools with talented students do not have such resources. The 
Nanotechnology in the Schools grants will help those schools as well. 
That said, adding a provision for maintenance funds may improve the 
program.
    As part of the redesign of our new High School, we are going to 
have the capability of holding distance learning classes. Even though 
it is not in place yet, because we are still in the middle of 
construction, it will happen in the next couple of years. Some of the 
rural schools around us are not able to offer some of the advanced 
classes because of the lack of trained faculty and inadequate 
facilities. We would like to be able to fulfill that gap through our 
long-distance learning program and holding summer workshops where we 
will expose those students to our facilities.
    Students, no matter at what level, always respond better to 
situations where they are actively involved in their own education 
process. As department chair, I have tried to make sure that all 
students at all levels have the opportunity to use any equipment that 
is available in the department. It is true that we may not be able to 
convert every one to become a scientist, but if we are able to change 
the mind of a handful, who think science is fun, I will consider that a 
success.
    Again, thank you for the opportunity to testify today about high 
school science education and the Nanotechnology in the Schools Act. I 
am happy to answer any further questions you may have.

                   Biography for Nivedita M. Ganguly

CITIZENSHIP

United States of America

EDUCATION

    41992--M.S. in Science Secondary Teaching, University of Tennessee

1975--Ph.D. in Genetics, University of Calcutta, India

1967--M.S. in Zoology & Comparative Anatomy, University of Calcutta, 
        India

1965--B.S. with major in Zoology, minor in Botany and Human Physiology, 
        University of Calcutta, India

EMPLOYMENT

2002-present--Department Chairperson

1995-present--Science Teacher, Oak Ridge High School, Oak Ridge, TN

1992-1995--Science Teacher (Tenured), Bearden Middle School, Knoxville, 
        TN

1991-1992--Science Intern, Robertsville Junior High School, Oak Ridge, 
        TN

1987-1991--Research Associate, Department of Zoology, University of 
        Tennessee, Knoxville

1981-1986--Research Associate, Department of Molecular Biology & 
        Biochemistry, University of California, Irvine

1977-1980--Research Associate, School of Life Sciences, University of 
        Nebraska, Lincoln

1973-1976--Visiting Research Scientist, NIEHS, Research Triangle Park, 
        North Carolina

TEACHING EXPERIENCE

1995-present--AP-Environmental Science, Genetic(Hons)s, Honors Biology 
        , Oak Ridge High School

1992-1994--7th Grade Honors Science, Bearden Middle School, Knoxville, 
        TN

1991-1992--Ninth Grade Biology, Robertsville Junior High School, Oak 
        Ridge, TN

1988-1990--Undergraduate Cell Biology, University of Tennessee, 
        Knoxville

1974-1975--Undergraduate Genetics, University of North Carolina, Chapel 
        Hill

HONORS AND AWARDS

2006--Invited to Be the College Board Advisor for AP Environmental 
        Science

2006--Member of Committee to Draft Leader's Notes for One-Day AP 
        Workshops

2005--Endorsed National Leader for the College Board

2004--Author, AP Vertical Teams Guide

2000--Siemens Award for the teaching of Science. Awarded to 20 teachers 
        nationwide

2000--Award from the Presidential Council of Environmental Education. 
        Awarded to 35 teachers nationwide.

1997--Invited to participate in the River-to-River Exchange Program to 
        Russia

1995--Invited to participate in the Governor's Academy of Science and 
        Math at University of Tennessee

1995--Invited to participate in Train the Trainers workshop, AP 
        Environmental Science at Dartmouth College

1994--21st Century Classroom Award from the Knox County School System

1994--Minority Teacher Research Fellowship to work on Invertebrate 
        Zoology at the University of Tennessee, Knoxville

1993--Minority Teacher Research Fellowship to work on Ecology and 
        setting up an Ecological Center at Powell Elementary School, 
        Powell, TN

1991--DOE/Lyndhurst Fellowship for Secondary Science Teaching 
        Certification

1973-76--Visiting Fellowship from the National Institutes of Health, 
        USA

RELATED SKILLS

        <bullet>  Introduction to Computers and Operating System, 
        Pellissippi State Technical College

        <bullet>  Radioisotope Techniques, North Carolina State 
        University

        <bullet>  Mammalian Genetics, Jackson Laboratory, Bar Harbor, 
        Maine

        <bullet>  Cytological & Electron Microscopic Techniques, 
        University of California, Irvine

        <bullet>  Recombinant and Molecular Biology Techniques, 
        University of Tennessee, Knoxville

OTHER ACADEMIC ACTIVITIES

2003--Invited to be an author in the 2003 Teacher's Guide for AP 
        Environmental Science

2003--Member of 8-person team of teachers that wrote the Manual for AP 
        Vertical Teaming in Science

1998-present--Reader (grader), Table Leader in AP Environmental Science

1998-present--College Board Consultant for AP Environmental Science. 
        Presenter for both 1-day workshops and weeklong Summer 
        Institutes.

2003-present--College Board Consultant for Pre-AP strategies in 
        Science: Learner Centered Classroom

2004-present--College Board Consultant for AP Vertical Teams in 
        Science. Presenter for both 1-day and week long workshops.

1998-present--Sponsored and Coached Science Olympiad Team. State 
        Winners 8 times. Have represented Tennessee at National 
        Competition 8 times.

1998-present--Sponsored and coached Science Bowl team. State winners 5 
        times.

2000-present--Sponsored and coached Envirothon team. State winners 
        twice.

1997--Invited to help teach part of a course at the Academy of Science 
        and Math, University of Tennessee, Knoxville

1991--Coached Science Olympiad Team, Robertsville Junior High School, 
        Oak Ridge, TN

1992-1995--Coached Science Olympiad Team, Bearden Middle School, 
        Knoxville, TN

1993-1995--Organized Science Fair at Bearden Middle School, Knoxville, 
        TN

MEMBERSHIP AND PROFESSIONAL SOCIETIES

        <bullet>  National Educator Association

        <bullet>  National Science Teacher Association

        <bullet>  TSTA

        <bullet>  TEA

        <bullet>  OREA

        <bullet>  GSA

COMMUNITY ACTIVITIES

        <bullet>  Member of Committee of Stakeholders, along with 
        community leaders involved in tile designing of a new Oak Ridge 
        High School

        <bullet>  Member of ORSSAB (Oak Ridge Site Specific Advisory 
        Board)--involved with environmental cleanup issues on the Oak 
        Ridge Reservation

        <bullet>  Member of SQUAB (Environmental Quality Board) in Oak 
        Ridge

        <bullet>  Teach Dance to Children of Asian Indian Association 
        of Knoxville

OTHER INTERESTS

Aerobics, Dancing, Stamp Collecting, Reading.

PAPER PRESENTATIONS

Total of 15 presentations

        1.  13th International Congress of Genetics, Berkeley, 
        California, 1973. Presented paper entitled: ``Induction of 
        dominant lethal mutations in male mice by four individual 
        chemicals.''

        2.  3rd International Conference on Differentiation & 
        Neoplasia, Minneapolis, 1978. Presented paper entitled: 
        ``Functional differentiation and neoplastic transformation of 
        whole mammary gland.''

        3.  15th International Congress of Genetics, New Delhi, India, 
        1983. Presented paper entitled: ``Isolation and 
        characterization of glucose 6-phosphate dehydrogenase gene of 
        Drosophila melanogaster.''

PUBLICATIONS

Articles in books & monographs (representative papers)

         1.  Banerjee, M.R., N. Ganguly, N.M. Mehta, A.P. Iyer, and R. 
        Ganguly (1980) Functional differentiation and neoplastic 
        transformation in an isolated whole mammary organ in vitro. In: 
        Cell Biology of Breast Cancer, C.M. McGrath, M.J. Brennan and 
        M.A. Rich, eds. Academic Press, N.Y. pp. 485-516.

         2.  Banerjee, M.R., R. Ganguly, N.M. Mehta and N. Ganguly 
        (1982) Hormonal regulation of casein gene expression in normal 
        and neoplastic cells in murine mammary gland. In: Hormone 
        regulation of experimental breast tumors. Benjamin Leung, ed., 
        Eden Press, vol. 2, pp. 229-283.

         3.  Banerjee, M.R., N.M. Mehta, R. Ganguly, P. Majumdar, N. 
        Ganguly and J. Joshi (1982) Selected gene expression in an 
        isolated whole mammary organ in vitro. 1n: 9th Cold Spring 
        Harb. Conf. Cell proliferation. Sibrasku, G. Sato and A. 
        Pardee., eds., pp. 789-805.

Articles in refereed Journals (representative papers)

         4.  Ganguly, R., N.M. Mehta, N. Ganguly and M.R. Banerjee 
        (1979) Glucocorticoid modulation of casein gene transcription 
        in mouse mammary gland. Proc. Natl. Acad. Sci. (USA) 76, 6466-
        6470.

         5.  Mellta, N.M., N. Ganguly, R. Ganguly and M.R. Banerjee 
        (1980) Hormonal modulation of the casein gene expression in 
        mammogenesis--lactogenesis two-step culture model. J. Biol. 
        Chem. 255, 4430-4434.

         6.  Ganguly, R., N. Ganguly, N.M. Mehta and M.R. Banerjee 
        (1980) Absolute requirement of glucocorticoid for expression of 
        the casein gene in presence of prolactin. Proc. Natl. Acad. 
        Sci. USA 77, 6003-6006.

         7.  Ganguly, N., R. Ganguly, N.M. Mehta and M.R. Banerjee 
        (1981) Simultaneous occurrence of pregnancy-like lobuloalveolar 
        morphogenesis and casein gene expression in a culture of the 
        whole mammary gland. In vitro 17, 55-59.

         8.  Ganguly, R., P. Majumdar, N. Ganguly and M.R. Banerjee 
        (1982) The mechanism of progesterone-glucocorticoid interaction 
        in regulation of casein gene expression. J. Biol. Chem. 257, 
        2182-2187.

         9.  Ganguly, N., R. Ganguly, N.M. Mehta and M.R. Banerjee 
        (1982) Growth and functional differentiation of hyperplastic 
        mammary cells of Balb/c mouse transformed in vitro. J. Natl. 
        Cancer Inst. 69, 453-463.

        10.  Levy, L.S., R. Ganguly, N. Ganguly and J.E. Manning (1982) 
        The selection, expression and organization of a set of head-
        specific genes in Drosophila. Dev. Biol. 94, 451-464.

        11.  Ganguly, R., N. Ganguly and J.E. Manning (1985) Isolation 
        and characterization of glucose 6-phosphate dehydrogenase gene 
        of Drosophila melanogaster. Gene 35, 91-101.

    Chairman Baird. Thank you very much and congratulations on 
the achievements of your students. It is very impressive.
    We have been joined by Mr. Neugebauer from Texas as well.
    Dr. Fraser.

STATEMENT OF DR. HAMISH L. FRASER, OHIO REGENTS EMINENT SCHOLAR 
AND PROFESSOR, DEPARTMENT OF MATERIALS SCIENCE AND ENGINEERING, 
                     OHIO STATE UNIVERSITY

    Dr. Fraser. Chairman Baird, Ranking Member Ehlers, and 
distinguished Members of the Subcommittee, thank you for your 
invitation allowing me to be here and join this hearing this 
afternoon.
    I have been in academia for about 35 years, about half of 
that as an Illini and more recently as a Buckeye at Ohio State. 
I have graduated about 40 Ph.D. students, 40 MS students, and 
several hundred of engineering undergrads have been exposed to 
my teaching and help, I hope.
    My area of expertise is in advanced materials 
characterization, which is an enabling part of nanotechnology, 
and which is being able to see the material that is made that 
is on such a fine scale. My area is such that I interact with 
the industrial areas of aerospace and automotive materials.
    So the equipment we use is extremely expensive, very 
sophisticated, and quite costly to maintain. So naturally it is 
the subject of a graduate focus, where we can get reasonable 
funding from the Federal Government to help us in that research 
activity.
    But another part of my job, of course, is to be concerned 
about development of the workforce in the area of material 
science and engineering and also in nanotechnology. So 
education in any of these areas is important. This afternoon we 
are talking about nanotechnology. I have been working this 
issue quite vigorously, using local funding to do that, and 
what I have found most effective is to capture the imagination 
of the kids. Materials characterization is a very, very 
effective way of doing this, and I want to show--next view 
graph, please.
    What you see on the first image is just a shiny, gray piece 
of metal. It happens to be an advanced titanium alloy used in 
aerospace applications. It looks rather dull, of course, 
because it just looks like a piece of shiny metal, but if you 
look at this at higher magnification, next view graph, please, 
you now see details of the microstructure. You will see that 
that scale marker is five micrometers, and a human hair is 
about 40 micrometers in diameter, to get an idea that we are 
extremely high magnification where all the fun is happening in 
the material and all the properties are being determined. This 
is what will turn the kids on.
    Another example, click, please, would be the eye of a fly. 
It looks like one of those things that buzzes around you, and 
you can even magnify the lens of the eye, click, please, and 
you will see that there are other features there.
    These are things that can be seen by these tabletop SEMs. 
Now, this is the type of thing that captures the imagination of 
these kids and will enable us to, I believe, to attract them 
into science, technology and engineering.
    So specifically I am very excited about this bill because I 
believe a difference is is that this bill will put equipment in 
the classroom for professors and high school teachers to use 
with the students, and the important thing about 
characterization equipment is that they will be able to see the 
stuff, which they will not be able to do with their eyes.
    So, specifically, I think we need to capture the 
imagination of the students, and this will draw a significant 
number of students into the subject. This bill will provide 
equipment and the development of class modules, to allow a wide 
number of faculty to be able to teach this subject who are not 
yet able to do so because of their backgrounds. And I think it 
will greatly assist in developing the requisite workforce.
    Conversely, it will prepare our students for quite high-
paying jobs where there is, in fact, a great demand and a 
growing demand, and that will permit us to remain globally 
competitive.
    Actually I cut a little bit out of what I wanted to say, 
because I wanted to pick up on Ranking Member Ehlers' comment 
about the need to impact all schools. I think you made an 
extremely important point there.
    I would like to offer an opinion of why I think this bill 
can actually address your point. It is a very good point that 
we need to have equipment at the schools, but we need 
particular kind of equipment. The normal equipment you find at 
industry and universities is too complicated for schools to 
use. I bought a new scanning electro-microscope some years ago 
at about $180,000 for undergraduate programs. It has not been 
used yet by my faculty because it is just too complicated to 
bring into the classroom. You need the simplified equipment, 
which modern development has allowed.
    Also we need to develop educational modules for teachers to 
be able to use the instruments, and this bill would allow that. 
In addition to the equipment, I think we need to have PC-based 
simulators of this equipment that will fit on every computer in 
every lab in every school. So the use of the equipment will be 
much greater than just where the actual instrument resides. The 
simulators will do a very good job, and we have used those, and 
they are very effective.
    I hope I was able to address your point somewhat.
    [The prepared statement of Dr. Fraser follows:]

                 Prepared Statement of Hamish L. Fraser

Preamble

    I have been invited to testify before the Subcommittee on the 
current state of education in nanotechnology within undergraduate 
serving institutions and to offer my opinion concerning ways in which 
this education can be enhanced at such institutions. This is a 
particularly important subject at the present time as nanotechnology is 
without doubt a major global focus where a competitive advantage will 
be accrued by those nations having a workforce which is broadly 
educated in nanotechnology. Through research, the U.S. currently has a 
competitive advantage, but maintaining this advantage will depend on 
the development of a well-educated workforce that is able to exploit 
the various research thrusts by realizing commercial products from 
ideas. In the following, I assess briefly the current status of 
undergraduate education in nanotechnology and discuss ways of enhancing 
this by answering the questions posed to me by the Chairman of the 
Subcommittee, Congressman Baird.

Current Status: Nanotechnology in Undergraduate Education

    As a result of the vigorous focus on nanotechnology, underscored by 
the National Nanotechnology Initiative (NNI), there has been a 
development of courses and degree programs that involve nanotechnology. 
The vast majority of these activities are aimed at graduate education, 
where programs involving M.S. and Ph.D. degrees in the subject have 
been established, and courses are included in the offerings in various 
science and engineering programs. The degree to which nanotechnology 
has been included in undergraduate education is much less than that at 
the graduate level, and has involved efforts such as NSF's Research 
Experience for Undergraduates programs at a number of institutions. For 
example, according to the NNI, there are five graduate degree programs 
and two associate degree programs (provided in conjunction with 
research universities) focused explicitly on nanotechnology, but no 
B.S. programs are listed. The reason for this lies in the fact that 
progress in nanotechnology is the result of execution of vigorous 
research programs. These are almost exclusively undertaken in our 
nation's major research universities, and hence the immediate fallout 
regarding education involves graduate programs in these institutions.

Barriers to Undergraduate Nanotechnology Education

    In addition to the concentration of activity in nanotechnology 
being in the research programs of our universities, there are two other 
major problems that need to be addressed in order to realize curricula 
that will serve as an attraction to students such that a significant 
workforce may be developed. Firstly, in general the equipment required 
for such curricula, for processing, characterization and property 
assessment of nanomaterials and nanodevices, is currently expensive to 
acquire and is complicated to operate. For example, it would be 
necessary for much of this equipment to be operated by an expert, which 
would increase an instructional budget significantly. Equally important 
is the cost of maintaining such equipment, again imposing a financial 
burden on the establishment of an undergraduate program.
    The second problem involves, on the part of faculty at a large 
number of our nation's academic institutions, the lack of experience 
and knowledge required to develop an undergraduate program involving 
nanotechnology, especially regarding the operation and maintenance of 
equipment for either demonstrations in lectures and/or laboratory 
classes, which are essential in any undergraduate program. In general, 
the equipment required to develop attractive undergraduate laboratory 
classes on nanotechnology, including instruments that produce 
nanomaterials, characterize them and measure their properties, are 
found in research laboratories and are often rather sophisticated and 
complex. This lack of familiarity inhibits faculty from fully 
developing effective and attractive courses in the subject.
    It is my understanding that the proposed bill, H.R. 2436, aims to 
obviate these barriers to permit effective and attractive courses to be 
developed.

Answers to specific questions:

    In the following, I have taken the liberty of reversing the order 
of questions 2 and 3, because the answer to the second question draws 
on the answer to the third. I have indicated the original order of the 
questions.

Question 1: Please describe current nanotechnology education efforts at 
the undergraduate level. As new fields emerge in science, how do 
university science departments merge them into the current 
undergraduate curriculum?

    I have made reference above to the current state of inclusion of 
nanotechnology in undergraduate studies, where the main efforts to 
include nanotechnology in curricula are taking place at the graduate 
level. Regarding the merging of new fields into undergraduate 
curricula, generally faculty at major research universities, especially 
those with research components involving a new technology, will add in 
an ad-hoc manner, content to their existing classes and develop new 
classes that focus on the given new technology. Such developments will 
take place at a slower pace at other tier 1 and tier 2 and 3 colleges. 
As an example, consider the inclusion in undergraduate curricula of a 
different, but important, novel technological area, namely 
computational materials science (i.e., the modeling and simulation of 
the behavior and performance of materials). Having declared this a 
thrust area of our department at Ohio State, and hiring three new 
faculty members in this area, a highly successful undergraduate course 
has been developed. This was not attempted prior to the employment of 
these faculty members with the appropriate research expertise mainly 
because the existing faculty did not have the requisite knowledge and 
familiarity with the subject.
    Of course, as a given technology matures, and its body of 
literature broadens, it is possible for faculty with little initial 
familiarity with the subject matter to develop undergraduate course 
material by drawing on this body of literature. However, in the context 
of the currently proposed House Bill, aimed in part, ``to maximize the 
benefits of nanotechnology to individuals in the United States,'' it is 
important to develop the course material at an early stage of the 
development of this technology and hence indeed maximize potential 
benefits.

Question 2 (originally question 3): What types of nanotechnology 
equipment could be used for educational benefit at the undergraduate 
level?

    Generally, there are three types of equipment required for study of 
nanomaterials and/or nanodevices, which are for processing materials 
and devices, for their characterization, and for measuring their 
properties. In principle, undergraduate courses on nanotechnology would 
benefit from the provision of all three types of instrumentation. 
However, in the following, I will argue that because of constraints of 
budget, a focus should be maintained on materials characterization, as 
indicated in the proposed House Bill.
    Regarding processing equipment required to produce nanomaterials 
and nanodevices, this tends to be of a specialist nature and not 
necessarily commercially available. Where it is available for purchase, 
it tends to be rather costly, requiring an expert for operation and 
significant maintenance expense. In addition, the study of a range of 
nanomaterials and nanodevices would require the acquisition of a number 
of pieces of processing equipment since a given instrument is usually 
focused on the processing of a given material type (e.g., a magnetron 
sputtering device used for deposition of nanoscaled multi-layered 
materials would not be used to grow carbon nanotubes). These issues 
also apply to equipment required to measure properties and performance 
of nanomaterials and nanodevices. For example, there is a wide range of 
properties that in a comprehensive study would be the subject of 
measurement, i.e., optical, electrical, magnetic, and mechanical, and 
each of these would require specific instrumentation to make the 
requisite measurements.
    Equipment for characterization offers a number of significant 
advantages regarding the provision of attractive undergraduate courses 
in nanotechnology. Regarding the issues raised above, concerning the 
need for a number of different instruments to process a wide variety of 
materials, or to measure a broad range of properties, a single 
instrument for characterization can make observations of a wide variety 
of materials types. Perhaps most importantly, is the ability to see the 
products of nanotechnology. This ability to observe micro-and nano-
structures is a key to attracting students to physical sciences and 
engineering, and, of course, nano-technology. To serve as examples, 
please refer to the two figures. Figure 1(a) shows an image of an 
advanced titanium alloy that is used in aerospace applications. It 
appears to be a simple shiny piece of metal, grey in color. However, 
when imaged in the scanning electron microscope (Figure 1 (b) ), its 
rich microstructure is revealed, and it is these nanoscaled features 
that govern the properties and performance of these alloys. For 
reference, a human hair is approximately 40mm in diameter. The second 
example involves the imaging of the eye of a fly in the scanning 
electron microscope, Figure 2 (a). Increased magnification reveals 
finer scaled structure, see Figure 2 (b). It is the observation of 
these regarding the development of attractive undergraduate courses.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    To reveal these nano-scaled features requires the use of equipment 
with the appropriate resolving power. A number of instrument types may 
be used, but a most appropriate machine for use in undergraduate 
education is the scanning electron microscope, largely because of its 
simplicity of use. This is particularly the case for recently developed 
table-top scanning electron microscopes, where the operating system and 
procedures have been very much simplified, and the costs of ownership 
and maintenance have been significantly reduced. It is because of the 
impact of effective materials characterization of nanomaterials and 
nanodevices on attracting students, and the more recent developments 
regarding ease of use and reduced costs that, in my opinion, materials 
characterization can be the basis for the development of very effective 
undergraduate courses in nanotechnology.

Question 3 (originally question 2): How would a grant program, like the 
one proposed by H.R. 2436, be used by undergraduate serving programs? 
At the college level, does the opportunity to work with new technology 
draw in students who might otherwise have been uninterested in science? 
Do hands-on experiences offer a unique learning opportunity that is 
difficult to replicate in a lecture?

    The proposed grant program would be used in two ways to impact 
undergraduate programs. Firstly, a part of the funding would be used to 
develop undergraduate educational modules that would include versions 
for both teachers and students. These modules would be lecture-based 
courses where experiments involving materials characterization 
(following my conclusion above) would be included, and also laboratory 
courses that would be instrument intensive. These developed materials 
would then be available for use by other tier 1, 2 and 3 institutions. 
Secondly, the funds provided by a grant could be used to acquire a 
table-top scanning electron microscope, augmented by the provision of 
PC-based scanning electron microscope simulators, for use in the 
combination lecture/laboratory modules and the laboratory classes 
themselves. It is worth noting that at present, university faculty have 
almost no access to funding to assist in the development of 
undergraduate courses that would be coupled with in-class experiments, 
as proposed here, and to acquire the necessary hardware. The proposed 
House Bill H.R. 2436 would fill an important gap.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Without doubt, the opportunity to work with new technology acts as 
a tremendous draw for undecided students. But students tend to be 
rather clever and have usually done their homework regarding the impact 
that studying new technologies will have on their careers (particularly 
regarding employment!), and will make their choices accordingly. 
Nanotechnology is not only new, but its economic implications are not 
missed by the students. Promoting attractive undergraduate courses in 
nanotechnology will lead to increased numbers of students studying 
science and technology and will provide for a suitably trained 
workforce.
    Our experiences with the provision of laboratory classes in 
undergraduate curricula are in concert with the notion that hands-on 
experiences are essential. But, it is important to point out that 
lecture courses are efficient methods of covering much basic groundwork 
in a given subject for a significant number of students. However, such 
courses can be very significantly enhanced by combining lectures with 
hands-on experiences as I have noted above.

                     Biography for Hamish L. Fraser

    Dr. Fraser is currently Ohio Regents Eminent Scholar & Professor of 
Materials Science & Engineering in the Department of Materials Science 
& Engineering at the Ohio State University. and Professor of Materials 
Science and Technology (Hon.) at the University of Birmingham (UK). He 
received his BSc (1970) and Ph.D. (1972) from the University of 
Birmingham (UK). He was on the faculty of the University of Illinois 
from 1972-1989. He has graduated 41 students with the degree of Ph.D. 
and 33 students with the degree of MS. He has been a member of both the 
National Materials Advisory Board (2000-2006), and the U.S. Air Force 
Scientific Advisory Board (2002-2006). He is a Fellow of ASM (1993), 
the Institute of Materials (2001), and TMS (2005). In 2006, he was 
awarded a Senior Research Prize by the Alexander von Humboldt 
Foundation in Germany. He has served as a consultant for NATO, the 
Governments of Great Britain and Western Australia, and currently 
consults for the Air Force Research Laboratory in Dayton, OH. His 
research interests include materials characterization, inter-metallic 
compounds, nano-scaled metallic multi-layers, light alloys (mainly Ti 
alloys), and development of research tools for the prediction of 
microstructure/property relationships in materials. He has published 
more than 330 scholarly publications and presented more than 200 
invited talks.

    Chairman Baird. Thank you very much, Dr. Fraser.
    Dr. Vandiver.

 STATEMENT OF DR. RAY VANDIVER, VICE PRESIDENT OF NEW PROJECT 
       DEVELOPMENT, OREGON MUSEUM OF SCIENCE AND INDUSTRY

    Dr. Vandiver. Mr. Chairman, Ranking Member Ehlers, Members 
of the Subcommittee, thank you for inviting me to testify today 
about the ways in which nanotechnology education can help 
inspire people to pursue careers in science, the importance of 
nanotechnology as an element of 21st century science education, 
and the key role of informal science education in this process.
    I serve on the staff of the Oregon Museum of Science and 
Industry, known as OMSI, a non-profit, independent, scientific, 
educational, and cultural resource center dedicated to 
improving the public's understanding of science and technology.
    Informal science centers such as OMSI play an important 
role in math and science education at all grade levels through 
permanent and rotating exhibits, teacher training and 
professional development programs, and distance learning 
initiatives that are able to reach small and isolated 
communities. Science centers and museums are able to compliment 
and enhance efforts at schools in a large geographic region, 
providing expertise and programs on a large variety of science 
subjects.
    Science and technology centers are motivated to present 
emerging and cutting-edge concepts in science and technology. 
It is inherent in our missions to strive to present the latest 
achievements and breakthroughs. Nanotechnology is an important 
component of OMSI's educational mission in inspiring, 
informing, and involving our visitors in cutting-edge 
scientific research.
    It is only recently that tools and equipment in the forms 
of exhibits, simulations, and models on the subject of 
nanotechnology have been developed and tested with museum 
educators and museum visitors. Nano is a difficult and abstract 
topic to tackle in the informal setting. Additional resources 
are needed to help our field advance new methods for creating 
context and relevance for our audiences.
    The Nanoscale Informal Science Education Network, NISE-Net, 
an NSF-funded initiative, is working to develop some resources 
from museums on the topic of nanotechnology. NISE-Net, 
currently beginning its third year, has as its goal to create a 
functioning network of 100 science and technology centers 
across the United States, working together to represent the 
nature and potential impacts of nanoscale science and 
technology.
    This is a powerful vision, and it is the largest collective 
effort across the field of science and technology centers to 
advance knowledge and understanding of a specific topic, 
nanotechnology. As a member of NISE-Net, OMSI is active in the 
development of exhibits and programs designed to inform the 
general public of the topic of nanoscale science and 
engineering.
    Because the general public knows very little about 
nanoscale science and its applications, OMSI's approach, 
consistent with the other working partners of NISE-Net, is to 
present nanoscale science and technology in a way that inspires 
wonder and motivates the user to seek more depth and 
understanding of the topic.
    The front-end work within the NISE-Net has shown that less 
than half of the adult population of the United States has ever 
heard of nanotechnology, and less than 20 percent can provide 
any level of basic definition. However, the studies also show 
that the general public is interested in the topic and 
possesses a positive sense about nanotechnology.
    You know, in all my years in physics research and science 
education, I can only think of one time that my father, who is 
a carpenter in St. Louis, Missouri, has ever contacted me, 
requesting information about emerging technology, and that was 
nanotechnology. So that was pretty cool.
    While most people think of the science museum as a place to 
go to have a fun family science learning experience, most 
science museums also provide community learning opportunities 
outside their walls. This can be in the form of teacher 
training, distance learning, and classroom programs. OMSI, for 
instance, provides distance learning opportunities throughout 
Oregon and southwest Washington. As an example, OMSI works with 
educators in rural Fossil, Oregon, population of less than 500, 
to provide resources in science learning experiences that they 
would not otherwise have access to.
    Science centers such as OMSI could take advantage of this 
new nanotechnology education grant program, which could help to 
purchase advanced equipment and educational materials, enabling 
outreach and teacher development for many schools and 
communities.
    In conclusion, I would once again like to thank the 
Subcommittee for your attention to this important issue. Our 
future as a nation of discoverers, inventors, and innovators 
depends on education and inspiration. I believe that the 
Nanotechnology in the Schools Act will help insure that our 
scientific future stays bright.
    I look forward to the opportunity to take advantage of this 
program.
    [The prepared statement of Dr. Vandiver follows:]

                   Prepared Statement of Ray Vandiver

    Mr. Chairman, Ranking Member Ehlers, and Members of the 
Subcommittee, thank you for inviting me to testify today about the ways 
in which nanotechnology education can help inspire people to pursue 
careers in science, the importance of nanotechnology as an element of a 
twenty-first century science education, and the key role of informal 
education in this process.
    I serve on the staff of the Oregon Museum of Science and Industry 
(OMSI)--a non-profit, independent, scientific, educational, aid 
cultural resource center dedicated to improving the public's 
understanding of science and technology. Founded in 1944, OMSI is 
considered one of the top ten science centers in the United States and 
has earned an international reputation in science education. Its 
facilities include a 219,000-square-foot museum featuring five exhibit 
halls, eight hands-on public labs, a planetarium, an OMNIMAX theater, 
and the USS Blueback submarine. OMSI also offers a wide range of 
educational and outreach programming, including residential camps, 
summer classes, museum camp-ins, after-school science clubs, and 
traveling programs that deliver hands-on experiences to communities 
throughout Oregon and six other western states. In addition, OMSI 
provides professional development opportunities for K-12 teachers, 
including workshops, a science teaching resource center, and distance-
learning programs targeted at educators in rural communities.
    The Teacher Education Department at OMSI is uniquely positioned to 
provide teacher professional development programs in Science, 
Technology, Engineering, and Math (STEM) education throughout the 
northwest. Distance education technology, supporting delivery of 
professional development, allows OMSI to contribute our five decades of 
science education experience to a national and even international 
audience through live video-conferenccs and on-line, on-demand server-
based programs. Currently, this type of flexibility, combined with a 
world-class facility and staff, make OMSI a significant resource for 
teachers worldwide.
    In 2003 OMSI began working with rural communities in Oregon to 
bring Earth and space science programs to students, particularly those 
from K-8. Through partnerships with the Libraries of Eastern Oregon and 
the Oregon Department of Education, we began establishing video-
conferencing connections in schools and libraries in rural parts of the 
state. We have invested in professional development for K-8 teachers 
and librarians, community programs in science and technology, 
telecommunications infrastructure, and delivery of science and space 
science programs electronically and in-person to life-long learners of 
all ages. We have also worked to develop our own curriculum focusing on 
issues of particular interest to students in the Pacific Northwest, and 
have worked to get scientists into the schools, in person and via 
video-conference links, to provide rural schools with advantages they 
would otherwise not see.
    In 2006, approximately one million people enjoyed OMSI's innovative 
science education opportunities. In addition to a team of motivated and 
experienced science educators and demonstrators, OMSI employs a team of 
highly skilled and qualified exhibit and program developers, designers, 
evaluators, and fabricators.
    OMSI is a leader in innovative science education and is always 
looking for opportunities to captivate our patrons' attention and to 
provide immersive, hands-on experiences. Nanotechnology is an important 
component of OMSI's educational mission in inspiring, informing, and 
exposing our visitors to cutting-edge scientific research. The 
Nanotechnology in the Schools Act will help OMSI accomplish its goals, 
and we strongly support the bill.
    I would like to respond to the questions you raised in your 
invitation to testify at this hearing. In the process, I believe it 
will become clear how helpful this legislation is to us and to other 
science museums.

1)  Please describe the nanoscale science and engineering educational 
activities the Oregon Museum of Science and Industry (OMSI) is engaged 
in and OMSI's role in the Nanoscale Informal Science Education Network.

    As a member of the Nanoscale Informal Science Education Network 
(NISE-Net), OMSI is active in the development of exhibits and programs 
designed to inform the general public on the topic of nanoscale science 
and engineering. OMSI is also participating in the network's effort to 
develop recruitment and distribution plans to provide exhibits, 
programs, and professional development on nanotechnology to science 
museums across the United States.
    NISE-Net, currently beginning its third year, has as its goal to 
create a functioning network of 100 science and technology centers 
across the United States working together to present the nature and 
potential impacts of nanoscale science and engineering. This is a 
powerful vision and it is the largest collective effort across the 
field of science and technology centers to advance knowledge and 
understanding of a specific topic--nanotechnology.
    OMSI is one often working partners on the NSF grant funded project 
under the leadership of the Museum of Science-Boston, The 
Exploratorium, and the Science Museum of Minnesota. Because the general 
public knows very little about nanoscale science and its applications, 
OMSI's approach, consistent with the other working partners of NISE-
Net, is to present nanoscale science and technology in a way that 
inspires wonder and motivates the user to seek more depth and 
understanding of the topic. As experiences within a science museum are 
largely self-directed and free choice--that is, museum guests move at 
their own pace, follow their own interests, and build on their prior 
knowledge--successful exhibits and programs must have a balanced mix of 
educational content and attracting or motivational elements. Evaluation 
and museum visitor studies of the work performed by NISE-Net members 
indicate success in creating engaging experiences for the museum 
audience that build awareness of and provide context for science and 
engineering at the nanoscale.
    One innovative area of focus of OMSI and the NISE-Net is in the 
development of nanotechnology forums where participants are encouraged 
to discuss important economic, social, environmental, and ethical 
issues regarding emerging nanotechnologies. By creating an atmosphere 
where experts and lay persons can come together in conversation, a 
greater understanding of the social and scientific context for 
nanotechnology can be achieved. Two of these nanotechnology forums were 
held as part of OMSI's Science Pub series at which science is discussed 
in the informal setting of a local restaurant. Additional forums were 
held in Eugene and La Grande, Oregon, creating opportunity for people 
around the state to join in the discussion.

2)  Would H.R. 2436, the Nanotechnology in the Schools Act, be a 
beneficial resource for informal science education institutions? What 
priority should it be given relative to other kinds of support for 
informal science education activities? How world science museums 
integrate advanced equipment into their educational activities?

    H.R. 2436 will provide needed resources, educational materials, and 
professional development to assist informal science education 
institutions in presenting the concepts of nanotechnology to their 
audiences. Science and Technology centers are motivated to present 
emerging and cutting-edge concepts in science and technology. It is 
inherent in our missions to strive to present the latest advancements 
and breakthroughs. Typically such concepts can be difficult to present 
to museum audiences--information and educational materials may not 
readily be available to the museum educator and exhibits and programs 
that have been tested and shown to be effective at communicating 
intended educational messages may not exist. Additionally, science 
museums are challenged by the wide demographic of people that visit. 
The level of knowledge and awareness on any particular science topic 
varies greatly among visitors. This challenge is amplified when 
referring to cutting-edge topics. Often the approach of the science 
museum is to provide context and background information to help museum 
visitors begin to develop a conceptual framework of emerging concepts.
    The NISE-Net research has shown that most people who visit science 
museums know very little about nanotechnology. The concept of the scale 
involved alone is beyond the grasp of even many practicing scientists 
and engineers--as well as most museum education staff. H.R. 2436 
provides resources for educational materials and training specific to 
nanotechnology. Without this type of support, it would be difficult for 
museums to introduce these concepts. However, once awareness and 
knowledge are established, it is more likely the museums will continue 
to maintain and increase coverage of the topic.
    There is great need in the informal science industry for 
educational tools and equipment designed specifically for informal 
science learners. It is only recently that tools and equipment in the 
forms of exhibits, simulations, and educational props on the subject of 
nanotechnology have been developed and tested with museum educators and 
museum visitors. Nano is a difficult and abstract topic to tackle in 
the informal setting. Additional resources are needed to help our held 
advance new methods for creating context and relevance for our 
audiences.

3)  What types of professional development opportunities are available 
to informal science educators? What types of programs would need to 
exist to ensure that these educators understand both the scientific 
concepts, as well as the equipment?

    Professional development opportunities for Informal Science 
Education interpretive staff are not common in the science museum 
field. Where they do exist, they are typically in the form of 
institution specific programs, which often focus on content rather than 
interpretive skills. Professional development opportunities are 
available to science museum educators through Association of Science-
Technology Centers (ASTC) sponsored programs that provide a forum for 
museum professionals to network, to expand their knowledge base, and to 
identify resources. However, relatively few science centers have the 
resources to provide these opportunities to their museum education 
staff. Cross-institutional programs also exist, such as the 
Exploratorium led ExNet and the Fort Worth Museum of Science and 
History led TexNet, which provide staff training as part of an exhibit 
rental program. Government agencies, such as NASA and NOAA, offer 
workshops, and the National Parks Service offers interpretive training, 
to name a few. Largely, opportunities for professional development are 
based on specific projects with associated funding opportunities. 
Nonetheless, these opportunities are rare in the field.
    OMSI's research indicates that science centers value this training. 
In 2006, OMSI surveyed interpretive staff managers at 57 large science 
centers around the country. Eighty-nine percent of respondents 
indicated that they consider ``exhibit content training'' to be either 
``extremely valuable'' or ``very valuable.''
    In addition, research strongly indicates the value of skilled 
interpreters in enhancing the visitor's experience and learning in 
science exhibitions: ``live interpretation can support a wider range of 
visitors and encourage social learning behaviors,'' especially when 
facilitators are trained to promote constructivist [the active building 
of knowledge and skills], self-directed learning (Marino and Koke, 
2003).
    Programs for ISE staff should be based on best practices and 
research on adult learning and successful professional development 
models (e.g., Ingvarson et al., 2005; Morrow, 2004; Loucks-Horsley et 
al., 2003; National Resource Council, 1996a, 1996b; Cunningham, 2004).
    Based on a review of the relevant literature, OMSI identified five 
characteristics common to successful professional development;

        <bullet>  continuously improves based on evaluations of visitor 
        teaming/experience

        <bullet>  creates structure for long-term support and continued 
        learning opportunities

        <bullet>  is based on current learning theory/best practices

        <bullet>  teaches content, pedagogy, and the skills to apply 
        this knowledge

        <bullet>  involves active participation by trainees during 
        development, implementation, and evaluation.

    Providing for the training of museum staff regarding the nature of 
and issues related to nanotechnology is an important element to the 
success of nanotechnology education in museums. To this end, 
availability of effective training materials and access to science 
experts are critical. Innovative to H.R. 2436 is the potential for 
focused professional development for museum educators on the use of 
proven educational materials and exhibits on nanotechnology. OMSI would 
encourage the development of user communities--possibly in connection 
with NISE-Net--that would provide connections across the science museum 
education field for sharing outcomes and improvements based on 
experiences and best practices in the use of proven educational tools 
and techniques.

4)  How do informal science education centers decide which subject 
matter they will focus on? What resources do they use to help create 
exhibits and programming that matches content to the knowledge level 
and interest of the audience?

    OMSI's process for the selection of educational topics to feature 
in the museum is based on input from museum visitors and science 
education experts--including science researchers, classroom science 
teachers, university professors, and science museum educators. This 
input informs the museum both on what the public wants to learn about 
and what science academia believes is important for the general public 
to know. Content and educational approaches are informed also by the 
relevant national and state science standards and benchmarks. This 
approach is similar to the approach of many science museums in the 
field.
    In particular, OMSI typically conducts front-end research with 
visitors to the museum in advance of selecting or developing a topic. 
Through visitor surveys, in-depth interviews, and focus group studies, 
we begin to develop a profile of what people generally know on a topic, 
what their interests are, and what are likely to be effective points of 
entry into a topic.
    Museum visitor research and evaluation continues through the 
development of exhibits and programs in the form of prototype testing. 
During this phase of development, early mock-ups of planned exhibits or 
programs are presented to a cross-section of museum visitors to begin 
to assess how effective the strategies are in communicating intended 
educational messages, how engaging the experiences are, and how 
intuitive, or easy to use or grasp, the activities are. Also during 
this phase, expert advisors and content specialists inform the accuracy 
of content and advocate for alignment with research and science 
standards--they help the development team figure out what is important 
to communicate.
    As part of this ongoing process, OMSI has determined that 
nanotechnology is an important subject for our visitors to understand. 
This is partly because of the rapid rise in nanotechnology's relevance 
to the rest of the scientific world. In addition, it reflects our 
surroundings in the Portland area, where major electronics companies 
like Intel are operating at the nanoscale every day.
    The front-end work within the VISE Net has shown that less than 
half of the adult population of the United States has heard of 
nanotechnology and less than 20 percent can provide some level of basic 
definition. However, the studies also show that the general public is 
interested in the topic and possesses a positive sense about 
nanotechnology.

5)  Do science museums have resources to maintain advanced equipment?

    Commonly, science museums come in three varieties: large, medium, 
and small--defined by size of budget, physical size, and number of 
staff. In general, the larger institutions in the science museum held 
will have full-time technical support staff to repair and maintain 
advanced equipment. Smaller institutions will not. Through user 
communities, there is a potential for smaller institutions to partner 
with other science museums, school districts, or other entities 
increasing their capacity to afford and maintain advanced equipment and 
provide advantages they would not normally be able to obtain on their 
own.
    Regardless, it is important that materials for use in museum 
programs and exhibits be designed for and tested in the science museum 
setting. As a result of science museums striving to engage visitors by 
involving them directly in the activity or phenomenon being presented, 
it is necessary that exhibits and educational props and materials be 
engineered for repeat use by an inexpert audience. They must be 
designed for durability, low or easy maintenance, and intuitive or ease 
of use. It may not be the case that equipment or materials designed for 
use in research facilities can be used straight out of the box on the 
museum floor--museum exhibit and program, developers, designers, and 
fabricators recognize the unique environment of the science museum and 
this knowledge informs the design of successful museum experiences.
    It is worth mentioning that technology advances, specifically in 
electronics and computers, have made it possible to successfully create 
higher technology experiences that nonetheless are considered to be 
durable and low maintenance in the museum environment--and therefore 
accessible to all science museums. Assuming the intent of the 
Nanotechnology in the Schools Act is geared toward durable and low 
maintenance equipment, I might suggest that a maintenance provision be 
added to the bill to better enable institutions to take advantage of 
new and advanced equipment.
    In conclusion, I would once again like to thank the Subcommittee 
for your attention to this important issue. Our future as a nation of 
discoverers, inventors, and innovators depends on education and 
inspiration. I believe that the Nanotechnology in the Schools Act will 
help ensure that our scientific future stays bright, and I look forward 
to the opportunity to take advantage of this program.

                       Biography for Ray Vandiver

    Dr. Ray Vandiver is the Vice President of New Project Development 
for the Oregon Museum of Science and Industry (OMSI). He is the 
principal department head responsible for the development, design, 
fabrication, and maintenance of OMSI's public exhibitions and programs. 
Dr. Vandiver received his Ph.D. in Atomic and Molecular physics from 
the University of Missouri-Rolla. He has been involved in informal 
science education for the past 17 years. Early in his career, Ray 
founded the Bootheel Youth Museum--a hands-on museum for rural 
Southeast Missouri. Ray has been the recipient of several grant awards 
in the held of informal science education from the National Science 
Foundation and NASA and has been invited to sit on numerous panels as a 
representative of the science museum held including the NSF, National 
Institutes of Health, and National Academies Committee an Assessing 
Technological Literacy.
    The Oregon Museum of Science and Industry (OMSI) is a non-profit, 
independent, scientific, educational, and cultural resource center 
dedicated to improving the public's understanding of science and 
technology. Founded in 1944, OMSI is considered one of the top ten 
science centers in the United States and has earned an international 
reputation in science education. Its facilities include a 219,000-
square-foot museum featuring five exhibit halls, eight hands-on public 
labs, a planetarium, an OMNIMAX theater, and the USS Blueback 
submarine, OMSI also offers a wide range of educational and outreach 
programming, including residential camps, summer classes, museum camp-
ins, after-school science clubs, and traveling programs that deliver 
hands-on experiences to communities throughout Oregon and six other 
western states. In addition, OMSI provides professional development 
opportunities for K-12 teachers, including workshops, a science 
teaching resource center, and distance-learning programs targeted at 
educators in rural communities. In 2006, approximately one million 
people enjoyed OMSI's innovative science education opportunities. In 
addition to a team of motivated and experienced science educators and 
demonstrators, OMSI employs a team of highly skilled and qualified 
exhibit and program developers, designers, evaluators, and fabricators.

    Chairman Baird. Thank you, Doctor. We have been joined by 
Dr. Dan Lipinski.
    Mr. Murdock.

STATEMENT OF MR. SEAN MURDOCK, EXECUTIVE DIRECTOR, NANOBUSINESS 
                            ALLIANCE

    Mr. Murdock. I would like to thank you, Chairman Baird, 
Ranking Member Ehlers, and the Members of the House 
Subcommittee on Research and Science Education for the 
opportunity to testify on a topic of increasing importance to 
my membership, which is the need to insure a talented and 
growing nanotechnology workforce in this nation.
    I would also like to thank Congresswoman Hooley and 
Congressman Lipinski and all the other co-sponsorers of this 
important legislation.
    My name is Sean Murdock. I am the Executive Director of the 
NanoBusiness Alliance. We are the primary policy and advocacy 
organization for the entrepreneurs and innovators working to 
commercialize nanoscience innovations in America, working to 
translate fundamental breakthroughs that have been created 
through the Federal Government's investment in nanoscience into 
real-world products and processes that improve our nation's 
economy, our health, and our quality of life.
    This subcommittee and the Science and Technology Committee 
in general have long recognized the importance of 
nanotechnology. Nanotechnology is a new way of making things 
that bridges traditional disciplines like biology, chemistry, 
physics, and material science. From a business and commercial 
perspective, nanotechnology is really the frontier of science-
based innovation. It is increasingly being viewed as the tool 
kit that businesses will need to draw upon to remain 
competitive in the 21st century.
    As you know, there is a global race for leadership that is 
well under way. This committee got us off to a fantastic, 
wonderful running start with the 21st Century Nanotechnology 
Research and Development Act, a very important piece of 
legislation, which will be coming up for reauthorization, and 
put us well on our course. Recently other countries around the 
globe have elevated their commitments as well, in particular, 
Europe with the 7th framework, and now Russia. I brought with 
me some news that Russia has committed $5.1 billion to 
nanoscience research from the oil windfall that they have. 
There is a story in the Financial Times yesterday.
    So this is a global competition that is getting 
increasingly competitive. And folks are focused on the 
research. But we must not only lead in the fundamental 
research. We have to lead in the translation of that research 
into new products to make us competitive, that employ people, 
and that do improve the quality of life.
    In order to do that we need to have a world-class work 
force, and there has long been recognition of The Gathering 
Storm, and I certainly don't need to tell this committee about 
the dynamics of the need for technologically-proficient 
scientists and engineers.
    However, what I do want to impart is that this is not just 
a long-term problem. We need to be thinking about solving this 
and taking significant steps to address it today. Already 
nanotech companies throughout the country are finding it 
difficult to attract and retain the talent that they need. It 
is a common topic of conversation amongst the membership.
    And it is particularly acute in some of the areas that 
don't have well-developed tech-hubs, you know, as Silicon 
Valley and Boston do, but in the Midwest where I am from, from 
Chicago, and while H1B provides a temporary solution, it is 
just that. We all recognize that we need to get ahead of the 
curve.
    That is going to be less and less effective moving forward 
as the opportunities grow throughout the world, and the world 
becomes flatter. Folks will be less likely to stay here, and we 
are going to see more and more of that talent that we educate 
be repatriated.
    So when you look at reasonable growth assumptions for what 
will happen with the nanotech sector, and frankly science and 
technology capabilities going forward, we are going to need to 
take action now to start bridging that gap.
    We are quite excited about this legislation. I think it is 
important to note that this does not try to impose anything. It 
is not imposing the use of the equipment, nor is it imposing 
the adoption of curriculum. What it is doing is empowering. It 
is empowering world class, committed, capable science teachers 
in high schools, community college, and at the university level 
to make use of this technology to inspire the next generation 
of scientists and entrepreneurs.
    And I believe Thomas Edison once said that, ``Genius is one 
percent inspiration and 99 percent perspiration.'' It is 
important to recognize that without the inspiration, no one 
undertakes the perspiration, and this is an incredibly 
important opportunity to really inspire the students throughout 
the country.
    So in closing I think it is incredibly important that we 
provide these kind of programs that allow our best and 
brightest wherever they may be, in high-need schools and in 
low-need schools, throughout the country to reach their full 
potential because we need to in order to compete in the future.
    [The prepared statement of Mr. Murdock follows:]

                   Prepared Statement of Sean Murdock

    I would like to thank you, Chairman Baird, Ranking Member Ehlers, 
and Members of the House Subcommittee on Research and Science 
Education, for the opportunity to testify on a topic of increasing 
interest to my membership: the need to ensure a steady and growing 
nanotechnology workforce in America. I would also like to thank 
Congresswoman Hooley, along with her co-sponsors, for introducing this 
important legislation.
    My name is Sean Murdock, and I am the Executive Director of the 
NanoBusiness Alliance. The NanoBusiness Alliance is the nanotechnology 
industry association and the premier nanotechnology policy and 
commercialization advocacy group in the United States. NanoBusiness 
Alliance members span multiple stakeholder groups and traditional 
industrial sectors, including newly formed start-ups, Fortune 500 
companies, academic research institutions, and public-private 
partnerships working to derive economic development and growth through 
nanotechnology. This wide group of stakeholders has come together 
because we believe that nanotechnology will be one of the key drivers 
of quality-of-life improvements, economic growth and business success 
in the 21st century. The Alliance provides a collective voice and a 
vehicle for efforts to advance the benefits of nanotechnology across 
our economy and society.
    This subcommittee, and the Science and Technology Committee in 
general, have long recognized the importance of nanotechnology. 
Nanotechnology is a new way of making things that bridges traditional 
disciplines like physics, chemistry, biology, and materials science. 
From a business and commercial perspective, nanotechnology is the 
frontier of science based innovation. It is the new tool kit that 
companies will need to draw upon to remain competitive in the 21st 
century.
    As you know, a global nanotechnology race is well underway. China, 
Japan, the EU, India, Russia (which recently announced public 
nanotechnology research funding of $1.8 billion per year, exceeding 
U.S. funding), and other nations have made substantial commitments of 
public funds in order to establish preeminence in nano-related research 
and development, with the recognition that preeminence in R&D will 
drive economic growth and enhance national security. The United States 
has made a strong start in this race, and the 21st Century 
Nanotechnology Research and Development Act had a lot to do with that. 
This subcommittee will be reauthorizing that landmark legislation soon, 
which is an important task.
    While the 21st Century Nanotechnology Research and Development Act 
focuses on the research side of this subcommittee's jurisdiction, the 
Science Education side is just as important. We cannot realize the 
potential of our federal research and development investments without a 
robust, scientifically and technically proficient workforce that 
understands the unique challenges and opportunities of nanotechnology. 
The bill under consideration is designed to create such a workforce.
    America's universities increasingly rely on foreign students to 
fill their science and engineering programs, and those foreign students 
tend to go home to their host countries after they receive their 
degrees--in fact, they are required to do so. Once home, they enter the 
workforce and compete with American workers and American companies.
    This is especially true in the case of nanotechnology. At the 
graduate level, the United States boasts some of the best 
nanotechnology education in the world, so foreign students are 
especially attracted. At the same time, the high rate of nanotechnology 
investment by foreign companies pulls those foreign students just as 
strongly back to their homes. We are currently creating our 
competitors' workforce.
    Instead, we should be creating the next generation of American 
scientists and engineers, all armed with the understanding of 
nanotechnology that will be a prerequisite for technological leadership 
in their lifetimes. We do that in three ways:

        <bullet>  Get students excited about science;

        <bullet>  Start them on the right educational path earlier; and

        <bullet>  Provide them with the learning opportunities they 
        need.

    Getting students excited about science is the first step because it 
is the most fundamental. Thomas Edison once said, ``Genius is one 
percent inspiration and ninety-nine percent perspiration.'' But, the 
inspiration must come first. Without it, students will choose other 
careers, as we have witnessed over the past decades. If students are 
not inspired to become scientists, fancy labs or years of required 
courses will not matter. Hands-on nanotechnology truly has the 
potential to inspire our future workforce. Exploring the nanoscale, 
seeing the hairs in a fruit fly's compound eye, watching nanodots light 
up in different colors depending on their size, and manipulating the 
fundamental building blocks of matter--these are what grab the 
attention and interest of young people and make them want to do more.
    Once we have their attention, we need to put our students on the 
right educational path. We cannot expect to have American graduate 
students pushing the frontier of interdisciplinary nanoscience unless 
we have American undergraduate students--and even high school 
students--developing a basic understanding of nanoscience. We need to 
push nanoscience as far down the educational pyramid as possible, just 
like we have done with biotechnology. The earlier a student starts, the 
farther he or she can get.
    As a nation, we have a strong history of responding quickly and 
effectively to provide the learning opportunities our students need. 
The most famous example is the aftermath of Sputnik, when Congress 
passed the National Defense Education Act which enabled schools 
throughout the country to purchase microscopes and other state-of-the-
art equipment. Today, although there is no single Sputnik-like event to 
focus our national attention, the technological competition is stronger 
than ever. We need to give our students the opportunities they need in 
order to be successful and maintain American technological leadership 
in this fundamental field.
    The Nanotechnology in the Schools Act is an important bill because 
it simply and efficiently addresses each of these requirements. By 
making it possible for high schools and colleges to afford basic 
nanotechnology tools for classroom use, the bill will help create the 
next generation of American scientists and engineers. It will get 
students excited about science. It will enable them to start ``doing 
nanotechnology'' in high school, so that they are ready for advanced 
work in college and graduate school. And it will provide hands-on 
nanotechnology learning experiences throughout the Nation.
    I would like to make two related points about this bill. The first 
is that it includes facilities such as science museums in the grant 
program. This provision will do even more to excite young people about 
science and nanotechnology, because they will be able to try hands-on 
nanotechnology in a place like OMSI or the Smithsonian Museum of 
Natural History. The second is that it includes two-year colleges. This 
provision will help develop a workforce of technicians--already in high 
demand as nanotechnology businesses look for people who can run their 
tools.
    It is easy to forget that, as the field of nanotechnology expands, 
we will need more and more people with high-quality vocational and 
technical education. For every Ph.D. with a breakthrough idea, we will 
need many people who can turn that idea into a product. As 
nanotechnology moves from the lab to the factory, the ratio of 
technicians to Ph.D.s will only increase. These will be good jobs, and 
we need to be able to fill them with well-prepared Americans. If we 
cannot, those jobs will go overseas.
    The members of the NanoBusiness Alliance are mostly small 
companies. The people who lead those companies are the pioneers of 
nanotechnology, and they want to pass on their knowledge and their 
passion to a new generation. Our members do what they can through 
internships and similar programs, but because they are such small 
operations there is only so much they can do. The Nanotechnology in the 
Schools Act can have a tremendous impact--one that, over time, can 
reach millions of young Americans.
    Again, I would like to thank you for the opportunity to testify in 
support of this bill. I am happy to answer any questions that you may 
have.

    Chairman Baird. Mr. Murdock, thank you.
    Dr. Wheeler.

 STATEMENT OF DR. GERALD WHEELER, EXECUTIVE DIRECTOR, NATIONAL 
                 SCIENCE TEACHERS' ASSOCIATION

    Dr. Wheeler. Step number one: Learn how to use the 
microphone.
    I would like to thank you for the opportunity to present 
this testimony on behalf of the National Science Teachers' 
Association. My name is Jerry Wheeler. For the last 12 years I 
have served as the Executive Director of NSTA. I started my 
career as a high school physics and chemistry teacher and then 
went on to get a Ph.D. in nuclear physics, and early on in my 
university research career I got bitten by the teaching bug, 
and I went back. But I ended up at the National Science 
Teachers' Association.
    Mr. Chairman, while we understand the importance of 
nanotechnology, and you have heard that testimony, and its 
application to a wide range of technologies, and the importance 
of introducing nanotechnology to our students, we do have 
concerns about H.R. 2436.
    In light of the many challenges we face in science 
education, we believe this legislation places inappropriate 
attention and emphasis on nanotechnology at the high school 
level. I would like to bring five points to your attention 
concerning, again, high school. I am not talking about the 
other domains.
    First, we believe the legislation does not recognize the 
serious concerns about high school lab exercises and 
experiences raised by the National Academy of Sciences report, 
America's Lab Report, Investigations in High School Science. 
The NAS report found that in the vast majority of schools there 
is a lack of agreement of how to define the high school lab, on 
the goals of the lab experience, and it also found, again, in 
the vast majority of the schools, many teachers are not 
prepared to even lead the lab, high school science lab.
    In an e-mail survey that NSTA did this past March I think 
further illustrates the points, and my written testimony I have 
added a lot more of these, and so these are just indicative. I 
am only picking two short things.
    We asked teachers in science to describe their problems of 
the lab experiences in their schools. ``Dear NSTA, I have no 
specific safe area in which to conduct labs. My yearly budget 
is the same as it was 12 years ago. I must purchase all my own 
equipment and supplies. I have no safety equipment other than a 
portable eye wash station and a fire extinguisher.''
    One more quote and then I will go on. ``Dear NSTA, my high 
school building was built in 1970. The budget for yearly 
supplies has not changed in the six years I have been here. I 
have a supply budget of $750 a year. I teach between three and 
four science subjects per year, seven classes per day, two of 
them being chemistry and physics. I have absolutely no supplies 
to teach electricity or magnetism or optics.''
    Mr. Chairman, it is clear the biggest need is not for high-
tech specialized equipment in the classroom. Many high schools' 
labs are in desperate need of facilities, basic equipment, and 
teacher training to simply teach physics, chemistry, and 
biology. Teachers need basic solid equipment and more of it.
    The second point I want to make to you today is the limited 
role that the high-tech equipment in high schools play. Most 
teachers would have limited use of the electron microscope in 
their schools. It might be valuable to select schools with 
cutting-edge science fair projects or schools where Intel 
talent search is encouraged. That would be a very valuable 
experience for that small number of students. But we question 
how many labs could realistically be structured around 
nanotechnology.
    There are space limitations, safety limitations, training 
and service limitations, budget limitations, and curriculum 
limitations, that all hinder the full use of specialized 
equipment in most schools. The training to incorporate the use 
of this equipment into the curriculum and the training to use 
and maintain the high-tech equipment almost nullify any hope of 
seriously implementing them into secondary schools. The vast 
majority of the teachers would be unable to service or repair 
these instruments.
    Fourth, nanotechnology is not tied to any existing content 
standards. Many high school teachers have a pre-determined 
number of topics to cover in the short time allocated for 
science and lab. For the most part when teachers enter this new 
experience to students, the curriculum they use must be mapped 
onto learning outcomes that are defined in their state content 
standards. This is especially true in this time of No Child 
Left Behind, and this is the year when the science assessment 
begins.
    Given the research on student misconceptions and poor 
scores that we are experiencing on NAEP and the international 
tests, focusing on nanotechnology may result in under-prepared 
teachers doing a lot of hand waving rather than focusing on the 
instruction of fundamental science.
    Fifth and final point, Mr. Chairman and Subcommittee 
Members, science must be for all. As noted earlier, grants for 
nanotechnology equipment will undoubtedly benefit the schools 
that already have strong AP programs in affluent neighborhoods. 
But there are far too many high-risk schools with limited lab 
resources. Still fewer qualified science teachers. These needs 
must be addressed first so that science truly can be for all.
    In closing, Mr. Chairman, there are a number of critical 
needs in science education that can and must be addressed by 
federal programs. These needs have been identified in the 
report we are all familiar with, ``Rising Above the Gathering 
Storm'' or the ``Augustine Report,'' and it has been raised 
repeatedly in hearings before this subcommittee and in the 
Senate. With so many challenges to the current high school lab 
sciences and science education in general, the National Science 
Teachers' Association does not believe that legislation that 
would authorize $15 million to ``strengthen the capacity of the 
United States secondary schools to prepare students for careers 
in nanotechnology,'' is the best use of our limited federal 
funds.
    NSTA would prefer that the grant funds be provided so that 
labs could be able to purchase basic equipment and supplies so 
that every high school lab will have enough basic microscopes 
so that every child could use a microscope rather than two or 
three students on one.
    Grant funds should also be used for more highly-qualified 
teacher training in lab science. I assume that is not for me, 
but I see the red light, so I will stop, and I will be 
available for answering questions.
    [The prepared statement of Dr. Wheeler follows:]

                  Prepared Statement of Gerald Wheeler

Mr. Chairman and Members of the Committee,

    Thank you for this opportunity to present testimony on behalf of 
the National Science Teachers Association. My name is Gerry Wheeler and 
for the last 12 years I have served as Executive Director of the 
National Science Teachers Association.
    The National Science Teachers Association is committed to promoting 
excellence and innovation in science teaching and learning for all. We 
offer members a wide variety of resources and support, including high 
quality professional development, publications, networking 
opportunities, and curriculum materials. The majority of our members 
are high school teachers and supervisors responsible for the lab 
experiences of hundreds of thousands of students every year.
    Mr. Chairman, NSTA has been privileged to provide testimony on a 
number of key issues before this committee in support of very valuable 
initiatives, such as the Partnerships for Laboratory Access bill, and 
federal programs available to K-12 STEM. We thank you for again 
inviting us to speak to this important issue of labs and 
nanotechnology.
    While we understand the importance of nanotechnology and its 
application for a wide range of technologies, and the importance of 
introducing nanotechnology to our students, we have serious concerns 
about H.R. 2436, the Nanotechnology in the Schools Act. In light of the 
many challenges we face in science education, we believe this 
legislation places inappropriate attention and emphasis on 
nanotechnology at the high school level. I would like to bring five key 
points to your attention.
    First, we believe this legislation does not recognize the serious 
concerns about high school laboratory experiences raised in the 
National Academy of Sciences report America's Lab Report: 
Investigations in High School Science and other key federal reports.
    The NAS report found that in the vast majority of schools, which 
includes schools with AP and IP programs, there is a lack of agreement 
on how to define high school science laboratories and a defined lack of 
consensus on the goals of laboratory experiences.
    The report also found that many teachers are not well prepared to 
lead high school labs. There is a lack of effective undergraduate 
laboratory experiences for future teachers. Further, there is a lack of 
comprehensive systems of support at the school, district, and state 
levels for high school laboratory experiences.
    Laboratory science is a high-priced luxury beyond the reach of far 
too many public high schools, especially high need schools. A 1995 
report from the U.S. General Accounting Office titled School 
Facilities: America's Schools Not Designed or Equipped for the 21st 
Century, found that 42 percent of all schools surveyed nationally 
reported that they were not well at all equipped in the area of 
laboratory science. In addition the report found that:

        <bullet>  43 states reported that one-third or more of their 
        schools met functional requirements for laboratory science not 
        well at all.

        <bullet>  49 percent of schools with a minority student 
        population greater than 50 percent reported meeting functional 
        requirements for laboratory science not well at all.

        <bullet>  Over 48 percent of schools where 40 percent of the 
        student population qualified for free or reduced lunch reported 
        meeting functional requirements for laboratory science not at 
        all.

    An e-mail survey we did this past March further illustrates the 
points made in the NAS lab report. We asked teachers and science 
supervisors to describe the problems with the lab experience in their 
school. I have included some of the more representative comments in my 
written testimony, and would like to share a few comments here today.

        <bullet>  In my urban, inner city school, I teach a lab science 
        in an old business room. There are no tables, benches, water or 
        gas service, sinks, fire extinguisher, eye wash stations, fire 
        blankets, or other equipment. In addition, while there is a 
        high rate of attrition towards the end of the year, each 
        September starts with 50 students in each class.

        <bullet>  I have no specific, safe area in which to conduct 
        labs. My yearly budget is the same as it was 12 years ago. I 
        must purchase all my own equipment and supplies. I have no 
        safety equipment other than a portable eye-wash station and a 
        fire extinguisher. My district claims labs are 
        ``extracurricular'' and not mandated by my subject. My kids are 
        used to labs using kitchenware or materials purchased at Wal-
        Mart. They have no idea how to use scientific equipment or even 
        what it looks like due to a lack of funding.

        <bullet>  I have been teaching high school biology for ten 
        years. I have old microscopes that I could swap for coke 
        bottles and not notice a difference. However, the greatest 
        problem I see is my lack of skill in the area of lab 
        investigations. I agree that this is the best source of 
        learning that my kids can get; I just simply do not have the 
        skill to design these labs. IF the NSTA wants to make a change 
        in science education, THIS is where it should be done. . 
        .TRAINING.

        <bullet>  My high school building was built in 1970. The budget 
        for yearly supplies has not changed in the six years I have 
        been here. I have a supply budget of $750 per year. I teach 
        between three and four science subjects per year seven classes 
        per day, two of them being chemistry and physics. I have 
        absolutely no supplies to teach electricity and magnetism or 
        optics. My chemistry supplies are even worse. My lab facilities 
        are set up for physics, but I am expected to teach chemistry in 
        low benches. I don't know a chemist who will use a Bunsen 
        burner sitting down. Hence, I do not teach the labs that 
        require Bunsen burners because I feel it is unsafe to use the 
        burners in my room. I also do not have a ventilation hood in my 
        room.

        <bullet>  We do not have any rooms to use as actual 
        laboratories. Although we have lots of equipment, we have no 
        place to safely use it and few teachers who know how to use it. 
        Currently the one room that had been a lab is used by teachers 
        to sell hot chocolate and nachos to students to raise money for 
        trips to Washington, DC for a very small group of students. . 
        .the lab cannot be used as a lab. . .they removed the lab 
        tables and installed desks for all the students.

        <bullet>  I have not learned how to facilitate real thinking 
        and essential planning for authentic lab experiences. I don't 
        know what students really need in an introductory chemistry 
        experience at the high school level, and I cannot figure out 
        how to teach logical thinking and sequencing to 20+ students in 
        lab at the same time. My time management skills are lacking. 
        There's much more, too.

        <bullet>  I teach chemistry and Earth science in a room with 
        six lab tables; it was originally designed to be a physics lab 
        room. There is electricity to the tables, but it doesn't work. 
        There are not sinks, therefore no eye-washes; there are no gas 
        outlets. The sink at my instructors table has the water turned 
        off and the gas turned off. We were given a budget of $5,000 
        for each department last year, but the orders were not filled 
        because. . .who knows? I have not received the supplies I 
        ordered for eight out of the last 10 years. When first took 
        over this class-lab room and associated storeroom, there was a 
        great amount of equipment and glassware and old kits and a 
        little of everything. It is not possible to do any other than 
        the most elementary labs at this school. It would be unsafe and 
        probably criminally liable to attempt most chemistry labs. The 
        fire extinguisher doesn't work.

        <bullet>  While I do not teach high school science currently 
        but do teach in a two-year community college, I see many 
        students entering with virtually no lab experience. While some 
        students come quite prepared, it's very frustrating for me to 
        have students coming into a college biology class with no 
        knowledge of basic lab equipment and techniques, such as using 
        beakers, graduated cylinders, pipettes, or even basic 
        microscopy skills.

        <bullet>  Our school does not provide enough funding for lab 
        experiments. In addition, senior members of the department do 
        not believe that other than AP students and some honors 
        classes--should have access to lab experiments. Therefore the 
        classes I teach--college bound and special education--have 
        little to no money that goes towards lab science in the Biology 
        classroom. Furthermore, the set up of the classroom also is a 
        problem when it comes time to do lab experiments.

        <bullet>  I teach biology in a portable without any sinks, no 
        storage, and only four outlets. It's such a challenge to put 
        together a real lab. My portable is far away from the real 
        science labs so it's hard to even get materials over here. 
        There's no prep area out here so I have to go to one of the 
        main buildings to prep. Yet those prep rooms are not easily 
        accessed if you don't have an attached classroom. My room has 
        carpet so I am reluctant to use many chemicals because they are 
        difficult to clean up if spilled.

        <bullet>  Our school has minimal funding for improving the 
        quality of lab sciences. Individual teachers are encouraged to 
        write for grants using their own time without pay. Three of our 
        four science rooms do not have eye wash stations or proper 
        venting equipment. There is no interest in funding the purchase 
        of electronic data collection equipment/computer based labs by 
        the administration. Little effort is made in our district to 
        train teachers to improve the quality of lab experiments and 
        the necessary follow-up assessment.

    Mr. Chairman, it is clear that the biggest need is not for high 
tech, specialized equipment in the classroom. Many high school labs are 
in desperate need for facilities, equipment and teacher training simply 
to teach chemistry, physics or biology. Teachers need basic, solid 
equipment--and more of it.
    Second, the role of high tech equipment in secondary schools is 
extremely limited. Most teachers would have limited use for an electron 
microscope in their schools. It might be of value to select schools 
where great emphasis and opportunities exist for cutting edge Science 
Fair projects or where Intel Talent Search type of programs are 
encouraged. It might have some use in a specialized science magnet 
school. But we question how many labs could realistically be structured 
around nanotechnology.
    Third, space limitations, safety limitations, training and service 
limitations, budget limitations, and curriculum limitations all hinder 
full use of such specialized equipment in most schools. The training to 
incorporate into the curriculum and the training to use and maintain 
the high tech equipment alone almost nullify any hope of seriously 
implementing it into secondary schools. Even if the high tech equipment 
were donated, the vast majority of teachers would be unable to service 
and repair these instruments.
    Fourth, nanotechnology is not tied to any existing content 
standards. High school teachers have a number of topics to cover in the 
short time allotted for science education and labs For the most part 
when teachers introduce new experiences to students, these experiences 
and the curriculum they use must be mapped to the learning outcomes as 
defined in their state content standards. Given the research on student 
misconceptions and the poor scores we are experiencing on NAEP and on 
international tests, focusing on nanotechnology may require under-
prepared teachers to do lots of ``hand waving'' rather than focus on 
the instruction of the current fundamental sciences.
    Fifth, science must be for all. As noted earlier, grants for 
nanotechnology equipment would undoubtedly benefit schools with already 
strong AP/IB programs in affluent neighborhoods. There are far too many 
high-risk schools with limited lab resources, few AP/IB programs, and 
fewer still qualified science teachers that desperately need assistance 
to teach even the basic sciences. These needs must be addressed first 
so that Science truly can be for all.
    Mr. Chairman, the Internet can and does provide a host of rich 
learning experiences for students on nanotechnology. A search on NSTA 
SciLinks shows a number of rich learning experiences for both students 
and teachers, sponsored by universities such as Leigh University and 
Rice University; Foresight, a leading think tank and public interest 
institute on nanotechnology; Quanteg LLC, a company which focuses on 
nanotech education and networking; and Technology Research News also 
provide good resources on this subject. Some of these sites are listed 
below.

For teachers: All About Nanotechnology

    Find the answer to that question and discover additional 
information on Nanotechnology, what it consists of as well as its 
current and future impacts on the world of science.
http://www.livescience.com/nanotechnology/

Nanotech Now: Tiny Technology All Around You

    Scientists who work in the nanotech industry have long promised 
better products in basic technologies and human health. While many of 
the applications have yet to leave the lab, nanotech is all around you. 
Discover some products of nanotechnology.
http://www.livescience.com/technology/
060330<INF>-</INF>nanotech<INF>-</INF>now.html

About Nanotechnology

    Here you will find the answers to eleven of the most frequently 
asked questions about nanotechnology.
http://www.foresight.org/nano/whatisnano.html

It's a Small, Small, Small, Small World

    Learn the advantages of nanotechnology.
http://science.howstuffworks.com/framed.htm?parent=nanotechnology.htm & 
url=http://www.actionbioscienc...

For students: Nanotechnology in Agriculture and Food Production

    What nano-engineered food products will appear on the market over 
the next year or two? What are the potential benefits and risks? Who 
will be affected? And how can consumers become engaged early on?
http://www.pewtrusts.org/pdf/
Nanotech<INF>-</INF>agfood<INF>-</INF>090406.pdf

Introduction to Nanotechnology

    Discover how the discovery of the bucky ball has helped pave the 
way for nanoscience research.
http://www.lehigh.edu/?inimagin/intronano.html

How Nanotechnology Will Work

    In this edition of How Stuff Will Work, you will learn how 
nanomachines will manufacture products, and what impact nanotechnology 
will have on various industries in the coming decades.
http://www.howstuffworks.com/nanotechnology.htm

Nanokids: Explore

    Nanotechnology becomes fun with the adventures of NanoKidsTM, who 
materialize after a computer crashes in chemist Jim Tour's lab! 
Information is fun for the user to learn with and contains basic 
nanotechnology information.
http://cohesion.rice.edu/naturalsciences/nanokids/explore.cfm

Nanotube Memory

    This is a news article of the scientific publication of a joint 
design by two universities for a magnetic nanotube flash memory, which 
promises to be very compact and fast.
http://www.trnmag.com/Stories/2005/051805/
Nanotube<INF>-</INF>memory<INF>-</INF>scheme<INF>-</INF>is<INF>-</INF>ma
gnetic<INF>-</INF>051805.html

Understanding Nanotechnology

    This site gives the past, present, and future of nanotechnology 
with some palatable science. It may spark attention with some of the 
nanotechnology in everyday life. A phone interview with a high school 
class is one article.
http://www.understandingnano.com/

Introduction to Nanotechnology

    Here you will learn about nanotechnology and what it may bring in 
the future.
http://www.nanoword.net/pages/intro.htm

    In closing Mr. Chairman, as clearly identified in the report Rising 
Against the Gathering Storm, and raised repeatedly in Science Committee 
hearings and in the Senate, there are a number of critical needs in 
science education that can and must be addressed by federal programs.
    With so many challenges to current high school lab science and 
science education in general, we do not believe that legislation that 
would authorize $15 million to ``strengthen the capacity of United 
States secondary schools to prepare students for careers in 
nanotechnology'' is the best use of limited federal funds.
    NSTA would prefer that grant funds be provided so that labs could 
be able to purchase basic equipment and supplies so that EVERY high 
school lab in America have enough microscopes so that EVERY child could 
use one rather than two or three students sharing one old microscope.
    Grant funds should also be used for more high-quality teacher 
training. Science teachers don't need more ``fun'' activities for 
students. Don't give teachers more pretty toys to play with--toys that 
don't have a strong base in a fundamental science curriculum tied to 
standards. Instead, teach them how to structure solid lab experiences 
and incorporate them into a well-organized and rich science curriculum 
for students.
    I look forward to answering any questions you may have.

                      Biography for Gerald Wheeler
    Dr. Gerald Wheeler is the Executive Director of the National 
Science Teachers Association, the largest science teacher organization 
in the world. Prior to joining NSTA, Dr. Wheeler was Director of the 
Science/Math Resource Center and Professor of Physics at Montana State 
University. He also headed the Public Understanding of Science and 
Technology Division at the American Association for the Advancement of 
Science (AAAS) and has served as President of the American Association 
of Physics Teachers (AAPT).
    Since joining the Association in 1995, Dr. Wheeler has overseen the 
creation of several science education initiatives and resources aimed 
at strengthening the quality of science teaching and learning. Dr. 
Wheeler was the driving force behind SciLinks, a collaborative project 
with major publishers that links science textbooks to teacher-approved 
web sites, and Building a Presence for Science, a program that works to 
identify then connect science education contacts in each school 
building nationwide and provide them with teaching resources and 
professional development opportunities. Most recently, Dr. Wheeler was 
instrumental in the formation of the NSTA Learning Center, the national 
``home base'' for science educators in search of quality content-based 
professional development and the NSTA New Science Teachers Academy, a 
professional development program, co-founded by the Amgen Foundation, 
designed to encourage and support new middle and high school science 
educators in their first few years of teaching.
    For much of his career Dr. Wheeler has played a key role in the 
development of mass media projects that showcase science for students. 
He was involved in the creation of 3-2-1 Contact for the Children's 
Television Workshop, served on advisory boards for the Voyage of the 
Mimi and the PBS children's series CRO, and created and hosted Sidewalk 
Science, a television show for young people on CBS-affiliate WCAU-TV in 
Philadelphia. Dr. Wheeler has co-directed the National Teachers 
Enhancement Network, an NSF-funded distance learning project offering 
science and math courses nationwide.
    Dr. Wheeler received an undergraduate degree in science education 
from Boston University and a Master's degree in physics and a Ph.D. in 
experimental nuclear physics, both from the State University of New 
York at Stony Brook. Between undergraduate and graduate school, he 
taught high school physics, chemistry, and physical science.

                               Discussion

    Chairman Baird. Thank you very much. We will start 
instituting buzzers instead of lights, but in that case that 
just means we are going back into session over at the Capitol 
Building, but we should have at least a fair bit of time before 
votes are called.
    I will recognize myself for five minutes for questions.
    This is, in my judgment, a good hearing, because good 
hearings you come away from somewhat torn, because there are 
good arguments made on both sides. I think there is consensus 
from what I hear that nanotechnology is absolutely important to 
teach people, that it is clearly something that we need to know 
now but will even grow in importance in the future.
    But at the same time the question is what is the efficacy 
of this particular legislation vis-a-vis other needs. One of 
the questions that runs through my head is Dr. Wheeler's point, 
and we have heard this in this committee before, about people 
having no lab space or no equipment at all, just even for 
rudimentary science.
    On one hand one could say, well, that should be the 
priority. On the other hand to be perfectly blunt, $15 million 
isn't going to remedy that either. If we took all this proposed 
$15 million from the bill that has been described it would be a 
drop in the bucket on that, to be perfectly honest, at the 
federal level. Most of that responsibility probably ought to be 
borne by the local school districts.
    Conversely, my question then, though, is how, if we were to 
authorize this bill and put forward the $15 million, how can 
you scale up nanoscale research? How can you get this 
information out beyond the lucky few schools, be it high 
schools, secondary, or post-secondary schools? How do you get 
it out there in ways that you couldn't through just computer 
simulations, or something like that, or just some eloquent 
graphic illustration of the kind of things we have here? How do 
you do that, and I am open to that question. That is the 
question. Where, how do you do it, and where do we get the bang 
for the buck if we do that?
    I open that to whoever wants to address it.
    Dr. Wheeler. I think it was mentioned by two people 
testifying that, in fact, there are plans for extending 
distance learning and plans for simulation, use of simulations 
and models, et cetera, and again, I would concur with you and 
echo your comments that in no way does NSTA think that 
nanotechnology isn't important. What we are talking about is 
what is the appropriate use at this particular stage.
    But there is a lot that has occurred with nanotechnology. 
The one that, I mean, excuse me. With distance learning. The 
one that comes to mind, Chairman Baird, is the Jason Project in 
remote access, and that kind of has the best of both worlds. 
Still pricey, but at least the child, the young learner, gets a 
chance to get his or her hand on the joystick and do something 
with it.
    Chairman Baird. Dr. Fraser.
    Dr. Fraser. What we have been doing in Columbus is working 
with the Columbus City Schools, which are mostly 
underprivileged, of course. We are working with kids who come 
to use these new tabletop SEMs and so we can see how best we 
can work with the schools. We have had the teachers over, and 
the teachers are excited. I can't think of one who has not been 
very excited about the possibilities offered by the 
instruments.
    The plan is that we are going to take these SEMs and move 
them for a week at a time to the schools. Because they are 
highly transportable, we will prepare the students before the 
SEMs get there with simulators and leave them with the 
simulators afterwards on the computers. So that effectively for 
just a couple of machines we will be able to influence a large 
number of students that way.
    The key thing is, though, and it is quite rightly brought 
up by Dr. Wheeler, that we have to prepare modules so that the 
teachers can teach the stuff, and it has to fit into their 
lesson plan. So we can't just go to professors and say, you 
should do this, because that is not going to work. But working 
together with the teachers, they know where they can fit things 
in and where they could enhance their teaching. The students 
themselves are taught a great deal about that by working with 
the equipment and saying, oh, if we were to do this or if we 
were to do that.
    So I think it is about working together. I view that part 
of this bill involves the preparation of modules to help the 
teachers, and the students, to use the equipment and then have 
the equipment go around to school districts in that way. So I 
think it can be quite effective for, well, compared with our 
research funding, quite effective in terms of the size of 
funding.
    Chairman Baird. They could do something away from the 
machinery so to speak.
    Dr. Fraser. Absolutely. They could do it at home.
    Chairman Baird. And then when it becomes available, then 
you execute that during the week in which it is at your school 
or the few days it is at your school.
    Dr. Fraser. They could put their own samples in then. 
Before that they would have samples that we would have 
essentially imaged for them, but the simulator works as though 
they are at the microscope. It is a very, very useful 
simulator.
    Chairman Baird. So the combination of the simulation plus--
--
    Dr. Fraser. Yes.
    Chairman Baird.--the occasional hands-on opportunity is 
what you see as the benefit, and that is where you get the 
scaling of it.
    Dr. Fraser. And what you would want, of course, is the 
machines in every school obviously, but if you can't do that, 
then I think this is a very effective alternative.
    Chairman Baird. Dr. Ganguly.
    Dr. Ganguly. I would just like to add to that.
    Chairman Baird. Please hit the mik button.
    Dr. Ganguly. It is, because this is just a tool, and if we 
are comfortable with the teacher training, and actually, we 
have been talking about that, we will incorporate it. It isn't, 
this won't take the place of anything. What it will do is it 
will enhance our method of delivery and will empower our 
students, because that is what we are trying to do, is we are 
trying to make them excited about it and to see the leg of a 
fly or the--in something that they have done, not something 
that they looked at, not the image that they looked at.
    If they were able to do this by punching a couple of 
buttons and then looking at the leg of the fly, that is, I 
mean, I cannot tell you how exciting that would be for the 
students. It would be something that they did themselves. It is 
not something that somebody did and posted on the computer and 
they looked at that picture.
    So it will empower our students and give them that level of 
excitement.
    Chairman Baird. In a way beyond just the simulation.
    Dr. Ganguly. Beyond just the simulation.
    Chairman Baird. Dr. Ucko and the Mr. Murdock, and then we 
will-
    Dr. Ucko. One of the things I think that will help to 
increase dissemination is the whole aspect of cyber learning, 
and that is an area that the National Science Foundation is 
getting increasingly involved in.
    There is one study that came out recently that I think 
speaks exactly to this question, involving high school students 
who were connected remotely to an atomic force microscope using 
a nanomanipulator with haptic capabilities so they could 
actually feel what it felt like moving the probe across 
materials. It was a virus that they were studying, and the 
research they did indicated that the kids learned about the 
morphology of viruses much more using this technique than they 
did from the classroom type of teaching.
    So I think cyber learning offers a way to make these kinds 
of equipment more widely available to basically anybody with 
computer access. If they have a haptic interface, such as for 
this nanomanipulator, that would be even better.
    Chairman Baird. Mr. Murdock.
    Mr. Murdock. If I could talk about the human factors rather 
than the technology for a minute, and to borrow a term from 
nanotechnology, I think this can do it from the bottom up. I 
think it is a novel approach to create a significant incentive 
for those, you know, world class, driven, capable teachers to 
go and go to the NCLT, for example, and do the research 
experience for teachers and develop that greater understanding 
of the body of knowledge and to bring that back to the 
classroom and to become agents of change, if you will. You 
know, to inspire other teachers within their schools as well as 
within their geographies.
    And it can, you know, change the system over time. It will 
take time. Any solution to our needs will take time, but 
through those students, and I think that what it does, it 
creates a distributed leadership network that we can draw upon 
over time.
    Chairman Baird. Dr. Ehlers.
    Mr. Ehlers. Thank you very much. Several comments, perhaps 
questions.
    First of all, I think the real issue is the high schools 
because the universities, some of them will have nano equipment 
ready, some of it may have been passed down from laboratories 
that have used it.
    Also, universities, colleges, and community colleges are 
already eligible to purchase such equipment under funding from 
the current National Science Foundation programs.
    So I think we are really talking about the high schools. 
You know, this is something that would be wonderful to have, 
but I get back to the real world. I spent a good share of my 
life trying to help teachers in schools, elementary and 
secondary schools, do a better job of teaching science, and I 
would have to agree with Dr. Wheeler, this is wonderful, but 
you can't ignore the incredible problems that we already have 
in the schools. In many of the schools you can't even use this 
properly without doing a lot of other steps as well.
    And that is what we have empowered the National Science 
Foundation, and we are also empowering the Department of 
Education to work on these issues. First of all, the 
professional development of teachers, and secondly, through 
purchase of equipment.
    So the question of the bill is do we really need a 
specialized bill to cover one area when we already have a lot 
going in more general areas, and we are trying to build up 
space? If we had an infinite amount of money, no problem. This 
would be a great bill.
    But we don't, and so the question is as I indicated in my 
opening statement, do we want to do this to help the schools 
that are really very good, where students already have many 
advantages, or do we want to try to reach the entire system?
    I don't have the answers, but I am just telling you these 
are some of the problems we face here. Are we really going to 
allocate money for a rather specialized use for the benefit of 
a small number of schools which are not high-need schools and 
students, small, relatively small number of students who are 
not high-need students.
    And I am not saying I don't like it. I am just saying we 
have some other problems to address here, too. And to optimize 
the use of the funds.
    Now, perhaps the easiest way would just be to put this new 
program in the Defense Department, and there would be plenty of 
money to--if you label it properly, there might be plenty of 
money to accomplish what you are interested in or what the 
sponsor of the bill is interested in.
    But unfortunately that is probably not an option here. So I 
have just rambled on a bit, but I welcome any comments anyone 
would have on my concerns that I have expressed. Fire away.
    Yes. Dr. Vandiver.
    Dr. Vandiver. I would suggest that as nanotechnology is a 
very difficult and abstract topic, the challenge is not only 
with an understanding among the students but among the 
teachers, and providing resources to those teachers to help 
their understanding and comfort with the topic. I think we have 
to be focused and directed as to how we provide our resources, 
if we, in fact, intend for nanotechnology to be part of our 
classroom experience.
    I think that the context and background in nanotechnology 
is essential for the beginnings of understanding. So I think 
providing the resources will help focus attention and 
understanding among teachers and students in nanotechnology.
    Mr. Ehlers. Anyone else? Yes. Mr. Murdock.
    Mr. Murdock. Thank you very much.
    A few thoughts. One, I think it is important that the 
program makes use of leverage, ties into all the programs that 
are out there, and I referred to the NCLT earlier and there are 
many others that I think can effectively coordinate with 
leverage.
    But I think there is also a lot of value in having a well-
defined program and clarity and focus. You know, it generates a 
lot of excitement and awareness, and I don't know the answer to 
this question, but I am not sure how broadly those programs are 
used by the folks that would be using this program. And so by 
creating a new vehicle, having it, you know, very clear and 
communicating it broadly, I think you might find that 
participation is, in fact, broadened and that you do reach more 
of those needy schools in so doing than the alternative path of 
what is out there today.
    As I said, I don't know the answer to the question, but I 
think it is quite possible that that would happen.
    Mr. Ehlers. Under the bill only a quarter of the grant can 
be used for teacher education, and of course, as I mentioned 
already, we have other teacher education programs, but those 
are more broadly based.
    I guess I am also concerned, let me also just mention if a 
school would desire to do that, this is already available and 
nano equipment would qualify under the PALS Program, which we 
already passed as part of the American--so it is not that it 
can't be done already.
    Anyone else want to comment back to my comments?
    Okay. Just to wrap it up, a great idea. I taught many years 
myself, and I was taught, started teaching in an era when 
lasers were brand new. I made the local newspaper when I got 
the first laser within 50 miles. It was a great thing in the 
classroom. Everyone loved it.
    But it was hard to build a curriculum around that. We did 
wonderful things with it and got some interest developed. It 
almost sounds to me like from some of the comments you have 
made this is in the same category. This will attract student 
interest, being something new and groundbreaking. And, again, 
is it worth the price we are paying here? How would it--and the 
biggest question frankly is how would it match with other 
programs that the National Science Foundation already has?
    I am certainly not, in despite my negative comments, I am 
not totally negative. I am just saying we have got to work all 
this through before we consider passing this bill.
    Chairman Baird. Thank you, Dr. Ehlers. This Committee 
benefits tremendously from Dr. Ehlers' science knowledge but 
also his background as a science teacher and his critical 
approach to whatever topic is before us. Thank you.
    Dr. McNerney.
    Mr. McNerney. Thank you, Chairman Baird.
    You know, both the Chairman and the Ranking Member have 
alluded to the limitation of this bill, i.e., the $15 million. 
With that amount you really can't touch that many classrooms, 
but one thing you could do is develop a curriculum that 
teachers could use and learn from.
    If you were to do that, Dr. Ucko, what would you include in 
that kind of curriculum that would be beneficial to students 
transferring to job skills or so on? And what would you want to 
include in that kind of----
    Dr. Ucko. I guess what I would say is that we are already 
developing curriculum in this area through the NCLT and some of 
the other grants, the Nano-Instructional Materials Development 
grants that have been funded previously. And what is really 
part of the challenge is figuring out how do you take this new 
emerging area and insert it into the curriculum. Do you use it 
to teach something new? This whole new domain? That is probably 
very difficult to do.
    Perhaps easier would be to teach existing science and 
technology using nanotechnology as examples because that is 
already part of the national standards and the testing.
    So that is a real issue. How do you take advantage of 
nanotechnology however you teach it and use it in the 
curriculum? It is not a trivial issue, and it is really early 
to answer that question, because the things that we funded are 
still in their second or third year in most cases, and we don't 
have the answers yet. There is very little research out there 
in terms of how do you develop curriculum, what curriculum 
works, what are the most effective strategies for teaching 
nanotechnology?
    So I guess I would say we need to wait a little bit longer 
to answer that question.
    Mr. McNerney. Thanks. Well, clearly, Dr. Ganguly had sort 
of indicated one of the priorities is to inspire the kids. You 
want to inspire them, not just to go into nanotech but to also 
go and study their math or do the other things that they need 
to do to be successful when they get to college and move on 
from there to contribute to the country.
    So that would be something that would be a challenge, a 
huge challenge, and, like I said, it is something we all need 
to think about.
    Dr. Wheeler, one of the things you said the sort of sparked 
my interest is you mentioned safety. And I know nanotechnology 
has safety issues. How big of an issue would that be for a 
classroom, a lab in nanotechnology?
    Dr. Wheeler. I don't think that is an issue, Congressman. I 
mean, there are issues, but I don't think that is a very big 
one. The issues in terms of that equipment coming into the 
classroom, and again, forgive me for my nuclear physics 
background and my age, it doesn't translate as well to 
nanotechnology.
    But I don't think safety is an issue. I think the bigger 
issues, the points I made, but within that point, the bigger 
issue would be the maintenance costs, the training of the 
teachers to keep that equipment active.
    If I could take, since I have the microphone, just put a 
quick answer on your last question, I am not sure that I would 
invest--and it is a little bit related to Congressman Baird's 
question earlier on--I am not sure I would invest $15 million 
into new curriculum projects, in part because NSF has said they 
are doing some, but in part because I was a junior in high 
school when Sputnik went up. The Federal Government has 
invested a lot in curriculum projects, and we are still in deep 
trouble right now.
    What we have to deal with is the teaching of the science; 
are the standards clear, does he or she have the training they 
need, does it align to the assessment, and a new curriculum is, 
I am afraid, not going to solve the problem we are in right 
now.
    Mr. McNerney. Thank you for that assessment. You know, I 
have to say Sputnik did inspire me to go into science, so I 
mean, I don't know if it was the curriculum or if it was the 
actual threat that we perceived from Sputnik, but I----
    Dr. Wheeler. But I didn't play with a rocket after that.
    Mr. McNerney. Do you think this high school training could 
lead to jobs, to actual jobs, Mr. Murdock?
    Mr. Murdock. Well, I think, obviously downstream. I think 
that the high school training, and in particular, as I said 
earlier, what it will do is it will provide the inspiration to 
undertake the work going forward in the collegiate level and in 
the postgraduate level to keep more folks into the sciences.
    I will tell you a related thing that we at the NanoBusiness 
Alliance have been working toward launching, and haven't 
launched yet, we refer to it as the NanoBusiness Talent 
Program, Total Applied Learning Through Entrepreneurship, and 
the idea is to get top math and science students in high school 
into entrepreneurial environments to begin working with and 
understanding the impact of science, and again, how it relates 
to the world at large, how it relates to businesses, to 
improving quality of life, and you know, frankly, to national 
competitiveness and security as well.
    And so I think there is a very important thing about 
getting exposure to the importance and the impact of sciences 
as early as practical into our educational setting, and that 
will downstream lead to those opportunities.
    Mr. McNerney. Thank you.
    Mr. Ehlers. Will the gentleman yield?
    Mr. McNerney. Yes.
    Mr. Ehlers. Very quickly.
    Mr. McNerney. I will yield the time that I don't have 
remaining.
    Mr. Ehlers. Okay.
    Chairman Baird. The Chair will yield.
    Mr. Ehlers. Thank you. Just the interplay of two people 
being influenced to go into science by Sputnik made me feel 
very old, because when Sputnik went up, I was inspired to go 
into politics. If we had a government that couldn't even launch 
a rocket, obviously they needed some scientists here. Thank 
you.
    Chairman Baird. Another good thing Sputnik did. One 
scientist and one politician out of it.
    Mr. Neugebauer from Texas.
    Mr. Neugebauer. Sputnik? What is that? No, just--the gray 
hair probably gives me away.
    You know, I follow with interest in Texas Tech University 
in my district has very robust nanotechnology program there, 
and it is very interesting. In fact, I had an opportunity to 
tour there a year or so ago. I guess the question is as we hear 
a lot of people coming and saying we have got to get more of 
our young people interested in math and science because the 
industry comes and sees members of Congress and saying, you 
know, one of the reasons we are outsourcing jobs to other parts 
of the world is we don't have the folks here to do that. And 
the reason we are asking for more VISAs for people is to fill 
that need.
    And so, I guess, the question today, one of the questions 
would be is who is filling the jobs in nanotechnology today?
    Somebody want to field that question?
    Mr. Murdock. Well, I think you have to look at it in terms 
of the evolution of the technology. Right now with the federal 
funding, you know, primarily driving through the 21st Century 
Nanotech R&D Act, there have been a lot of scientific 
breakthroughs, and so many of these companies that have been 
formed are really in the earliest phases, right, they are just 
transitioning off, you know, university campuses or federal 
laboratories. And it is really translational research that is 
taking place.
    So it is drawing upon the Ph.D. scientists and engineers, 
you know, by and large. As a class if you look at my 
membership, most of them are what I would characterize as the 
translational research or product development phase as opposed 
to the manufacturing phase.
    And so who is meeting that need right now? It really is the 
universities, Ph.D.s, and post-docs and the folks that are, you 
know, trained in that avenue. As it will evolve over time, 
though, we are going to need, you know, technicians, non-Ph.D. 
level, you know, Master's and undergraduate level engineers and 
technically-proficient folks. And you see that in some of the 
more mature nanotechnology companies that are moving to the 
manufacturing phase, that the skill set migrates over time. But 
all of them need to have some base level of scientific 
engineering and technological proficiency.
    Mr. Neugebauer. I think the other issue that I thought was 
interesting, and I think in probably more alignment with my 
thinking is with the computer technology that we have today in 
simulation and how we are teaching young people today, I mean, 
how they learn, how young people, I mean, video games and so it 
is very much an interactive with computers. If it doesn't make 
sense at least in the initial phases until this industry is a 
little more robust to generate some curriculum, the other 
gentleman was saying is based around using some interactive 
software to stimulate, you know, the interest in that 
technology. And then the other piece of that is that is more 
widely distributable. I mean, most every school are working in 
that direction and has some computer technology available to 
it, so you get it to more kids to see if their appetite is 
interested in that area before you go invest a lot of money in 
equipment to do that.
    I thought it was kind of interesting what Dr. Vandiver 
said, we have a science spectrum in our community and they 
bring a lot of exhibits and stuff in, and it is regional, 
probably serves 20, 30 counties in my district because of the 
rural part of the country. That is certainly the ability to 
compliment the curriculum that you might put in the schools, 
where you are letting them to do it in a simulation, then you 
can pull that resource into where more people can go and 
actually see and play with, if you want to say, because they 
all want to play with it obviously.
    But I think the underlying question is the role for the 
Federal Government, or is this something that school districts 
and communities that want to have economic development entities 
to, giving their communities an edge? Is that something they 
should be doing?
    Question. Anybody got any answers?
    Yes, sir.
    Dr. Fraser. I think the intention of the bill is not to 
fund these instruments at all schools, but it is to spark the 
whole program so that local districts will start joining in and 
leverage federal investment. And the federal investment is 
worthwhile because we as a nation would like to remain globally 
competitive, and to do that we have to have this workforce that 
will eventually develop through I believe the use of the 
instruments and capturing people into science and having them 
highly motivated. I think that is the idea. It is not for the 
Federal Government to support the whole program but to kick 
start it with getting something back from, you know, their 
dollar investment, which will be the workforce.
    Mr. Neugebauer. And the question is, are we far enough 
along with this curriculum yet to start buying devices, or do 
we need to get the high school curriculum a little bit further 
along with the simulation there and see if there is demand? I 
am new to the political arena. I come from the business world, 
and before we went out and manufactured a lot of things or 
developed a lot of lots, we always wanted to make sure that 
somebody wanted one when we got them done. And so I guess that 
is the question.
    Dr. Wheeler, do you want to run with that?
    Dr. Wheeler. Yes, Congressman. Thank you. And that takes me 
back to my first point is the National Academy of Science's 
report said that as a nation we are confused even about the 
role of our labs. Is it to excite the student because they can 
move it, is it to teach them the nature of science, is it to 
have them verify some law of science? And so I would concur 
with your last comments, except I probably wouldn't stress just 
curriculum. It is even more fundamental than that: is what the 
role of the lab within the curriculum and what kinds of other 
ways within the curriculum or the child's experience can we 
accomplish the things we want to accomplish?
    So I think that that is a very good comment and worth 
answering carefully.
    Chairman Baird. Dr. Lipinski.
    Mr. Lipinski. Thank you, Chairman. You surprised me there. 
I thought we were going to go to Ms. Hooley there.
    I wanted to thank Ms. Hooley for introducing this bill. I 
have really been convinced that nanotech really is the new 
industrial revolution. I have been working with Northwestern 
University, and Mr. Murdock and I have that in common. We are 
both alums of Northwestern, and I know he is working with a lot 
of people there in terms of nanotech. Northwestern right now is 
ranked 5th in the Nation in nanotech, and there have been about 
10 spin-off companies that are conducting cutting-edge nanotech 
research that have come from Northwestern and, you know, they 
do have the International Institute for Nanotechnology there. 
So I am very proud as an alum of Northwestern, and also very 
happy representing part of Chicago, representing the district 
in the Chicago area and that Chicago area is doing this in 
Illinois. Small Times magazine ranked Illinois 8th in the 
Nation in nanotech. The University of Illinois also doing some 
good work on nanotech. There are four centers dedicated to 
nanotechnology, so it is great to see this all taking off, and 
I think it is important for all to be looking at science and 
technology, it has to start with early education.
    But I want to ask Mr. Murdock, in the NanoBusiness 
community, what is the greatest concern when it comes to 
education right now? Is it at the elementary level, secondary 
level, or higher education level? I mean, where is the interest 
focused in the nanotech business community as to where the 
education has to be, nanotech has to become more priority 
education or the future of nanotech, what does it rely most 
upon right now? Which level of education seems to be most 
important or stands out most in the community?
    Mr. Murdock. Well, I think right now just by nature of the 
demands in immediacy, when you look at these companies, they 
are endeavoring day in and day out to, as I said, to translate 
this science into real-world products. And so the immediate 
needs at this stage are in the Ph.D. level. But there is 
recognition. I think what is incredibly positive about the 
community and my membership is that they are thinking long-
term. There is recognition that that is today's battle, if you 
will. That is today's challenge and that we, I think there is 
recognition that the next step, getting the broader technical 
workforce is going to be very problematic as you look at, you 
know, as a company grows, you have the couple founding 
scientists, and you have a couple Ph.D.s that work on, you 
know, those companies when they are in the five to 10 people 
range. But as they grow, getting that next level of talent in 
there, and you know, I think that is at the Master's and 
collegiate level, is going to be challenging.
    But, you know, it is something that we are going to have to 
address across all levels over time. I think there is broad 
recognition that we just simply don't have a large enough 
technical workforce, and that is why everyone is here all the 
time looking at the H1B issue, is that folks are looking to 
import the talent because they are not finding what they need 
out there today.
    Mr. Lipinski. Is it more a concern with more basic levels 
STEM ed rather than, you know, we are looking at nanotech, and 
we are speaking specifically about nanotech here, but as we all 
know nanotech covers a lot of different areas. It is a real 
concern that we just don't have the students, we are not 
teaching students to even have the basics in engineering, 
science and math, to be able to even become interested and to 
do any kind of work that will help in the nanotech field.
    Mr. Murdock. Let me try to take that. I think there is 
broad recognition that there is a shortage of STEM ed across 
the board. I think what is more unique about nanotechnology and 
what the companies need are folks that are trained in an inter-
disciplinary fashion. Think of a T if you will. Broad enough to 
bridge two disciplines and deep enough to have the capability 
within one to do something distinctive. And that is kind of the 
model of, typically, what folks are looking for, and that means 
you need to have a robust foundation in science and technology, 
engineering, mathematics across the board to have that breadth 
and then to be able to go deep.
    Mr. Lipinski. Anyone else have any? Yes.
    Dr. Vandiver. I still want to make the case that it is 
about context. I was also inspired by space science and 
astronomy to go into science, and if I understand correctly, 
the best radio telescopes looking out are looking at a 
resolution of about 10 to the eighth, 10 to the ninth meters. 
Take that the other way and look in, so we are in the same 
realm, and if you will, it is like a universe within. Just like 
we discovered, all of the strange behaviors and new concepts 
looking out, we are discovering those looking in as well, but 
the context isn't readily available to students.
    So the materials are behaving in ways unexpected, and the 
properties of matter are going against intuition, and you know, 
I think this is the stuff that inspires, just like cosmology 
inspired me when I was young, I can see this, if you really 
understood the context of what science is achieving today, I 
think you will get that inspiration, and I think that is the 
context that we are talking about.
    Mr. Lipinski. Thank you.
    Chairman Baird. Saving the best for last, the author of the 
bill, Ms. Hooley.
    Ms. Hooley. Well, first of all I so appreciate all of our 
panelists for being here today and their thoughtful 
presentations.
    I am just going to make some comments and then would like 
some reaction.
    It seems to me not too long ago computers were in great 
big, huge rooms and then we got them into our universities, and 
then we got them into our high schools, and now every grade 
schooler has a laptop on their desk. And it wasn't just 
exclusive for some schools. It is really now generally used in 
all of our schools.
    As far as whether the Federal Government should have a role 
or not, we have a role in a lot of things. I mean, any time we 
are talking about an emerging technology that we want to 
encourage happening, we get involved in it. This committee just 
passed a significant bill on, to make sure that we have enough 
science and math teachers, because we don't have enough science 
and math teachers.
    So I look at this piece of legislation really as, and I 
think a couple of you said this, as an agent of change, as an 
inspiration, because you have to, first of all, inspire 
students. They have to get interested. They have to be excited 
about something. And I think this is exciting. And they have to 
be inspired if they are going to go into the field of math and 
science and to teach it.
    We did a symposium in Oregon. We have got a collection of 
universities working on nanotechnology. We did a symposium, and 
you know, frankly, most people had no clue what nanotechnology 
was, and if you went out on the street and you talked about 
nanotechnology, they wouldn't know what it was. Just like they 
didn't understand or know what computers did and what they were 
30 years ago.
    I guess I see this as a little piece that adds a little 
spark to inspire people to become teachers or to go into that 
field, and it is a small way of saying we think this is going 
to be one of the industries in our future, and we need to do 
something with this. And I mean, that is the reason I 
introduced the bill. I think it has a lot of merit. I think it 
is a very modest start. I understand that it is going to, you 
know, not cover that many schools and that many students, but 
if we get people to at least understand what nanotechnology is 
all about and some of our students to understand what it is all 
about and we inspire people to go into math and science, it may 
help.
    So that is, I don't know if you want to respond to any of 
that, but any of you that would like to respond to those 
comments. Not really a question.
    Dr. Ganguly. I would like to thank you on behalf of all 
students for introducing the bill, because it will be a 
powerful tool which will transcend all fields of science. 
Because it will just, it will let the students get involved, 
get excited, and be involved in their own learning. That is 
much more of an empowerment than anything else. They have to be 
involved in their own learning, and they will be if we have 
these kinds of tools available to us.
    In 30 years time it will be what computers are now.
    Ms. Hooley. Yeah.
    Dr. Ganguly. So, yes, we have to start somewhere.
    Ms. Hooley. Thank you. Any other comment?
    Mr. Murdock. If I could just----
    Ms. Hooley. Yes.
    Mr. Murdock.--comment briefly. I think you are absolutely 
right about the inspiration, and we did have Sputnik, and that 
inspired a whole generation of folks to go into science and 
technology, and honestly, we haven't had the next Sputnik over 
the past couple decades. And I think that is a significant part 
of the erosion, if you will, of the math and science and 
technology base. It is quite possible that maybe the Russians 
see that. As I said before, they committed $5 billion to 
nanoscience research, which I find to be pretty extraordinary. 
And they recently announced that. And so maybe it will engender 
a little bit more of the same response.
    But I think the framing of this as a seed program to, you 
know, kick start a virtuous circle of distributed technology 
that gets in the hands of the students so that they can be 
inspired and engage in honestly self-directed learning where 
they can take control is a neat framework, and I think what I 
talked earlier, about trying to change, viewing this as a 
bottom up. I think it is a bottom-up way to empower world class 
teachers in all schools and students to really become the 
leaders of tomorrow.
    Ms. Hooley. Thank you. And I do want to acknowledge, Dr. 
Wheeler, I understand, I have been in our schools. I visited 
our schools, and I know how bad some of our labs are and how 
much help that they need. I look at our community colleges and 
look at the number of students that are turned away because we 
don't have the right labs and the right equipment and enough 
buildings and enough teachers. So, again, we tried to put a 
program into place to inspire people to go into math and 
science, and if we can add to that inspiration by some event 
that is happening, I think that is to everybody's benefit and 
hopefully then that in turn also helps schools decide that it 
is really important that we upgrade and try to put some money 
into our science labs.
    Thank you, Mr. Chair.
    Chairman Baird. I thank the gentlelady and applaud her for 
her initiative, and as a former teacher I know how much you 
value the importance of exciting students and getting them 
interested in the topic. And there is just no substitute for 
that.
    We may do just a couple of remaining questions, and the 
puzzle for me is, let us suppose we did this. Let us suppose 
the money were made available. I have been to a number of high 
schools that have CAD CAM systems, which were once, you know, 
state of the art, gee whiz things, and now are actually in 
fairly common in some of our voc ed, career, and tech ed 
programs.
    But what has troubled me a little bit is that some of the 
exercises I have seen the students doing are: write your name 
on the computer and then make the CAD system carve your name 
into a piece of plastic. Okay. So you got a nice nametag with 
your name on it. I am not sure what they got out of that.
    And so my question, obviously there are more intricate and 
interesting ways to use the CAD System and to make it an 
educational experience, but as someone who visits every high 
school in his district every two years, I see amazing things 
done, and I see wastes of time.
    What would each of you say is the most, what would be the 
key criteria, if you were to say two or three things that you 
would put on this if the program were to move forward, in terms 
of using this money? What would be the most important thing? If 
the Congress were to decide, yes, Ms. Hooley has it right, 
nanotech is something we need to invest in, this money will be 
well spent, what would be the most important things that would 
have to happen to make sure it was indeed well spent?
    And I will just, Dr. Ucko, and then we will work our way to 
the right and----
    Dr. Ucko. I guess I would answer that by saying that it 
would be part of a well-tested, well-developed program and not 
just a piece of equipment that is put into a facility. Using 
development, figuring out what kids need to learn, how is 
whatever intervention you are doing going to help kids learn, 
does it build on learning progressions? That is, does it tie 
into what they already know and take them to the next level of 
what they need to know? Has it been tested, has professional 
development been done for teachers to make sure that they know 
how to properly use whatever this is in the best way? And that 
it ultimately has an affect that shows up on student 
assessments.
    Dr. Ganguly. That is, I mean, he put it in a nutshell 
actually, is that, you know, you have to have professional 
development for the teachers, because we are life-long 
learners, and we like to learn, but we have to have the 
opportunity and the chance to learn it. And once we do, we will 
be able to apply it into our teaching, and then, of course, 
finally there has to be an assessment for it. But with the 
professional development we can use this to enhance our 
teaching.
    Dr. Fraser. And obviously I agree with what has been said 
so far except I think most of the nanotechnology work is done 
at the graduate level right now. That is at universities, so I 
think it would be highly effective in the short-term to develop 
modules in collaboration between high school teachers and 
faculty.
    Dr. Vandiver. I think part of a competitive grant process 
where, based on the merits of the proposal, innovative ideas 
building on best practices could be rewarded and advance the 
field.
    Mr. Murdock. I guess two thoughts. One obviously it has to 
be integrated into professional development. I referred earlier 
to the research experience teachers that exist in many of the 
NFS Centers and NCLT that it could be integrated with.
    The second, you know, we talk about the curriculum 
development efforts, and that is, you know, a research 
enterprise, developing the next curriculum. There is also 
translational work that has to take place to translate that 
into a school and a classroom environment, and I think this 
could be a very elegant way to develop, if you will, a beta 
group for the translation of that curriculum development, to 
see how it is going to play in the schools, and frankly to 
accelerate the development and the translation of the 
curriculum from the research-driven curriculum to what is going 
to get in the schools and work.
    So it can be part and parcel of making that happen more 
effectively and more rapidly.
    Dr. Wheeler. I think, excuse me, I think Congressman Ehlers 
kind of hit it on the head when he said something about the 
high school. And you can even hear it in our comments and your 
questions, we have all drifted towards the high school. We talk 
about the teacher. The fact is the bill is very rich in very 
good ideas in terms of two-year college, undergraduate, and 
informal. So I am in that delightful position of saying you 
really ought to give the money to somebody else.
    It would be much more used, it would excite the Nation 
more. I am being a little bit sophomoric in my comment, but it 
will excite the Nation a little bit more if there were good, 
rich experiences where families can go in and see this exciting 
stuff. It would pump up the two-year college and I would say 
the undergraduate much more, and what I would do, the same 
thing we did after Sputnik. I was a customer, but the same 
thing the country did after Sputnik was it brought teachers 
into the universities during the summertime, and it increased 
the university professor, researcher, teacher conversations, 
and it was extremely exciting. I was a brand new high school 
physics teacher at that time. Extremely exciting to go the 
University of Connecticut, go to Boston University during the 
summertime and talk to people about some of these new ideas.
    So I would say that we have to be very careful as we talk 
and ask questions of each other that we don't drift to just 
automatically assuming the high school teacher or school is 
going to get it. I think the richness of this bill, and I do 
appreciate the bill and I think the richness lies outside or at 
least around the corner when you get into the high school.
    Chairman Baird. Very, very thoughtful answers. Thank you.
    Dr. Ehlers.
    Mr. Ehlers. I agree. Very good answers and I am not sure 
what wisdom I can add to it other than for some observation. 
All the talk about Sputnik makes me feel good because I just 
finished writing an article which was entitled, ``Where Is 
Sputnik When We Need It?'' Because that is what we have here. 
We need a reawakening of the importance of science.
    During my years working with elementary schools and trying 
to put science programs in before I got into politics, and also 
visiting a lot of schools now, and when they have something 
special dealing with science, whether it is a NASA Program on-
line or Jason Program, then they want me to come out and 
participate.
    A couple of things have impressed me. Number one is 
something we haven't talked about here at all. In my 
experience, and I have a district that is largely urban, the 
single-most important factor in the success of a student is to 
have at least one interested and involved parent. If you have 
that, the school and the teachers have a chance. If you don't 
have that, it is very, very tough for them.
    Second element is the teacher. And you must have a well-
trained teacher, and I can't tell you how many, I have seen 
very few poor teachers. I have seen a lot of teachers who 
wanted to teach better in math and science, but they never had 
the proper training in the subject matter or in the 
methodology.
    And I think the most effective use of our money is, first 
of all, to train the teachers so that they themselves are 
excited. And then, of course, beyond that you need a good 
curriculum, and you have to have the money for the equipment. 
Trying to teach science without equipment is I think quite 
meaningless. You can do it at the theoretical physics level, 
but it is kind of backwards to me that we wait until high 
school and college level to really get students involved in 
laboratories when the time they really need it is when they are 
in elementary school. It gets them more excited, gets them more 
involved. So I am totally in agreement with what you are 
suggesting.
    And Mr. Murdock, you hit it on the nail. We really have to 
do a better job of developing a scientific core within this 
country. We can't depend forever on people from other 
countries.
    So we have, it is clear what the problems are. It is 
relatively clear what the solutions are, whether we decide we 
have to do nanotech in a small number of schools or a large 
number or do telescopes or what have you. We just have to do 
it.
    But putting it together in a comprehensive, workable way 
and above all providing the training for the teachers is 
crucial to this. And that means some reforms at the university 
level and the requirements for students, requirements for 
teachers, the training of teachers, providing adequate 
equipment, and the schools which I think is one of the most 
crucial parts. That is why I have been somewhat negative here, 
because I want to look at the broad picture and see how does 
this fit into all of this? How can we really get the kids 
excited, and how can we do two things here, three things 
actually?
    Excite and innervate the future scientists and engineers. 
That is number one.
    Secondly, how can we prepare the kids for the jobs of the 
future so that they will be able to work in plants that deal 
with nanotechnology or silicon wafers or what have you?
    And thirdly, how can we keep the populous at large excited 
about these things so they are willing to pay the bills and 
support this?
    So we have a lot of work ahead of us. By we I mean the 
scientific and engineering community as well. When speaking to 
scientists and engineers I always encourage them to go out to 
their kid's school or to their nearest school to their 
business, volunteer to speak to a classroom about why they like 
science or why they like engineering, take along some stuff to 
demonstrate, some gee whiz equipment, invite the kids to come 
to their lab or if they are field engineers, to come out and 
see a bridge they are building or what have you.
    That is the real way to get the kids involved, hands on, 
with a lot of things that they normally would never encounter 
in their lifetime. And I think we have a unique problem today, 
have had for close to a century. You never had to worry about 
that in about 1860, to 1880, when 80 percent of the population 
lived on farms. You learn an awful lot of chemistry, physics, 
and biology just by living on a farm.
    And so a lot of it didn't have to be taught in schools, and 
today we have to assume they know zero from day one and work 
from there.
    Having pontificated long enough, Mr. Chairman, I yield 
back.
    Chairman Baird. Just long enough, though.
    Dr. Lipinski, Ms. Hooley, either of you have follow-up 
questions or comments?
    With that I want to thank our panelists for an outstanding 
and very informative and stimulating series of presentations. 
Thank our audience Members and our fellow panelists, and with 
that the meeting stands adjourned.
    Thank you very much. The record will be kept open for two 
weeks if anyone wishes to add additional comments.
    [Whereupon, at 3:40 p.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by David A. Ucko, Deputy Division Director, Division of 
        Research on Learning in Formal and Informal Settings; 
        Directorate for Education and Human Resources, National Science 
        Foundation

Questions submitted by Chairman Brian Baird

Q1.  You suggest in your testimony that the Committee may want to 
revisit the issue of improving the nano education component of the NNI 
after NSF has carried out its evaluation of the activities currently 
underway. What is the timeframe in which we will have this additional 
information needed to formulate the most effective educational 
strategies?

A1. Because the NSF-funded projects in nano education in formal and 
informal settings are still underway, evaluation is formative. These 
evaluation efforts are designed to produce data that can guide the 
projects and suggest mid-course corrections and revision. For example, 
instructional materials being developed for high school students have 
been pilot-tested in an Advanced Placement chemistry class; formative 
evaluation revealed that teacher background is the biological aspects 
of the topics was weak, and as a result, the professional development 
component was enhanced. Project summative evaluations will be available 
within the next 12 to 18 months. In addition, the Nanoscale Science and 
Engineering Education program evaluation now being planned should be 
completed in about 24 months.

Q2.  In your testimony you stated that the total NSF investment to Nano 
education awards in fiscal year 2007 was $28 million. How does this 
number break down among the kinds of activities that you described in 
your testimony: instructional resources for grades 7-12, two-year and 
four-year undergraduate programs, informal science programs and 
outreach associated with nanoscience research centers?

A2. About half of the FY07 funds in nano education were direct 
investments in new or continuing awards directed at the following 
audiences: students and teachers in grades 7-12: 43 percent; public 
(informal science education): 30 percent; undergraduate (two- and four-
year) students: 18 percent; graduate: 9 percent. (Because many projects 
address more than one audience, these percentages are estimates.) The 
remaining funds support the education and outreach components of 
nanoscale science and engineering research centers; they also target 
these audiences but are not specifically broken down by audience type.

Q3.  For the undergraduate projects and for the informal science 
education projects, approximately what percentage of funding is 
allocated to equipment or instrumentation acquisitions for each use?

A3. For projects funded through the Nanotechnology Undergraduate 
Education (NUE) in Engineering program, nearly half have included the 
purchase of scanning or atomic force microscopes over the past several 
years. These awards provide up to $200,000 for college curriculum 
development over two years; on average, 20 percent of the project 
budget is devoted to the purchase of equipment or instrumentation. 
Informal science education awards, typically made for the development 
of exhibits, media, and programs, do not typically require funds for 
purchase of major equipment.

Questions submitted by Representative Vernon J. Ehlers

Q1.  What research has been done on the learning and teaching of 
nanotechnology? Do we know how kids best learn this subject? Is high 
school nanotechnology curricula currently being developed and, if so, 
by whom?

A1. Because the field is now and emerging, educational research studies 
are just beginning on the learning and teaching of nanotechnology. The 
NanoEd Resource Portal of the NSF-funded National Center for Learning 
and Teaching in Nanoscale Science and Engineering (NCLT) [http://
www.nanoed.org/nlr/nlr.html] identifies several such studies, such as 
the development of student's conceptions of size and using learning 
progressions to inform curriculum, instruction, and assessment design. 
These studies build on the existing literature on how students learn 
science and on educational research on learning of related topics, such 
as the atomic nature of matter.
    Development of coherent high school nanotechnology curricula is 
also beginning under several NSF grants. For example, NanoLeap (Mid-
Continent Regional Educational Laboratory) is creating and testing two 
month-long units in nanoscience to be used as replacement units in high 
school physics and chemistry courses. NanoSense (SRI International) is 
creating, testing, and disseminating a larger number of shorter 
curriculum units. Because they follow research and development 
methodologies, these projects are helping to build the knowledge base 
about effective learning and teaching along with creating instructional 
materials.

Q2.  What other models exist in other disciplines (pharmacology, 
physics, chemistry, etc.) for continuous federal support of lab 
equipment? Along the same lines, if H.R. 2436 singles out 
nanotechnology, will this create tension between the disciplines/
employers of other high tech industries?

A2. I am not generally aware of models for federal support of lab 
equipment other than its acquisition as part of research or education 
grants. It is possible that singling out nanotechnology might create 
tension, but I have no specific knowledge in this area.

Q3.  What existing NSF programs can already fund this type of 
nanotechnology equipment?

A3. As noted, the Nanotechnology Undergraduate Education (NUE) program 
funds the purchase of this type of equipment as part of college course 
development. The Advanced Technology Education (ATE) program funds 
equipment or instrumentation for technician education at the two-year 
college level. Equipment also can be funded through the NSF Major 
Research Instrumentation (MRI) Program, which is designed to increase 
access to scientific and engineering equipment for research and 
research training in organizations of higher education, research 
museums, and nonprofit research organizations. In addition, the EPSCoR 
Research Infrastructure Improvement Grant Program (RII) supports the 
acquisition of equipment for research and other discovery-based 
learning activities at predominately undergraduate and minority serving 
institutions.

Q4.  You state in your testimony that ``widely used and tested 
nanoscale science and engineering curricula do not yet exist, and it is 
difficult to add new content to existing overcrowded curricula, State 
standards, assessments, and textbooks.'' That being the case, is there 
any research being done to tell us if there is even a need for this, 
particularly at the high school level?

A4. The following arguments based on professional judgment and 
expertise can be made for nanotechnology education at the college and 
high school level. One is the need for a future workforce, which will 
require trained scientists, engineers, and technicians capable of 
working in the field; nanotechnology education at both these levels 
could add to the pipeline. Another is that current and future 
nanotechnology applications offer topics of relevance to the study of 
STEM that could make it more engaging to students. A third is that the 
intrinsically interdisciplinary nature of nanotechnology could provide 
a more effective approach for students to learn STEM content. Given the 
early stage of development of the field and of nanotechnology 
education, there is not enough evidence at this point to support or 
counter these arguments.

Questions submitted by Representative Daniel Lipinski

Q1.  Many of you testified that American students at all levels and the 
public in general must have a significant understanding of 
nanotechnology if America is to stay ahead in this field. Is this field 
different from other emerging scientific areas, either past or present, 
in a way that makes such widespread knowledge vital for the continued 
success of American endeavors in this area?

A1. Nanotechnology differs from many other STEM areas in its highly 
interdisciplinary and integrative nature, since the field brings 
together aspects of physics, chemistry, biology, materials science, 
environmental sciences, engineering, and medicine. In addition, large 
workforce needs have been projected, and the emerging applications of 
nanotechnology may have significant impact on people's lives and 
society. Therefore, one can argue that students and the public should 
have an awareness and basic understanding of the field and its 
applications and implications.

Q2.  Dr. Fraser indicated in his testimony that university faculty have 
almost no access to funding support to assist to the development of 
undergraduate courses that would be coupled with lab experiences. Dr. 
Ucko, do the NSF programs for nanotechnology education at the 
undergraduate level support the types of activities described by Dr. 
Fraser and how widely available are they to college and university 
faculty?

A2. Yes, NSF provides funding for the development of undergraduate 
courses that can be coupled with lab experience. The Nanotechnology 
Undergraduate Education (NUE) in Engineering program funds course 
development in this area; it emphasizes new approaches to undergraduate 
engineering education through interdisciplinary collaborations. NUE in 
Engineering proposals must be submitted by U.S. universities and two- 
and four-year colleges (including community colleges) located and 
accredited in the U.S. that have a College/Department of Engineering or 
Engineering Technology with undergraduate programs in disciplines 
usually supported by NSF. Projects may be proposed by individual 
investigators or by groups from a College/Department of Engineering or 
Engineering Technology. In addition, the Division of Undergraduate 
Education offers another program that addresses this need more broadly, 
such as the Course, Curriculum, and Laboratory Improvement (CCLI) 
program. This program is open to all organizations that can apply for 
NSF funding, including colleges and universities.

Questions submitted by Representative Ralph M. Hall

Q1.  Does NSF currently make any grants directly to secondary schools? 
If not, why not?

A1. Yes, NSF has made, and continues to make, grants directly to 
secondary schools and school districts, based on the merit review of 
proposals submitted to programs such as Information Technology 
Experiences for Students and Teachers (ITEST). In addition, secondary 
school teachers are extensively involved in many awards made to other 
organizations, such as universities, including nanotechnology education 
awards that focus on instructional materials and professional 
development.

Q2.  You mention in your testimony that the University of Michigan 
``has assembled the most significant and developmentally appropriate 
learning goals in nanoscience for grade 7-12 learners.'' Can you 
elaborate?

A2. NSF funded ``A Workshop to Identify and Clarify Nanoscale Learning 
Goals'' (University of Michigan, PI Joseph Krajcik) to create learning 
goals for grades 7-12. The three-day workshop held at SRI International 
in Palo Alto, Calif., on June 14-16, 2006 identified key nanoscience 
learning goals, which the PI and his team have developed into a 
manuscript, ``The Big Ideas of Nanoscience.'' This report has been 
widely circulated, discussed, and refined in the nanoscience education 
community, and is scheduled to be published by the National Science 
Teachers Association.
    ``Big Ideas'' identified in a recent draft of the report include 
the following:

        <bullet>  Size and Scale. Factors relating to size and scale 
        help describe matter and predict its behavior.

        <bullet>  Structure of Matter. All matter is composed of atoms 
        in constant motion. Atoms interact to form molecules or 
        nanoscale structures interacting with each other to form 
        nanoscale assemblies. The arrangement of the building blocks 
        gives matter its properties.

        <bullet>  Size-dependent Properties. The properties of matter 
        can change with scale. As the size of a material approaches the 
        nanoscale, it often exhibits unexpected properties that lead to 
        new functionality.

        <bullet>  Forces. All interactions can be described by multiple 
        types of forces. On the nanoscale, electrical forces with 
        varying strength tend to dominate interactions.

        <bullet>  Self-Assembly. Some materials can spontaneously 
        assemble into organized structures. The process provides a 
        useful way to manipulate matter at the nanoscale.

        <bullet>  Tools and Instrumentation. Development of new tools 
        and instruments drives scientific progress. Recent development 
        of specialized tools has led to new understanding of matter by 
        helping scientists detect, manipulate, isolate, measure, 
        fabricate, and investigate nanoscale matter.

        <bullet>  Models and Simulations. Because they are too small to 
        see, models are needed to understand, visualize, predict, 
        explain, and interpret data about nanoscale phenomena.

        <bullet>  Nano and Society. The field of nanotechnology is 
        driven by the aim to advance broad societal goals. The products 
        of nanotechnology may impact our lives in both positive and 
        negative ways.

        <bullet>  Quantum Mechanics. As the size or mass of an object 
        becomes smaller, the wave character becomes more important and 
        quantum mechanics becomes necessary to explain its behavior.
                   Answers to Post-Hearing Questions
Responses by Nivedita M. Ganguly, Chairperson, Science Department, Oak 
        Ridge High School, Oak Ridge, TN

Questions submitted by Representative Vernon J. Ehlers

Q1.  What research has been done on the learning and teaching of 
nanotechnology? Do we know how kids best learn this subject? Is high 
school nanotechnology curricula currently being developed and, if so, 
by whom?

A1. Students agree almost unanimously that when they have done inquiry-
based labs with a variety of tools in a nanoscale it ``has changed 
their view of the sciences and scientists.'' They also said that ``this 
was the best experience that they had ever had in a science class and 
they hoped that one day all high school students would have the 
opportunity to have the same experiences.'' (Orange High School, North 
Carolina)
    There are a number of different sources of Nanotechnology Curricula

        <bullet>  USA Nanotechnology Initiative has set up a 
        nanotechnology website for K-12 students. A Teacher's Guide has 
        also been written.

        <bullet>  Nanaoscale Science is also in the process of 
        developing Teaching Modules.

        <bullet>  National Center for Learning and Teaching in 
        Nanoscale Science (NCLT) at Northwestern University.

    These are just two examples of a number of different sources.

Q2.  What other models exist in other disciplines (pharmacology, 
physics, chemistry, etc.) for continuous federal support of lab 
equipment? Along the same lines, if H.R. 2436 singles out 
nanotechnology, will this create tension between the disciplines/
employers of other high tech industries?

A2. There is not a continuous support of federal funds for lab 
equipment. The way that we have been able to get them is through grants 
from different agencies--National Science Foundation, Bioteach Grants 
(started in Massachusetts, now slowly extending to other states). 
Teachers write grants to equip their labs and through professional 
development they are trained in their usage.
    There will be no tension among the departments because 
nanotechnology is a very specific tool which will be applicable to 
every discipline.

Questions submitted by Representative Daniel Lipinski

Q1.  Many of you testified that American students at all levels and the 
public in general must have a significant understanding of 
nanotechnology if America is to stay ahead in this field. Is this field 
different from other emerging scientific areas, either past or present, 
in a way that makes such widespread knowledge vital for the continued 
success of American endeavors in this area?

A1. Because nanotechnology can be linked to a variety of applications, 
we can help students of all ages understand how nanotechnology concepts 
are relevant to their everyday lives. This relevance will get them more 
excited about learning science and math. And because it integrates many 
disciplines (chemistry, physics, biology, environmental science, 
engineering etc.), it can build a strong interdisciplinary science 
literacy, which is absolutely imperative in today's world.

Q2.  What broader STEM education goals could exposure to nanotechnology 
in high school help achieve?

A2. The reason why exposure to nanotechnology would help STEM education 
is related to question 1--since it is a tool that underlies all the 
sciences, it is a way to be kinesthetically, learn trouble-shooting 
skills, and most importantly it will relate to their lives, they will 
be more engaged and hence more likely to remain in the fields of 
science and math. The number of students going into these areas is 
steadily decreasing and we have to find ways to stop that.

Q3.  In your interactions with other science teachers and department 
Chairs across the country, do you sense that they want to push their 
students further and keep them on the cutting edge, or are they simply 
worried about teaching the basics?

A3. As a National Leader for the College Board I get a chance to travel 
all over the country. So , I get a chance to meet and talk to a lot of 
teachers and administers. We all agree that the basics have to be 
taught. But, it should not stop there. To be competitive in the world 
arena we have to make sure that our students are the cutting edge in 
their learning. World wide there will be a need for two million nano 
workers and we have to make sure that our students are part of the $2 
trillion nanotechnology market.
                   Answers to Post-Hearing Questions
Responses by Hamish L. Fraser, Ohio Regents Eminent Scholar and 
        Professor, Department of Materials Science and Engineering, 
        Ohio State University

Questions submitted by Chairman Brian Baird

Q1.  There is ongoing tension at the undergraduate level between 
providing a strong disciplinary education as a foundation for almost 
any STEM related academic or professional career, versus offering 
broad, interdisciplinary undergraduate programs. Nanotechnology clearly 
falls in the middle of that debate. Can you elaborate on whether you 
are advocating individual courses in nanotechnology or whether you 
would support the concept of a B.S. in nanotechnology, and if so, what 
that might look like?

A1. I am not a strong advocate of the immediate establishment of a B.S. 
in nanotechnology. I believe that nanotechnology impacts a large number 
of courses that are presently taught and so faculty have the 
opportunity to modify these existing classes to include relevant 
aspects of nanotechnology. Of course, faculty will also establish new 
courses with nanotechnology as the subject matter. As the number of 
these modified and new courses grow, I would expect, and support, the 
notion of a degree in a traditional area with specialization in 
nanotechnology (for example, similar to our materials science and 
engineering degrees with specializations in metals, ceramics, or 
polymers, etc.).

Q2.  You mentioned in your testimony working with Columbus City schools 
to expose high school students to scanning electron microscopes. How 
did this partnership begin and how is it funded?

A2. The interaction with the Columbus City Schools began as an 
educational outreach activity of our Center for the Accelerated 
Maturation of Materials (CAMM). We made contact with a number of school 
districts, including Columbus, and found students from the Columbus 
Alternative High School to be very eager to become interns for one day 
per week. In this way, our outreach program was initiated and we have 
been working in this mode for several years. I have no specific source 
of funding for this activity and so make use of discretionary funds 
that are generated by some of the activities of CAMM.

Q3.  Is this type of nanotechnology equipment aligned with the 
curricula currently in place? What prevents high schools from 
purchasing this equipment now?

A3. The equipment is now available, at a cost of $60k per microscope. 
We have not yet aligned the use of the equipment with current high 
school curricula. We have been working with our high school interns to 
ascertain what sort of projects on the microscope are feasible and 
which will stimulate the imagination of students. It is our intention 
to collaborate with high school teachers to effect the inclusion of the 
instruments in their instructional materials. It is the cost of the 
instruments that prevents high schools from acquiring the microscopes.

Questions submitted by Representative Vernon J. Ehlers

Q1.  Can you please explain how a course on nanotechnology differs from 
materials science? Instrumental analysis? Characterization? Is your 
goal to supply such equipment to majors and non-majors alike? If just 
majors, are these students already exposed to this type of equipment in 
their junior and senior years?

A1. In principle, a course on nanomaterials would be somewhat similar 
to a course on materials science. There would be an emphasis on 
understanding the role of scale, i.e., nanoscale, on the behavior and 
properties of these types of materials. I would not advocate 
establishing courses on instrument analysis or characterization 
specifically for nanotechnology, as the present courses cover the 
relevant material well.
    I assume that your question refers to majors in materials science. 
It is my experience that juniors and seniors are exposed to materials 
characterization techniques, but their ``hands-on'' experience is 
rather limited. I am an advocate of including use of these recently 
developed and simplified instruments in a number of existing courses to 
assist in familiarizing students with characterization.

Questions submitted by Representative Daniel Lipinski

Q1.  Many of you testified that American students at all levels and the 
public in general must have a significant understanding of 
nanotechnology if America is to stay ahead in this field. Is this field 
different from other emerging scientific areas, either past or present, 
in a way that makes such widespread knowledge vital for the continued 
success of American endeavors in this area?

A1. I believe that nanotechnology is rather different from other recent 
technologies which have been the subject of national and international 
focus. The reason is that nanotechnology impacts a very broad set of 
disciplines, for example, physical sciences and engineering, medical 
and bio-sciences, environmental sciences, food sciences, etc. It is 
because of this very broad impact that in the future this technology 
will have a very major influence on the Nation's economy. In contrast, 
take for example high temperature superconductivity. The scientific 
underpinning of this very important technological area is centered in 
solid state physics and so, from an educational viewpoint, the 
scientific impact is rather narrow.
    The requirement for widespread knowledge in the case of 
nanotechnology arises from the need to develop a workforce that will be 
sufficiently equipped to permit exploitation of the economic advantages 
that nanotechnology will offer.

Q2.  You indicated in your testimony that university faculty have 
almost no access to funding support to assist in the development of 
undergraduate courses that would be coupled with lab experiences. Were 
you aware of the NSF-funded undergraduate programs described by Dr. 
Ucko?

A2. I am aware of the funding opportunities currently offered by NSF. 
It has been my experience that faculty apply for instruments which may 
be used both for research and instruction. In this case, the complexity 
of the operation of the equipment limits its useful application in the 
classroom. The proposed bill is focused on education, involving 
acquisition of simplified instruments and the development of education 
modules that will increase the ``hands-on'' time for students.
                   Answers to Post-Hearing Questions
Responses by Ray Vandiver, Vice President of New Project Development, 
        Oregon Museum of Science and Industry

Question submitted by Representative Daniel Lipinski

Q1.  Many of you testified that American students at all levels and the 
public in general must have a significant understanding of 
nanotechnology if America is to stay ahead in this field. Is this field 
different from other emerging scientific areas, either past or present, 
in a way that makes such widespread knowledge vital for the continued 
success of American endeavors in this area?

A1. Nanotechnology has been described as the convergence of physics, 
chemistry, and biology. The study and use of nanotechnology covers a 
broad range of disciplines and industries and can be thought of as its 
own area of science focus. It is more comparable to the field of 
chemistry or physics rather than a specific area of study such as 
genetic engineering or particle physics.
    Nanotechnology is projected to have large impacts on the economy, 
the environment, and on quality of life. It will likely become embedded 
or play a significant factor in many of the products and procedures 
that will influence our lives and future. It is important for the 
general public to have context and confidence in this emerging field as 
it will have direct impact on them.

Questions submitted by Representative Ralph M. Hall

Q1.  You testified that professional development funding is rare, 
incredibly valuable, and in great need to the informal science 
community, yet the bill before us today limits funding for this to 25 
percent of the grant amount. Is this sufficient? Would you purchase 
nanotechnology equipment for your museum patrons to use? How many 
people do you estimate would use the equipment each year?

A1. Twenty-five percent of the grant amount could cover either the 
development of or the delivery of facilitated instruction and workshops 
for the professional development of museum educators. The amount would 
not be sufficient to cover both development and delivery. OMSI is 
always striving to provide direct access and experience to our visitors 
with exhibits and props that communicate cutting edge and emerging 
science and technology topics. We would be interested in purchasing 
exhibits and equipment that are designed specifically for use in the 
hands-on setting of a science museum. OMSI receives on average 750,000 
visitors annually to our facility. Of that number, any one exhibit or 
lab experience will typically be experienced by 10 percent of the 
total. Based on this estimate, we would expect 75,000 people annually 
to be impacted by an exhibit or program on nanotechnology.
                   Answers to Post-Hearing Questions
Submitted to Sean Murdock, Executive Director, NanoBusiness Alliance

    These questions were submitted to the witness, but were not 
responded to by the time of publication.

Questions submitted by Representative Daniel Lipinski

Q1.  Many of you testified that American students at all levels and the 
public in general must have a significant understanding of 
nanotechnology if America is to stay ahead in this field. Is this field 
different from other emerging scientific areas, either past or present, 
in a way that makes such widespread knowledge vital for the continued 
success of American endeavors in this area?

Q2.  What is the nanobusiness community's chief concern relating to 
STEM education?

Q3.  Are nanotechnology businesses currently able to hire enough 
qualified people? Can you predict a future trend? What is the impact of 
the high level of reliance on foreign students in American graduate 
science programs?

Q4.  After the Sputnik launch 50 years ago this Thursday, we passed the 
National Defense Education Act to jump-start our nation's ability to 
generate aerospace scientists and engineers. There may not be a nano-
Sputnik right now to focus our attention, but are we in danger of 
falling behind in nanotechnology? Specifically, are we going to be in 
trouble as we try to move beyond academic research to applications?

Q5.  Technical education is undervalued in America, but I believe it is 
only going to become more important in the future. Recognizing that we 
are very early in the process of commercializing nanotechnology, what 
skills do you think will be required by nanotechnology businesses as 
they scale up and hire not just scientists and researchers, but 
technicians?

Questions submitted by Representative Ralph M. Hall

Q1.  What is the average cost of the nanotechnology equipment your 
members wish to have the government purchase? What are the maintenance 
costs? What is the useful life of the equipment?

Q2.  Are your members currently working on nanoscience education 
curricula? If so, are they collaborating with anyone on this effort and 
what type of research has been completed to help develop these 
curricula? Are you working with school districts to gauge where they 
are in being prepared to utilize this equipment?
                   Answers to Post-Hearing Questions
Responses by Gerald Wheeler, Executive Director, National Science 
        Teachers' Association

Q1.  What research has been done on the learning and teaching of 
nanotechnology?

A1. One of the goals of the National Nanotechnology Initiative (NNI), a 
long-term research and development program, is to educate and train ``a 
new generation of skilled workers in the multi-disciplinary 
perspectives necessary for rapid progress in nanotechnology.'' To 
support these educational goals, the National Science Foundation has 
funded several groups, including Nanoscale Science Engineering Centers 
(NSECs), Materials Research Science and Engineering Center (MRSECs), 
National Nanotechnology Infrastructure Network sites (NNIN), Nanoscale 
Informal Science Education network (NISE), and the National Center for 
Learning and Teaching Nanoscale Science and Engineering (NCLT), and 
Nanoscience Instructional Materials Development (NIMS) projects to 
create materials to inform the public (and then students) about 
nanoscience.

Q2.  Do we know how kids best learn this subject?

A2. In an upcoming publication from the National Science Teachers 
Association titled ``The Big Ideas of Nanoscience,'' authors Shawn 
Stevens, LeeAnn Sutherland, and Joseph Krajcik from the University of 
Michigan Ann Arbor, and Patricia Schank, from SRI International, 
discuss this issue.
    Much more work is needed to determine how children can best learn 
this subject. According to the authors, we first need to ``clarify the 
significant and developmentally appropriate learning goals in 
nanoscience for grade 7-16 learners. For nanoscience ideas to be used 
in schools, they need to be a component of the recognized learning 
goals for the Nation's youth.''
    ``Because this is such a new field, debate exists about what should 
be included under the nanoscience and nanotechnology umbrella-the only 
agreement being that `very small things' are involved. Although 
nanoscale concepts may be addressed in particular fields and courses, 
education has yet to systematically address nanoscale concepts in an 
integrated, cross-disciplinary fashion. The basic physics of atoms and 
molecules, for example, is the foundation of all science; therefore, 
early emphasis on these concepts would likely prove beneficial for 
students as they study biology, chemistry, physics and Earth science. 
Building understanding in all of these disciplines from the atomic and 
molecular level can facilitate the interdisciplinary connections that 
students need to make to understand nanoscience and other emerging 
science. However, education traditionally presents concepts in a 
discipline-defined rather than cross-disciplinary manner.''
    ``Incorporating any emerging scientific field into the classroom 
presents many challenges. As with any addition to the curriculum, new 
materials must be developed, and professional development must be 
implemented in order to prepare teachers to successfully support 
student learning. However, emerging science brings with it unique 
challenges and questions. Which topics are the most important? Which 
ones can and should be incorporated into the curriculum? At what grade 
level is it appropriate to introduce particular concepts? Where in the 
instructional sequence do concepts logically build on what came before 
and what will follow? How do new ideas connect to those already a part 
of the traditional science curriculum? How are these new topics 
prioritized relative to traditional science concepts? Determining the 
answers to these questions is a difficult and complex process that 
requires a coordinated effort between scientists, educators, 
researchers and policy-makers.''
    ``Increasing the challenge for the educational community is the 
interdisciplinary nature of nanoscience, which sets it apart from the 
disciplines contained in a traditional grades 7-16 science curriculum. 
Science in American schools tends to be taught in disciplinary fashion, 
with emphasis on biology, chemistry or physics, rather than on concepts 
important across disciplines. Emphasis on cross-disciplinary concepts 
would arguably enable students to develop deeper conceptual 
understanding than is currently the case. The interdisciplinary nature 
of nanoscience (and other emerging science) necessitates erasure of the 
curricular demarcations traditionally supported in schools. As a model, 
science laboratories that are the source of major breakthroughs are 
often comprised of interdisciplinary teams (Ref). The learning goals 
associated with nanoscience must explicitly foster interdisciplinary 
connections as well as deeper understanding of fundamental, core 
concepts and principles.''
    ``It is important to consider how the learning goals in nanoscience 
align with national standards. In the current educational climate, 
schools are under increasing pressure to show that their students can 
succeed on high-stakes examinations aligned with Standards. But, 
without explicit links to the national, State or local standards, new 
scientific ideas are difficult to introduce into the curriculum.''
    ``Related to that is the question of how nanoscience is introduced. 
It is imperative that nanoscience not be considered a ``topic'' in the 
curriculum, but must be integrated such that nanoscience concepts are 
brought to the fore at appropriate points within the curriculum. In the 
past, emerging science topics were often taught as separate entities, 
and the links between traditional science ideas and new ones were not 
emphasized (i.e., newer topics are often taught in stand-alone units). 
Because they are not part of the formal curriculum, new ideas may not 
be well connected to traditional concepts either in their presentation 
or in terms of students' conceptual development, even though 
connections can illuminate the process of science for students as well 
as provide a motivation for them to learn science.''
    ``It seems clear that a better strategy would be to carefully and 
systematically integrate new scientific ideas into the curriculum, 
making it more interdisciplinary in the process. Connections between 
nanoscience and traditional mathematics and science must be explicit 
for students. These connections should be made not just within a single 
class, but across grades. In order to achieve this, materials must be 
developed that support learning core principles, while also aligning 
with the national, State and local standards. However, as the 
nanotechnology revolution was in its infancy when the Benchmarks (AAAS, 
1993) and Standards (NRC, 1996) were written, many concepts critical 
for understanding nanoscale science were not included or explicitly 
specified.''
    ``Therefore, the learning goals associated with nanoscience must 
explicitly foster the necessary interdisciplinary connections. Because 
these connections have not historically been fostered at either the 
secondary or post-secondary level, the teachers themselves may not have 
made them. Therefore, these connections must be made explicit to 
teachers through professional development and curriculum materials.''
    ``Having a set of agreed upon learning goals for nanoscience will 
help ensure that all components of the educational system including 
curriculum, instruction, and assessment can be aligned. Alignment 
occurs once learning goals are clearly defined, specified, and 
developed. Learning goals drive state assessments that, in turn drive 
materials, resources and teacher education. Identifying appropriate 
nanoscience learning goals will allow the development of aligned 
science education that will provide students with the ability to 
explain phenomena within and between disciplines (Wilson & Berenthal, 
2006). Aligning all parts of the system to learning goals fosters the 
development of instructional tools and resources, educational 
experiences for teachers, research studies, and policies that are 
focused on these same critical ends.''

Q3.  Is high school nanotechnology curricula being developed and, if 
so, by whom?

A3. The NanoLeap project is developing instructional materials that 
teach high school students about nanoscale science. The curriculum 
modules, entitled A NANOLEAP INTO NEW SCIENCE, will include student 
activities, experiments, and assessments for use as replacement units 
in high school physical science and chemistry courses. The materials 
will promote student learning of the interdisciplinary nanoscale core 
concepts of force (physics) as it relates to properties of matter 
(chemistry), scale (mathematics), scientific instrumentation 
(technology), and processes (inquiry). Teacher guides and professional 
development opportunities will address the varied needs of the science 
education community and ensure effective classroom implementation. This 
work is supported by the National Science Foundation, Division of 
Elementary, Secondary and Informal Education award #ESI-0426401.
    SRI International, an independent research and development 
organization, received a four-year, $925,000 grant from the National 
Science Foundation to help high school students visualize the 
principles of nanoscience and nanotechnology--the physical, chemical, 
and biological behavior of particles on a nanoscopic scale. SRI's 
program, NanoSense, brings an interdisciplinary approach to viewing 
core concepts from physics, chemistry, biology, materials science and 
engineering through a different lens. The NanoSense curriculum will 
include classroom-tested activities to help high school students 
understand the underlying principles, applications and implications of 
nanoscale science. Some of the activities will be simple, one-day 
enrichment activities, and others will span several class periods.
    These activities will be conducted in science-related classrooms at 
five high schools prior to national dissemination. Teachers will work 
with the NanoSense team to advise on activity development and conduct 
pilot tests. A few hundred students are expected to engage in program 
activities.
    During the program, SRI researchers will study how students improve 
their understanding of nanoscience concepts and technological 
applications over time, and how teachers use the NanoSense tools and 
activities to support student discourse and understanding.
    NanoSense builds on ChemSense, an NSF-funded SRI program to study 
students' understanding of chemistry and develop software and 
curriculum to help students investigate chemical systems and express 
their ideas in animated chemical notation. SRI is working closely with 
chemists, physicists, educators and nanoscientists to generate 
nanoscience activities that build on ChemSense activities.
    The NSF funded Center for Learning and Teaching in Nanoscale 
Science and Engineering (NCLT), under the direction of Northwestern 
Professor of Materials Science and Engineering, Robert P.H. Chang, will 
develop scientist-educators who can introduce nanoscience and 
nanoengineering concepts into schools and undergraduate classrooms. 
Additionally, it will play the key role in a national network of 
researchers and educators committed to ensuring that all Americans are 
academically prepared to participate in the new opportunities 
nanotechnology will offer.
    The NCLT is a partnership between Northwestern University, Purdue 
University, the University of Michigan, Argonne National Laboratories, 
and the Universities of Illinois at Chicago and Urbana-Champaign. 
Drawing on the strengths of the various partners in nanotechnology, 
instruction-materials development, educational assessment, and student 
cognition, the NCLT will create modular education materials designed to 
integrate with existing curricula in grades 7-12, and to align with 
national and state science education standards. Each module will be 
based on topics from nanoscience and nanoengineering, selected and 
developed by an interdisciplinary team including scientists, engineers, 
education researchers and graduate students, and practicing teachers. 
Expanded versions of the modules will be targeted at community colleges 
and undergraduate institutions and will eventually serve as the core of 
semester-long courses in nanotechnology.
    Exploring the Nanoworld website, an offering of the University of 
Wisconsin-Madison Materials Research Science and Engineering Center 
(MRSEC) Interdisciplinary Education Group (IEG), is an excellent 
resource for teachers and students of all ages. Available on the site 
are movies, slide shows, kits and references (including the Lego 
nanobricks booklet), and modules for K-12 teachers. See also UW's 
Educator Resources page from the Internships in Public Science 
Education program.
    Northwestern University's Materials World Modules. This center has 
produced a series of interdisciplinary modules based on topics in 
materials science, including composites, ceramics, concrete, 
biosensors, biodegradable materials, smart sensors, polymers, food 
packaging, and sports materials. The modules are designed for use in 
middle and high school science, technology, and math classes and have 
been used by over 9,000 students in schools nationwide.
    Nanotechnology Education Kits, experiential learning materials for 
middle and high school students, are available from NanoSonic, 
Blacksburg, Va. See also Nanoscience Education online.
    Nanoscale Science Education Center at University of North Carolina-
Chapel Hill, shows middle and high school students how an atomic force 
microscope works and features experiments on live viruses. One of their 
partners is the Nanoscale Science Education Group at North Carolina 
State University's College of Education.
    Penn State University's Center for Nanotechnology Education and 
Utilization offers resources such as Workshops for Educators and a 
video about ``Careers in Nanofabrication'' that you can view online or 
order a free copy. High school students from across Pennsylvania can 
attend a three-day summer ``Nanotech Camp.'' These nanotech camps 
provide secondary school students with an orientation to basic 
nanofabrication processes and applications, and the opportunity to 
observe these same nanofabrication processes in the Penn State 
Nanofabrication Facility.
    The Nanotechnology Simulation Hub centered at Purdue University has 
online experiences in nanotechnology available.
    The Nanobiotechnology Center located at Cornell University has 
special Teacher Resources, including online lesson plans for K-12 
student activities and information about Montessori curriculum 
development.
    NanoKidsTM, is a project of Rice University's Tour Group. An 
overview of the program is online.
    Interactive Nano-visualization in Science and Engineering Education 
(IN-VSEE) is a consortium of university and industry scientists and 
engineers, community college and high school science faculty and museum 
educators with a common vision of creating an interactive web site to 
develop a new educational thrust based on remote operation of advanced 
microscopes and nano-fabrication tools coupled to powerful surface 
characterization methods.
    NANOPOLISTM offers intuitive multimedia educational material on 
nanotechnology, a result of the collaboration with more than 200 
research groups worldwide.
    New programs to promote, educate and excite young people about the 
amazing world of nanotechnology are being designed under a partnership 
between the NanoBusiness Alliance and the National Science & Technology 
Education Partnership (NSTEP).

Q4.  Is this type of nanotechnology equipment aligned with the 
curricula currently in place?

A4. We know of no research that has determined if this type of 
nanotechnology equipment is aligned with current curriculum.

Q5.  What prevents high schools from purchasing this equipment now?

A5. A lack of funding prevents high schools from purchasing this 
equipment. According to the 2000 National Survey of Science and 
Mathematics Education, an NSF-funded project conducted by Horizon 
Research, the median amount high schools spent per year on science 
equipment was $1,000. The median amount high schools spent per year on 
consumable supplies was $1,500, and the median amount high schools 
spent per year on software was $100. Broken down on a per pupil basis:

        <bullet>  $2.05 was the median amount high schools spent per 
        pupil on science equipment

        <bullet>  $3.12 was the median amount high schools spent per 
        pupil on consumable supplies

        <bullet>  $0.19 was the median amount high schools spent per 
        pupil on software.

Q6.  Many of you testified that American students at all levels and the 
public in general must have a significant understanding of 
nanotechnology if America is to stay ahead in this field. Is this field 
different from other emerging scientific areas, either past or present, 
in a way that makes such widespread knowledge vital for the continued 
success of American endeavors in this area?

A6. While we believe that nanotechnology is an emerging important 
research area and employment opportunity, it is difficult to see how 
this is different from microbiology and global climate change, to 
mention just two examples. What our nation's children need is a solid 
foundation in the fundamental aspects of science that are the 
precursors of success in any of the emerging 21st century technologies.

Q7.  Your testimony has focused on the need to address fundamental 
problems in our science classroom--the need to bring up the trailing 
edge of our nation's science education infrastructure. But should we 
not at the same time push forward the leading edge, by giving good 
schools the opportunity to teach their capable students 21st century 
science?

A7. Yes, we need to address both ``ends of the spectrum'' (as well as 
the middle). In the 21st century our nation needs to invest its limited 
resources in areas that will have the largest impact. The fundamental 
problems in our nation's science classrooms (specifically the science 
laboratory experiences) is not confined to just cohort of students. As 
stated in the National Research Council's report, America's Lab Report, 
our nation's science education laboratories are in dire shape with 
researchers and educators not even agreeing on how to define high 
school science laboratories or on their purposes.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
